<html>
<title> - LEVERAGING MUTUAL AID FOR EFFECTIVE EMERGENCY RESPONSE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



         LEVERAGING MUTUAL AID FOR EFFECTIVE EMERGENCY RESPONSE

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                     COMMUNICATIONS, PREPAREDNESS,
                              AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2007

                               __________

                           Serial No. 110-87

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
48-982 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

        Jessica Herra-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

LORETTA SANCHEZ, California          CHARLES W. DENT, Pennsylvania
NORMAN D. DICKS, Washington          MARK E. SOUDER, Indiana
NITA M. LOWEY, New York              MIKE ROGERS, Alabama
ELEANOR HOLMES NORTON, District of   BOBBY JINDAL, Louisiana
Columbia                             DAVID DAVIS, Tennessee
DONNA M. CHRISTENSEN, U.S. Virgin    PETER T. KING, New York (Ex 
Islands                              Officio)
BOB ETHERIDGE, North Carolina
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (II)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress from 
  the State of Pennsylvania, and Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     2

                               Witnesses

Mr. Marko Bourne, Director of Policy and Program Analysis, 
  Federal Emergency Management Agency, Department of Homeland 
  Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    17
Mr. Jim McPartlon, President, American Ambulance Association:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37
Mr. Kenneth Murphy, President, National Emergency Management 
  Association, Director of the Oregon Office of Emergency 
  Management:
  Oral Statement.................................................    19
  Prepared Statement.............................................    22
Major Michael Ronczkowski, Homeland Security Bureau, Miami-Dade 
  Police Department:
  Oral Statement.................................................    30
  Prepared Statement.............................................    33
Chief Steven P. Westermann, President, International Association 
  of Fire Chiefs:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27

                             For the Record

Sheriff Leroy D. Baca, Los Angeles County:
  Prepared Statement.............................................    10
Mr. Richard L. Cashdollar, Senior Advisor, Major Cities (Police) 
  Chiefs:
  Prepared Statement.............................................     3

                                Appendix

Additional Questions and Responses:
  Responses from Mr. Marko Bourne................................    47
  Responses from Mr. Jim McPartlon...............................    52
  Reaponses from Mr. Kenneth Murphy..............................    53
  Responses from Major Michael Ronczkowski.......................    57
  Responses from Chief Steven P. Westermann......................    61

 
         LEVERAGING MUTUAL AID FOR EFFECTIVE EMERGENCY RESPONSE

                              ----------                              


                      Thursday, November 15, 2007

             U.s. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Etheridge and Dent.
    Mr. Cuellar. All right. This meeting is now called to 
order. The subcommittee will come to order.
    First of all, I want to thank all the witnesses for being 
here. And I apologize, as you can see, we are toward the end of 
the session, so it is going to be one of those interesting 
hearings as we try to go in and do some votes. But I think 
probably what we will do is we will do the opening statements, 
and then we will probably have to depart as we go to do the 
votes, and then we will come back again.
    So I want to thank all of you all as we examine the 
effectiveness of the mutual aid system which we have in place 
across the country. If our Nation is going to truly be 
resilient to the effects of an act of terrorism or natural 
disaster, we need to have a robust system in place whereby an 
effective community can call on resources from surrounding 
jurisdictions and States to respond to that particular 
emergency. Additionally, we need to know that when a call goes 
out for help, the resources come quickly, the right people and 
the right equipment show up, the personnel is trained, and the 
assistant community at stake will get paid back in a timely 
manner.
    With this hearing we hope to examine how mutual aid works 
during an emergency and how it is managed both in an intrastate 
and an interstate level. This includes examining the 
effectiveness of the Emergency Management Assistance Compact, 
or EMAC, or how it can be improved. As you know, EMAC is an 
interstate mutual aid compact that provides a legal system by 
which States affected by this type of disaster may request 
emergency assistance from other States. The compact is 
administered by the National Emergency Management Association, 
who we are glad to have here today to testify. The compact was 
extensively utilized in the wake of Hurricane Katrina and in 
the recent California wildfires. I would be interested in 
hearing about the improvements made to the system since Katrina 
and how they played out during the wildfires.
    This committee is very interested in the issue of mutual 
aid and in credentialing also. In fact, as part of the 9/11 
Commission bill we passed earlier this year, we require that 
within 1 year of enactment, the credentialing and the 
resourcing-typing standards under development by FEMA be 
finalized and provided to every Federal agency with 
responsibilities under the National Response Framework as well 
as State, local and tribal governments. We also mandated that 
all Federal agencies implement credentialing and resource 
typing standards within 6 months of receiving the standards 
from FEMA. I look forward to hearing from FEMA on the progress 
they are making on implementing this requirement and the steps 
that they are taking to ensure that our Nation's mutual aid 
system works.
    Finally, I look forward to hearing from our witnesses from 
the fire, EMS and law enforcement communities on how they fit 
in the system. I would also be interested to hear how they feel 
we can make progress on the credentialing of first responders 
so that incident commanders can accurately verify the identity 
and qualifications of the emergency personnel responding to an 
incident.
    In closing, let me say that I totally believe that when it 
comes to mutual aid and credentialing, FEMA and our State and 
local emergency personnel are making progress; however, I think 
we still have a long way to go to be ready to respond to the 
next disaster.
    Mr. Cuellar. The Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from Pennsylvania, Mr. Dent for 
an opening statement.
    Mr. Dent. Thank you, Mr. Chairman.
    As you know, mutual aid agreements, such as the Emergency 
Management Assistance Compact, or EMAC, form the pillar of our 
emergency management system. Through a series of agreements and 
a network administered by the National Emergency Management 
Association, it provides State and local governments with a 
variety of emergency response capabilities to fill gaps or 
shortfalls in their own capabilities.
    EMAC was used to help respond to the terrorist attacks of 
September 11, Hurricanes Katrina and Rita in 2005, and most 
recently, the wildfires in California. In each of these 
incidents, unaffected States were able to offer assistance, 
including the provision of emergency management personnel, law 
enforcement officers, firefighters, fire engines, search-and-
rescue teams, communications equipment, ambulances, and public 
health personnel, among other things.
    Today's hearing offers an opportunity to discuss the 
critical support EMAC and other mutual aid agreements provide 
in responding to these emergencies. It also provides an 
opportunity to discuss how we can further support these 
agreements and improve their efficiency and effectiveness.
    I am pleased to have with us today a distinguished group of 
experts to discuss this important issue, including 
representatives from FEMA and the National Emergency Management 
Agency, as well as individuals representing the fire services, 
law enforcement community, and emergency medical service 
providers. Each of the witnesses is working hard to support 
mutual aid and to improve the sharing of critical resources in 
times of need.
    And, as you may be aware, this hearing was originally 
scheduled to occur last week at which time a representative 
from the Major City Chiefs, Richard Cashdollar, was scheduled 
to testify. Unfortunately Mr. Cashdollar had a scheduling 
conflict and was unable to be with us today, but he did, 
however, submit a written testimony, and I would like to ask 
unanimous consent that it be included in the record.
    Mr. Cuellar. So ordered. Without objection, so ordered.
    [The statement of Mr. Cashdollar follows:]

                             For the Record

  Prepared Statement of Richard L. Cashdollar, Senior Advisor, Major 
                         Cities (Police) Chiefs

    Chairman Cuellar, Ranking Member Dent, members of the Subcommittee, 
thank you for the opportunity to discuss the issues and opportunities 
surrounding the use of mutual aid in response to all-hazard disasters 
in the United States.
    My name is Richard Cashdollar. I am a consultant associated with 
Frazier Group LLC, a nationwide firm specializing in law enforcement 
and homeland security issues. I also serve as a volunteer Advisor for 
the Major Cities (Police) Chiefs Association (MCC). MCC membership is 
comprised of the Chiefs of the 63 largest police departments in the 
United States and Canada. Membership in MCC is limited to Chiefs who 
serve cities with a core population greater than 500,000, and who have 
police departments with more than 1,000 sworn officers. I appear before 
you today in my capacity as Senior Advisor to MCC.
    I have been a public servant for two careers, serving as a 
commissioned officer in the United States Coast Guard for twenty-six 
years, and as Executive Director of Public Safety for the City of 
Mobile, Alabama, for nearly twelve years. During my Coast Guard career 
I was heavily involved in the drug wars in the Caribbean, serving not 
only operational interdiction assignments, but also involved in 
interagency law enforcement initiatives, and in tactical drug 
intelligence fusion operations as well. I also served tours of duty 
where I was seconded by the Coast Guard to the Justice Department, the 
State Department, the Office of the Vice President, and the Executive 
Office of the President. During my second career as Executive Director 
of Public Safety for the City of Mobile I was responsible for all 
public safety programs in the City, managing an annual budget of nearly 
$70M, supervising two professional Chiefs and the nearly 1,200 
personnel in the Police Department, the Fire Department, and Municipal 
Court. I also served as the City's representative to the Mobile County 
Emergency Management Agency's Governing Board, and completed three two-
year terms as Chairmen of the Board.
    As we collectively strive to better prepare our country to Prevent, 
Protect, Respond to, and Recover from all-hazard disasters there can 
hardly be a more important topic than mutual aid. The Federal 
Government simply doesn't own sufficient equipment to provide the 
necessary levels of support required following a major disaster. Nor 
does it have the sheer numbers of first responders who are trained to, 
and who routinely operate in, a civilian urban environment. Only 
States, Municipalities, and Tribal entities own these diverse resources 
in sufficient quantities to meet our country's needs as outlined in the 
National Strategy.
    The record of our collective efforts to better prepare our nation 
for flexible, resilient, and coordinated actions across the scope of 
the four primary mission areas is well documented, and it is not my 
purpose here today to review those activities. We have come a long way 
since 9/11--and even from Katrina, as news coverage of the terrible 
Southern California wildfires documented. However, we still have a long 
way to go in this terribly complicated--and expensive--environment. In 
my brief time before you today I would like to concentrate on two 
mutual aid initiatives near and dear to the hearts of the law 
enforcement community. One project has just been completed, and the 
other is just beginning. I'm happy to leave the broader aspects of 
mutual aid program management to my colleagues from FEMA and from EMAC, 
also represented on this panel. I would note that I have personally 
worked closely with both of these organizations, and these 
representatives, over the past year. They have proven themselves both 
organizationally and personally to be reliable and valuable allies, and 
we in MCC have been pleased with our partnerships with them.

    Now on to the projects.
    Hurricane Katrina was law enforcement's first true large-scale 
involvement with the Emergency Management Assistance Compact (EMAC). 
Results were very mixed. While a number of law enforcement agencies 
successfully deployed both State and local officers to the stricken 
area, many others who wanted to help were very frustrated with the 
system. To be brutally honest, a lot of this frustration was the fault 
of involved law enforcement agencies that were either totally unaware 
of EMAC, or attempted to use the system in ways that it was never 
designed to support. The confusion and failed communications that 
resulted caused many law enforcement agencies that were ready, willing, 
and anxious to send officers to the devastated area to instead stay 
home. Many of the Katrina after-action analyses echoed the same theme--
law enforcement, and EMAC itself--could do better in the future. As a 
direct result of this review process, EMAC took several necessary steps 
to improve. First was to establish a ``user group'' of key 
stakeholders, called the EMAC Advisory Group, to insure that EMAC would 
be more directly connected to its major customers in the future. One of 
the original members of this Advisory Group was MCC, and I have been 
honored to represent the Chiefs in this important forum since its 
establishment. The second was for EMAC to embark on a major education 
program aimed at insuring that key first responder organizations and 
personnel critical to future responses would be far better trained and 
aware of EMAC policy and procedures, so that future deployments could 
proceed on a quicker and smoother pace than during Katrina. As far as 
the education piece is concerned, I am happy to report that, at least 
for MCC and its members, the education program is proceeding well, and 
that the Chiefs won't encounter many of the difficulties and 
frustrations faced several years ago.
    One of the key components of the EMAC system is a document that 
they call the ``REQ-A''. It is, in essence, a framework, or 
``boilerplate'' contract document that requesting States, and States 
interested in providing mutual aid support, can use as a starting point 
to detail the precise needs of the requesting State, and the terms and 
conditions that a potential providing State require to be met prior to 
loaning out valuable resources to another governmental entity. The 
``REQ-A'' is a necessary and valuable document, but because it was 
crafted to be very generic so that it could be molded into finished 
contracts covering a broad spectrum of needs, it leaves out a lot of 
detail that is necessary to manage complex deployments, and to make 
them work smoothly and to the satisfaction of all parties. Katrina 
after-actions showed time and time again that many State-to-State 
contracts were hurriedly negotiated, resulting in requesting States 
getting assets that were not what they thought they would receive, and 
deployed resources finding out after arrival that the mission they 
thought they were going to conduct was in fact very different than 
local on-scene circumstances required. Key components of credentialing, 
liability protections, use of force doctrine, transference of 
warrantless arrest powers, and many other critical issues simply hadn't 
been thoroughly addressed. The end result was substantial delays in 
getting deployed personnel out in the field doing good, many mismatches 
of resources and missions, and lots of instances where critical 
jurisdictional issues were insufficiently addressed, causing 
unnecessary risk exposure to both the receiving and to the providing 
States. Clearly, system improvements were necessary.
    Early discussions within the new EMAC Advisory Group focused on 
thisissue, and MCC volunteered to start a project that would develop a 
``Law Enforcement Checklist'' that would serve as a companion document 
to the ``REQ-A'', and a guide to those who were negotiating the ``REQ-
A'' contracts for deployment of local law enforcement officers in the 
future. This checklist would detail all of the ``hot button'' issues 
that police chiefs and sheriffs--and the local political leadership 
that they either work with or answer to--would want addressed prior to 
sending their personnel across State lines to work in difficult and 
dangerous circumstances for other governmental entities, and within 
legal and jurisdictional systems that could be very different from 
their own. What started out as a seemingly simple task quickly became 
very complex, as the diversity of legal systems in the United States 
was recognized. Literally, no two states are the same, and many are 
very different. However, I am happy to report that all parties involved 
in this project--EMAC and Law Enforcement--recognized the potential 
value of the checklist, and approached the challenges from a 
perspective of ``how can we work through this'' as opposed to ``it 
can't be done''. The end result was that at the National Association of 
Emergency Managers (NEMA--the national program manager for the EMAC 
system) annual conference in Oklahoma City in early October the final 
touches were put on the checklist, which has now been adopted by EMAC, 
Major Cities Chiefs, and Major County Sheriffs. Efforts are currently 
ongoing to gain the endorsement of other national law enforcement 
organizations as well. EMAC has been so pleased with the results of 
this project that they plan on using the law enforcement checklist as a 
``best practice'', and to urge other first responder disciplines to 
produce similar checklists tailored to their own specific professional 
needs. What started as a small law enforcement project is now morphing 
into a project that will, over the course of the next year or so, 
produce a stronger EMAC system as a whole.
    We view this as a wonderful example that all progress doesn't 
require a new Federal program, or a new Federal or State appropriation. 
Much can still be accomplished when people put aside organizational 
turf, solve commonly shared problems--and do it with existing 
resources. A copy of the completed Law Enforcement Checklist is 
attached to my testimony for your further review.
    The second project that I would like to briefly discuss is just 
beginning. As we looked at mutual aid performance during Katrina, we 
realized that a piece of the necessary national response capability was 
missing. Medical services had the Disaster Medical Assistance Team 
(DMAT) program. Fire/Rescue had the Urban Search and Rescue (USAR) 
program to provide essential rescue services. During Katrina both 
needed--and requested--security for first responder personnel, critical 
equipment, and invaluable consumable supplies and stores of medications 
placed at risk in the tumultuous environment that existed for some time 
after landfall. Yet the law enforcement resources of the nation had no 
similar ``DMAT'' or ``USAR''-like program that could quickly and 
efficiently move cadres at self-supporting sworn officers into the 
impacted areas to help restore civil order, and to protect others also 
providing life-saving services.
    Out of these discussions emerged the concept of Law Enforcement 
Rapid Response Teams (LERRTs), loosely patterned after the two model 
programs mentioned earlier. The vision is to develop as many as ten of 
these LERRTs nationwide, possibly one (or more) in each of the ten FEMA 
regions, each capable of deploying up to five hundred specially trained 
law enforcement officers--fully self-supported--for a two-week period. 
These teams would be flexible and scalable--able to field modules of 
personnel up to the maximum in the unit, and to have a ``menu'' of 
specialty services also available. Each LERRT could then be assembled 
to meet the specific requirements of the requesting state, and that 
subsequent deployments could see relieving LERRTs structured 
differently as needs within the impacted area evolve. Each LERRT would 
be formed around a ``center of gravity'' agency--a major city police 
department or a major county sheriff's office. We feel that only these 
larger agencies have the depth of personnel to appropriately administer 
this program, insuring that all necessary training and logistical 
support is provided when the need to deploy emerges. While administered 
by a large agency, the LERRT itself would be comprised of law 
enforcement officers from many regional agencies. Depending on their 
size, some law enforcement organizations could provide a squad of five 
officers and a supervisor, while larger ones could provide larger 
contingents. Assembled together, and receiving specialized training, 
these components could perform effectively as a cohesive unit. By 
assembling the LERRT from many contributors, we also insure that no one 
community's force is depleted to the point where local services 
degrade.
    In many ways the LERRT Program would resemble the DMAT and USAR 
models--local personnel ``married'' to equipment and training funds 
provided by the federal government. As with these models, the truly 
expensive part--specially trained and experienced personnel--would be 
provided by literally hundreds of communities nationwide. The cost to 
train and equip would be only a small percentage of overall costs. 
Major Cities Chiefs and Major County Sheriffs have already undertaken a 
comprehensive development program to further refine this promising 
concept. The project is being developed through the efforts of two 
committees--one headed by Sheriff Lee Baca from Los Angeles County, and 
one headed by Director Bobby Parker from Metro-Dade Police Department 
in Miami, Florida.
    While similar in many ways to DMAT and USAR, there will be 
significant differences as well. Unlike DMAT and USAR which become 
``Federal'' resources when activated, LERRT would remain a State or 
local entity in order to preserve their non-federal ``peace officer'' 
status as they move across state lines, as their primary function will 
be to enforce local and state laws in the impacted areas. We envision 
EMAC as the perfect vehicle for this interstate movement of law 
enforcement units--and EMAC agrees.
    Congress has already shown an interest in this concept. Language 
contained in the recently enacted H.R.1, The 9/11 Commission Act of 
2007, directs the Secretary of the Department of Homeland Security to 
establish in the DHS Policy Directorate an Office for State and Local 
Law Enforcement, which will be headed by an Assistant Secretary for 
State and Local Law Enforcement. The language of the Act continues by 
stating that the new Office shall ``conduct, jointly with the 
Administrator, a study to determine the efficacy and feasibility of 
establishing specialized law enforcement deployment teams to assist 
State, local, and tribal governments in responding to natural 
disasters, acts of terrorism, or other man-made disasters and report on 
the results of that study to the appropriate committees of Congress.'' 
MCC and MCS hope to assist the new Assistant Secretary with our 
preliminary work as soon at that individual assumes this important 
position.
    In closing, MCC feels that these two initiatives will serve the 
American people well, and that our relationships with DHS, FEMA, and 
EMAC are open, friendly, and productive. As with all friendships 
though--we don't always agree on everything. Two quick examples:
        <bullet> Mutual Aid agreements and systems are generally 
        reactive in nature. Something bad has to happen before they are 
        triggered. As law enforcement in general becomes more and more 
        involved with mutual aid on a national scale, our natural 
        tendencies to want to PREVENT--before we have to RESPOND--take 
        over. A thoughtful look at mutual aid systems with the goal of 
        making them friendlier to preventative deployments would be 
        well received by the law enforcement community, and good for 
        our country.
        <bullet> MCC has favorably reviewed the new draft National 
        Response Framework. We think it is a considerable improvement 
        over the ``Generation One'' document that it will replace. It 
        is cleaner, more focused, and more clearly shows local and 
        tribal officials that don't work within the terribly complex 
        tiered national system on a daily basis what their 
        responsibilities are, and how they fit into the bigger picture. 
        The format of a base document, many more detailed annexes, and 
        a web-based resource center permits users to seek as much 
        detail as they need to do their jobs. We realize that this 
        position puts us slightly at odds with our emergency management 
        colleagues, but we all have different needs and differing 
        perspectives on these complex issues and documents. That being 
        said, we do have some difficulties with the draft NRF. In spite 
        of considerable improvement, it is still too ``top-down'' and 
        too ``Federal centric'' in its approach. And--as important as 
        we all agree that mutual aid is to our overall national 
        readiness and response postures--the NRF doesn't have a single 
        annex dealing with mutual aid.
    On behalf of Chief Darrel Stephens of the Charlotte-Mecklenberg 
Police Department, President of Major Cities Chiefs, I want to thank 
you for allowing MCC to submit its comments on the important work that 
you do. We look forward to working with the Subcommittee on strategies 
to address the issues that we have raised here today.

Attachment: EMAC Law Enforcement Checklist

                EMERGENCY MANAGEMENT ASSISTANCE COMPACT

                  (Final Approved Version 10/10/2007)

               Law Enforcement Resource Request Checklist

    When an EMAC request is made for law enforcement resources, this 
checklist can be used by Requesting States, Assisting States or EMAC A-
Teams in creating a precise mission request. Use of this checklist is 
not required but it does provide a comprehensive (but not all-
inclusive) list of items relative to the deployment of law enforcement 
resources. These items can also be included in a REQ-A for the 
deployment of law enforcement resources.
        1. EMAC allows officers to carry weapons in the performance of 
        their law enforcement duties within the requesting jurisdiction 
        or State. Note: the Law Enforcement Safety Act of 2004 allows 
        police officers to carry weapons throughout the United States 
        except in certain federal facilities or where prohibited by 
        certain State laws. Any restrictions on carrying weapons in the 
        Requesting State should be discussed prior to finalizing a REQ-
        A or prior to placing officers of the Assisting State into 
        duty.
        2. Officers may bring and use their regular equipment, 
        including service weapons, Tasers, baton, pepper spray and 
        other less-than-lethal weapons, while deployed to the 
        Requesting State or jurisdiction unless the Requesting State or 
        jurisdiction specifically prohibits use of a particular piece 
        of equipment or weapon. Any restrictions on the use of 
        equipment, weapons or less-than-lethal weapons in the 
        Requesting State or jurisdiction should be discussed prior to 
        finalizing a REQ-A or prior to placing officers of the 
        Assisting State into duty.
        3. Officers may bring and use their radios for use while 
        deployed to the Requesting State or jurisdiction, provided any 
        electronic equipment will not interfere with equipment being 
        operated by the Requesting State or jurisdiction.
        4. Responding officers will wear the official uniform 
        components and badging prescribed by their department to ensure 
        proper identification as a law enforcement officer.
        5. EMAC Article IV provides that responding officers will have 
        the authority to detain or arrest without a warrant for all 
        Requesting State criminal offenses occurring within their 
        presence or view and in order to maintain and establish public 
        peace, health or safety in the Requesting State or 
        jurisdiction.
        6. EMAC Article IV provides that responding officers will have 
        ``the same powers (except that of arrest unless specifically 
        authorized by the receiving state), duties, rights, and 
        privileges as are afforded forces of the state in which they 
        are performing emergency services.'' The REQ-A should include a 
        recitation of this provision. Wherever legally permissible, 
        Requesting States and jurisdictions should have procedures in 
        place to have responding officers sworn in by the Requesting 
        State or jurisdiction upon arrival, granting them the same 
        authority, rights and immunities applicable to officers of the 
        Requesting State or jurisdiction whether established under 
        local, state or federal law
        7. Requesting States and jurisdictions should develop, prior to 
        a disaster, a concise summary of the state's or jurisdiction's 
        use of force procedures that can be provided to responding 
        officers prior to placing them into duty. Assisting State or 
        jurisdiction officers will have authority to use force, 
        including deadly force where necessary and appropriate under 
        the circumstances in the exercise of their law enforcement 
        authority and duties. No officer has the duty nor is required 
        to retreat prior to the use of deadly force. The authority to 
        use deadly force will be limited to situations where the 
        officers are protecting themselves or a third person from 
        serious bodily harm or death.
        8. Responding State and jurisdiction officers shall be trained 
        to the minimum standards required by their Assisting States for 
        full-time career law enforcement officers, such as Police 
        Officers Standards and Training (POST) or equivalent 
        certification.
        9. Officers will have full and regular standing as police 
        officers with their departments and not be in a probationary, 
        reserve, temporary or other lesser status with their 
        departments. Since terminology varies from State to State, at a 
        minimum, all responding officers will have graduated from an 
        accredited police academy meeting the Assisting State's 
        training standards for full-time career law enforcement 
        officers and will have served a minimum of two years, post-
        academy, as a full-time law enforcement officer. If responding 
        officers do not meet these level of training or experience, it 
        should be discussed and noted in the REQ-A.
        10.Requesting States and jurisdictions should develop, prior to 
        a disaster, a procedure that can be provided to responding 
        officers prior to placing them into duty regarding the safe and 
        efficient transportation of individuals arrested to facilities 
        designated by the Requesting State or jurisdiction. The 
        Requesting State or jurisdiction will provide adequate 
        detention facilities for this purpose.
        11.Responding officers will use basic forms of the Requesting 
        State or jurisdiction. Prior to deployment or prior to 
        placement into duty, officers of the Requesting State or 
        jurisdiction will acquaint responding officers with the 
        appropriate basic forms. Completed basic forms will be 
        maintained by the Requesting State or jurisdiction and 
        preserved pursuant to that state's or jurisdiction's regular 
        procedures.
        12.Responding officers will collect and preserve evidence in 
        the manner prescribed by the officers of the Requesting State 
        or jurisdiction.
        13.Both Requesting States and jurisdictions and Assisting 
        States and jurisdictions should be aware that there may be 
        additional costs after deployment related to the prosecution 
        and trial of individuals arrested during the deployment. 
        Assisting State or jurisdiction officers may be required to 
        testify and Requesting States and jurisdictions should be 
        prepared to discuss related issues at that time.
    For purposes of EMAC missions, all jurisdictions should be aware of 
the following Articles.
        <bullet> Pursuant to Article IX, any party state rendering aid 
        in another state pursuant to this compact shall be reimbursed 
        by the party state receiving such aid for any loss or damage to 
        or expense incurred in the operation of any equipment and the 
        provision of any service in answering a request for aid and for 
        the costs incurred in connection with such requests; provided 
        that any aiding party state may assume in whole or in part such 
        loss, damage, expenses, or other cost, or may loan such 
        equipment or donate such services to the receiving party state 
        without charge or cost; and provided further, that any two or 
        more party states may enter into supplementary agreements 
        establishing a different allocation of costs among those 
        states. Article VIII expenses shall not be reimbursable under 
        this provision.
        <bullet> Pursuant to Article IV, emergency forces will continue 
        under the command and control of their regular leaders, but 
        organizational units will come under the operational control of 
        the emergency services authorities of the state receiving 
        assistance.
        <bullet> Pursuant to Article VIII, each party state shall 
        provide for the payment of compensation and death benefits to 
        injured members of the emergency forces of that state and 
        representatives of deceased members of such forces in case such 
        members sustain injuries or are killed while rendering aid 
        pursuant to this compact, in the same manner and on the same 
        terms as if the injury or death were sustained within their own 
        state.

    Mr. Dent. Thank you, Mr. Chairman.
    Again, I would like to thank the witnesses for being here 
today and for their commitment to strengthening the 
coordination of response efforts nationwide.
    At this time I would like to yield back to you, Mr. 
Chairman.
    Mr. Cuellar. Thank you, Mr. Dent.
    Mr. Cuellar. Other members of the subcommittee are reminded 
under committee rules opening statements may be submitted for 
the record.
    Mr. Cuellar. In addition, without objection, I would also 
like to submit a statement from Sheriff Lee Baca of Los Angeles 
County regarding the issues we are discussing here today. 
Without objection, so ordered.
    [The information follows:]

                             For the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            .epsPrepared Statement of Leroy D. Baca, Sheriff

Introduction
    The Los Angeles County Sheriffs Department provides law enforcement 
and emergency services for the largest metropolitan area in the United 
States. As Sheriff, I serve as the coordinator for the subject of your 
hearing, ``Leveraging Mutual Aid for Effective Emergency Response''.
    The devastating wildfires that recently swept through Southern 
California put to the test our policies and procedures for mutual aid. 
I am pleased to report to the Committee that our mutual aid plans were 
executed without incident. Hundreds of police officers were deployed 
multiple agencies to evacuate and protect neighborhoods and support 
fire operations. But California has faced these challenges before, our 
experience has matured over decades of implementing an effective mutual 
aid plan.

Background--Mutual Aid in California and Los Angeles
    The Los Angeles County Operational Area spans more than 4,000 
square miles and is home to over 10 million residents. It is comprised 
of 88 contiguous cities, and with its airports, seaports, commercial, 
tourism, entertainment industries, and transportation system, it is the 
most complex urban region in the Nation. In addition, the Los Angeles 
County Sheriffs Department provides law enforcement services to 40 
cities and unincorporated areas, and the County Fire Department 
protects 58 cities and county areas. There are also 45 municipal police 
departments, 30 fire departments and three public health organizations 
within the Operational Area.
    According to California state law, the County Government provides 
emergency management and mutual aid coordination for all disciplines, 
and is the gateway for state and federal resources for all entities 
within the Operational Area.
    Mutual aid response within California is based on defined 
governmental levels that delineate cities (or other similar local 
jurisdictions), operational areas (counties), mutual aid regions, and 
the state. To facilitate coordination of mutual aid, the state is 
geographically divided into mutual aid regions. Each region is 
comprised of multiple operational areas. The operational area is a 
composite of its political subdivisions, i.e., municipalities, special 
districts, and county agencies. All requests for mutual aid and 
additional resources must progress local-to-county-to-state and region 
\1\-to-state and then federal. The California State Governor's Office 
of Emergency Services (OES) coordinates these requests. In a Los 
Angeles emergency, or one in which multiple jurisdictions are affected, 
the county sheriff functions as the director of emergency operations 
for the entire operational area.
---------------------------------------------------------------------------
    \1\ OES Region I is comprised of Los Angeles and Orange Counties.

    The State of California has a structured organization for disaster 
management and response known as the Standardized Emergency Management 
System (SEMS), it was the foundation for the development of the 
National Incident Management Systems (NIMS). It is described as 
follows:
        ... The Standardized Emergency Management System is required by 
        Government Code Sec. 8607 (a) for managing response to multi-
        agency and multi-jurisdiction emergencies in California. SEMS 
        consists organizational levels which are activated as 
        necessary: field response, local government, operational area, 
        region, and State. SEMS incorporates the use of the Incident 
        Command System (ICS) the Master Mutual Aid Agreement, existing 
        discipline mutual aid, the operational area concept, and multi-
        agency or inter-agency coordination. SEMS helps all elements of 
        California's emergency management organization into a single 
        integrated system. Its use is required for State response 
        agencies. Local government agencies must use SEMS to be 
        eligible for State funding of certain response related 
        personnel costs resulting from a disaster.

    Based upon proven programs, our blueprint for has been tested by 
earthquakes, fires and hurricanes. The recent firestorms in Southern 
California demonstrated that disasters are not limited by geographic 
boundaries and that mutual aid must be coordinated regionally. Although 
the actual fires were contained within a few jurisdictions, virtually 
all of the municipalities in the Los Angeles Operational Area were 
affected by these massive fires, and all successfully participated in 
the response. Within Angeles County, the recent caused minimum property 
damage and no lives were lost. This is a testament to the cooperation 
fostered by mutual aid agreements in the region.
    However, a catastrophic event on the scale of Katrina may overwhelm 
the capabilities and resources of large and small jurisdictions alike. 
During such a crisis, a comprehensive national law enforcement mutual 
aid system is required to restore order and ensure public safety.

Lessons Learned: Hurricane Katrina
    Law enforcement agencies in the path of Katrina were completely 
overwhelmed. In Mississippi and Louisiana, the storm caused massive 
damage to police and sheriffs' cars and stations, emergency response 
vehicles, and emergency operations centers. Police departments in the 
storm's path lost their dispatch and communication functions, 
administrative capabilities, and jails to confine arrested suspects. 
Additional burdens were then imposed on law enforcement, such as search 
and rescue, which took priority over normal police duties.
    It was an extraordinary and unprecedented breakdown in emergency 
management. Federal law enforcement personnel and the National Guard 
arrived, and state and local law teams from around the country began to 
self-dispatch. Although these actions clearly were meant to help, the 
lack of a coordinated response often caused further chaos and and had 
the potential to emergency workers into storm victims as well.
    For disaster recovery and medical assistance, communities may 
receive emergency assistance from programs supported by the Federal 
government. Urban Search Rescue has, since 1989, been dispatching elite 
search-and-rescue teams to conduct operations in everything from 
collapsed buildings to catastrophic earthquakes. Disaster Medical 
Assistance Teams provide emergency medical services. These groups of 
professional and para-professional personnel provide life-saving 
assistance during a disaster. In the wake of Katrina, the question has 
been asked: Why doesn't law enforcement have rapid response teams like 
and DMAT to provide near-immediate support during a catastrophic event, 
regardless of the cause?
    This question becomes even more critical when one examines what set 
Hurricane Katrina apart from events like the terrorist attacks of 
September 11 or the bombing of the Federal building in Oklahoma City. 
In New York, Washington D.C., Pennsylvania, Oklahoma, the public 
emergency management infrastructure remained intact. Incoming support 
teams took their missions from on-site incident management personnel, 
whose knowledge of the area, the incident, and what was required to 
address it came from their experience on the ground. There was a 
structure and a system still in place to assess damage and direct the 
efforts of incoming support teams.
    What made Katrina different was that the public safety and 
emergency management systems were destroyed. This devastating 
destruction underscores the need for large and independent completely 
self sufficient and able to provide a broad range of public safety 
functions. Responding to a domestic disaster in an all-hazards approach 
is a key focus of local, State and Federal organizations. Hurricane 
Katrina highlighted the fact that a significant or catastrophic 
incident can quickly overwhelm the ability of local jurisdictions to 
carry out basic public safety functions. In extreme cases, entire 
regions can be left without any law enforcement services.

Law Enforcement Deployment Teams
    In the wake of law enforcement leaders determined that a national 
plan was required to ensure that this breakdown would never happen 
again. The Major Cities Chiefs Association represents the 56 largest 
Police and Sheriffs Departments in the Nation. At our recent annual 
meeting in New Orleans, my colleagues and I adopted a national plan for 
Law Enforcement Deployment Teams now under review at the Department of 
Homeland Security (DHS). It is my pleasure to lead this committee 
focused on developing a national law enforcement mutual aid plan.
    The processes and protocols for dispatching LEDTs may be modeled 
after the Emergency Management Assistance Compact (EMAC). These state-
to-state compacts, which exist under the non-profit National Emergency 
Management Association (NEMA), cover liability, the honoring of law 
enforcement credentials fi-om state to state, and reimbursement. 
However, there is a need to streamline existing EMAC procedures to 
enable the rapid deployment of LEDTs.
    Following the interaction between the nation's largest law 
enforcement agencies and our federal partners, including the DHS, 
Bureau of Alcohol Tobacco, and Explosives, and the Federal Bureau of 
Investigation, the Los Angeles County Sheriffs Department has taken the 
lead in developing a regional team as a pilot for this project. The of 
the Los Angeles LEDT may vary slightly other LEDTs based on local needs 
and capabilities. Departments around the country are being surveyed to 
identify specialized capabilities that can contribute to the national 
LEDT program. The Los Angeles LEDT will include each of the modular 
components identified in Figure 1.
    In addition to the core capabilities, which include general patrol 
and custody teams, the Los Angeles Regional LEDT will also include an 
incident command module capable of providing local incident commander 
with the support necessary to manage an event. Interoperable 
communications along with radio technicians will also be available, 
enabling the ability of multiple agencies to seamlessly communicate 
with each other. Logistics support will manage the deployment of 
resource and also keep track of personnel and equipment for future 
reimbursement.
    A significant component of the Angeles pilot will include seeking 
out partnerships with national chain stores and transportation 
companies to facilitate the rapid movement of personnel and resources. 
Leveraging these relationships will greatly increase the ability of 
LEDTs to deploy quickly and effectively.

Conclusion
    The Los Angeles County Sheriffs Department will continue to develop 
our LEDT pilot and support the development of supporting policies and 
procedures. It is through the continued coordination and cooperation 
with all of our local, state and Federal partners that a comprehensive 
LEDT program can be fully developed to supplement regional and national 
law enforcement mutual aid capabilities.
    On behalf of the Chiefs and Sheriffs who are committed to this 
national effort, I offer our full support for the work of the Committee 
and commend you for addressing this urgent need. Please know that law 
enforcement agencies across the Nation are grateful for your leadership 
and thank you for calling attention to this critical priority.

    Mr. Cuellar. At this time we will go ahead and recess as we 
go vote. And you all make yourselves at home while we get back. 
Thank you.
    [Recess.]
    Mr. Cuellar. All right. You are telling it to me and the 
record, so keep the record in mind.
    Again, I apologize, because, as you know, we are actually 
the last minute of voting, and Members are heading off to other 
committee hearings also.
    Mr. Dent, we will go ahead and get started. He said he was 
going to be a few minutes late, so with respect to him, we will 
go ahead and get started at this time.
    Again, I want to welcome the panel of witnesses that we 
have here. Our first witness is Marko Bourne, who is the 
Director of Policy and Program Analysis at the Federal 
Emergency Management Agency with the U.S. Department of 
Homeland Security. He has more than 20 years of experience both 
in the emergency services and the policy arenas. Welcome.
    Our second witness is Mr. Kenneth Murphy. He is the 
president of the National Emergency Management Association and 
director of the Oregon Office of Emergency Management. Mr. 
Murphy has been with the Oregon office for 8 years and during 
his tenure has served as administrator of operations manager, 
and deputy director. He has been the director since 2003.
    Our third witness is Chief Steve Westermann, who is the 
president of the International Association of Fire Chiefs. 
Chief Westermann has been in the fire service since 1972 and 
has served as chief of the Department of Central Jackson County 
Fire Protection District, Missouri, since 1988. And again, 
welcome.
    Our fourth witness is Mr. Michael Ronczkowski, who oversees 
the Homeland Security Bureau of the Miami/Dade Police 
Department. He began his law enforcement career in 1983 and 
throughout his career has been serving in various leadership 
capacity within the local, county and Federal law enforcement. 
Welcome.
    Our fifth witness is Mr. Jim McPartlon, who serves as the 
president of the American Ambulance Association. He is also the 
vice president of the Mohawk Ambulance Service, which is the 
largest publicly owned ambulance service in upstate New York.
    And we want to go ahead and we make sure that we welcome 
all of you, and we are all pleased to have you here today. 
Without objection, the witnesses' full statements will be 
inserted in the record.
    I now will ask each witness to summarize his statement for 
5 minutes, beginning with Mr. Bourne.

   STATEMENT OF MARKO BOURNE, DIRECTOR OF POLICY AND PROGRAM 
 ANALYSIS, FEDERAL EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Bourne. Thank you, Mr. Chairman Cuellar, Ranking Member 
Dent, members of the subcommittee. I am Marko Bourne. I serve 
as the Policy Director of Program Analysis for FEMA. I 
appreciate the opportunity to be here today to talk about some 
very important issues that affect our first responders and our 
emergency services across the Nation, especially with the 
status of mutual aid and credentialing. The committee has my 
formal statement, so I will do my best to summarize as 
succinctly as I can here.
    FEMA is addressing and has been addressing for quite some 
time with our State and local partners many aspects of mutual 
aid. We have continued to support and recently renewed our 
memorandum of understanding and agreement with the Emergency 
Management Assistance Compact and NEMA for the support of 
State-to-State mutual aid. We have also had available for 
several years now, since 2003, model intrastate mutual aid 
language that we have made available to State and locals to 
address the intrastate mutual aid needs. Some States have 
passed interstate agreements; some have not. And certainly that 
legislative language has been there for their use and modifying 
as necessary. And we have been actively working through our 
training and exercises, our programs, our fostering development 
of local and regional mutual aid practices.
    Most of the mutual aid that exists in this country happens 
every single day at a local level, and having spent 23 years as 
both a firefighter and EMT and a police officer, mutual aid is 
the bread and butter of our everyday activity, especially in 
the fire service, where events rapidly can become larger than 
our department's capacity and we need to call on help.
    We have also been working to create with the International 
Association of Fire Chiefs, working through EMAC as well, a 
National Fire Service Mutual Aid System that can be utilized in 
the future, and we have been providing grant dollars support to 
that for the development of those systems.
    Today I would also like to specifically outline, however, 
how we are working on one major aspect of mutual aid through 
the development of common credentialing standards, the 
framework for our credentialing and typing programs and how we 
intend to move forward. However, I do want to state for the 
record, because I know that there is always potential for 
misperception and confusion, that FEMA and the Department of 
Homeland Security in no way wishes to encroach upon the 
responsibilities of State and locals to credential their 
personnel. That is their primary responsibility. What we would 
rather do is assist them in those efforts. We are not going to 
be the ones issuing the credentials to these folks. Their local 
police chiefs, their local mayors, their local law enforcement 
and fire and EMS personnel are credentialed through the 
organizations that they work for. What we would like to do, and 
certainly the Congress has given us the authority to do, is to 
try to begin to build a standard so that there is some 
commonality in the way that we as a Nation approach 
credentialing that can support those efforts.
    The need for a standard process to enable first responders 
to move rapidly to different jurisdictions and to validate the 
identity and professional qualifications of responders who 
arrive on the scene is a long-standing issue. Credentialing and 
typing standards arise from this need, and to ensure that the 
incident commander and those in other response leadership roles 
know who is present at an incident and what their 
qualifications are.
    Since the creation of the National Incident Management 
System in 2003, programs have been developed to address this 
need. Congress, of course, has also recognized that need by 
passing the 9/11 implementation bill which allowed FEMA the 
authorization language to develop this standard and to continue 
our resource typing and mutual aid efforts.
    Title IV of the 9/11 Act directs the FEMA Administrator to 
set standards for credentialing and typing Federal personnel 
who are likely to respond to a natural disaster or an act of 
terrorism, and that is an enormous responsibility which 
requires us to ensure that whatever approach we take 
encompasses all of the attributes that are necessary to balance 
the interests of the Federal agencies involved, due processes 
and consensus that are the hallmarks of a credible standards 
development process.
    Now we are in the process now of developing a common 
standard, utilizing existing programs that have already been in 
place, and leveraging efforts that have been underway not only 
within the Federal family, but within the first responder 
community through the implementation of the National Incident 
Management System. We are also working through these efforts, 
and including in the National Response Framework, the National 
Infrastructure Protection Plan, our work with NEMA, NFPA, other 
emergency management and first responder accrediting programs, 
the development of this standards process. These organizations 
represent the key stakeholders, and before we move any further 
down the standards development road, we need to bring them 
together to determine exactly what are the major elements that 
that standard needs to have, and we will be doing so over the 
next several months.
    The standards and programs of all of these plans and 
systems and organizations have been vetted and endorsed by a 
wide range of disciplines, and they do provide a solid 
foundation for our effort.
    Now, specifically within our credentialing and typing 
programs, we have made progress on technology of credentialing. 
There has been a tremendous effort that has taken place to 
include our resource typing effort where we have more than 125 
to 175 resources typed, and those standards efforts and 
resource typing efforts are being handled by the Incident 
Management Systems Division at FEMA.
    We have also expanded, through the auspices of our National 
Capital Region office, a pilot in the National Capital Region 
working with all of the affected communities that are part of 
the NCR on coming up with a pilot program for a national 
credentialing system for NCR first responders, and that effort 
is in its early stages and hopes to be fielded in pilot tests 
in some exercises in the beginning of 2008 after the first of 
the year.
    The NCR, of course, faces a lot of challenges, multiple 
jurisdictions, multiple authorities, all requiring 
clarification. In 2004, both DHS, Department of Defense and the 
NCR sought to overcome the challenge by essentially leveraging 
a standard that exists now for Federal IDs, FIPS 201, and the 
corresponding off-the-shelf, commercially available equipment 
in order to support that effort. NCRC is working as the nexus 
for that effort in the Capital region, also reaching out to 
private-sector and nonprofit partners. This test and national 
pilot in the NCR will allow us to test some basic assumptions 
about credentialing and resource typing in an actual responder 
environment, and allow us to better inform the standards 
development process as we move through 2008.
    Now, as noted, it is the intent of FEMA and DHS not to 
issue identification cards, but that responsibility lying with 
the State and local governments, but the FIPS 201 standard 
describes what a credential should be in order to provide 
identity validation. And we are working on the subsequent 
component of this, the aspect that says, this is who I am in 
the professional community, and these are my skills, and then 
how that information is securely shared and verified at 
whatever level of government or at the scene of the event that 
it needs to take place.
    In strengthening mutual aid, standardized personnel 
identification skills verification directly enhances the 
capability for multijurisdictional resource sharing and mutual 
aid. This credentialing and typing standard will allow the 
execution of mutual aid agreements, more effective streamlining 
of operations and a reliable method for verifying individuals.
    Our program plan is established and is being put into place 
now, and I would be happy to share that with the committee, 
which allows for a common nonproprietary approach using as much 
off-the-shelf capability as possible to assure identity 
assurance standards, credentialing and typing standards for 
personnel, their skill sets, their qualifications, and the 
common process that integrates that information. This standard 
will be used, of course, on a limited basis in the NCR and a 
national level exercise in February and then again in April.
    What we are looking at doing also is building essentially a 
system of systems. Certainly the local and State communities 
have the vast ownership over the information that they take in 
with regards to their first responders. FEMA is not in a good 
position, nor would we advocate, that we maintain a national 
database of these individuals. However, most jurisdictions have 
their own way of tracking their personnel, their 
qualifications, their training, their education. What we need 
to do is provide a standard so that when that information is 
shared, it is done so between those organizations without a 
cumbersome process to update a much larger database effort.
    The other part of the standard I think also needs to look 
at mobile credentialing processes that can be used in large-
scale events to facilitate mutual aid and the provision of 
credentials in the field. Certainly when we get into large-
scale events, that becomes an issue.
    In conclusion, FEMA is making great strides in this effort. 
We are working with our partners and look to work even more 
closely with them as we develop the standard over the next 
several months. A program plan we have outlined puts us in a 
position to meet the objectives of the 9/11 Act and to further 
promote mutual aid and multijurisdictional interoperability for 
credentialing. This standard, using this common nonproprietary 
approach, will have the further benefit of addressing issues of 
self-dispatching personnel and scene control down the road.
    Mr. Chairman, this concludes my statement. I would like to 
thank the committee for their interest in this issue and the 
opportunity to testify, and when the time comes, I would be 
happy to answer any questions you may have.
    Mr. Cuellar. Thank you for your testimony.
    [The statement of Mr. Bourne follows:]

                   Prepared Statement of Marko Bourne

    Chairman Cuellar, Ranking Member Dent, and Members of the 
Subcommittee, I am Marko Bourne and I serve as Director of Policy and 
Program Analysis at the Department of Homeland Security's Federal 
Emergency Management Agency (FEMA). I appreciate the opportunity to 
appear today before the Committee to discuss the status of mutual aid, 
credentialing and typing of the Nation's first responders.
    In my testimony today, I will outline how we are working to develop 
a common credentialing standard, the framework of our credentialing and 
typing programs, how this relates to strengthening mutual aid, and how 
we intend to move forward in addressing this important issue in our 
response community. I would also like to make sure that I state for the 
record that credentialing first responders is the right of the local 
community and that FEMA and the Department in no way wishes this effort 
to encroach upon that right, but instead assist them in their efforts 
both now and into the future to develop nationwide credentialing 
standards. FEMA will not be issuing credentials to state and local 
personnel; that will remain a state and local responsibility as it 
always has been.

Background
    The need for a standard process to enable first responders to move 
rapidly to different jurisdictions, and to validate the identity and 
professional qualifications of responders who arrive on the scene of an 
emergency or disaster, is a long standing issue. Creating a 
credentialing and typing standard arises from this need to ensure that 
the Incident Commander and those in other response leadership roles 
know who is present at an incident site, and their qualifications. 
Lessons learned from past disasters have indicated that it is often 
difficult for local officials to know who is qualified to do what, and 
who may be an immediate asset to the situation among the multitude of 
volunteers or entities that arrive. Additionally, examples of people 
posing as firefighters, police officers, doctors or rescue specialists 
are well documented in every major disaster, and further underscore the 
need for further measures to provide the Incident Commander with 
greater assurance that those who respond, whether asked or not, can be 
verified, validated and utilized.
    Since the creation of the National Incident Management System 
(NIMS) in 2003 and the development of the NIMS Integration Center, now 
the Incident Management Systems Division (IMSD), there have been 
programs developed to address this need, using a multi-jurisdictional, 
shared approach to develop a common standard available to all response 
partners. Congress has also recognized this necessity by passing 
legislation to provide authorization for FEMA to develop this standard 
and to continue our resource typing and mutual aid efforts. We are 
looking to best practices by leveraging existing methodologies, such as 
the Federal Information Processing Standard (FIPS) 201, which is 
approved by the National Institute of Standards and Technology. This 
non-proprietary standard, issued in response to Homeland Security 
Presidential Directive 12, establishes a common process and technology 
for sharing secure personnel identification and achieving 
interoperability across multiple jurisdictions.

Developing a Standard
    Title IV of the ``Implementing Recommendations of the 9/11 
Commission Act of 2007'' (9/11 Act) directs the Administrator of FEMA 
to set standards for credentialing and typing Federal personnel who are 
likely to respond to a natural disaster, act of terrorism, or other 
man-made disaster. This is an enormous task and responsibility and FEMA 
will be working with the Test and Evaluation and Standards Division of 
the Science and Technology Directorate to ensure the approach will 
encompass the attributes of openness, balance of interest, due process, 
and consensus that are the hallmarks of a credible standards 
development process.
    As such, FEMA is in the process of developing a common standard 
utilizing existing programs, standards and accredited sources including 
the National Incident Management System, National Response Framework, 
National Infrastructure Protection Plan, National Emergency Management 
Association, National Fire Protection Association, Emergency Management 
Accreditation Program, and American National Standards Institute. The 
representative organizations are key partners and well-respected 
members of the emergency management community. The standards and 
programs of these plans, systems and organizations have been vetted and 
endorsed by a wide range of disciplines, and provide a solid foundation 
for this effort.

    Credentialing and Typing Program
    Significant progress on the technology of credentialing has already 
been made. FEMA's efforts beyond the resource typing and standards 
efforts of the IMSD programs have been expanded through the auspices of 
our National Capital Region Coordination (NCRC) office just recently 
transferred to FEMA. The National Capital Region faces challenges based 
on multiple jurisdictions and authorities that require clarification; 
one of those is the need for rapid coordination between Federal, State, 
and local responders across jurisdictions while validating the identity 
and professional qualifications of those responders. Although the 
individual jurisdictions maintain and retain ownership of their 
credentialing and typing information, that information nevertheless 
needs to be shared among jurisdictions through a common technology 
standard. In 2004, DHS, DoD, and the National Capital Region (NCR) 
jurisdictions sought to overcome this challenge by leveraging FIPS 201 
and corresponding off-the-shelf commercially available equipment. NCRC 
is the nexus for this coordination effort in its day-to-day interaction 
with Federal, State, local, private sector, and non-profit partners in 
the NCR. NCRC is working closely with these partners to test the 
concepts, methodology, and process while gaining invaluable feedback 
directly from its constituents in order to enhance the program for 
potential use by a larger audience. By leveraging and assessing these 
efforts, the NCR becomes a national pilot, allowing us to test some 
basic assumptions about credentialing and resource typing in a 
responder environment. The results of these efforts will be known later 
this year and will assist us in the validation of a standard that can 
be adopted nationally.
    The credentialing and typing process requires an objective, 
standardized evaluation and documentation of an individual's 
qualifications, called attributes, and ability to meet nationally-
accepted minimum standards to provide particular services or functions 
during an incident. The standard can help to ensure that personnel with 
the right attributes are deployed to the right place at the right time, 
thus reducing response and recovery times.
    With respect to credentialing, again the intent of FEMA and the 
Department of Homeland Security is not to issue identification cards to 
all State and local first responders or others. That responsibility 
lies with State and local governments or the jurisdiction having 
appropriate authority. The aforementioned FIPS 201 standard describes 
what the credential should be to represent identity validation. We are 
working on the subsequent component--the aspect that says here is who I 
am in the professional community and these are my skills--and how that 
information is securely shared and verified on scene.
    We are utilizing the Emergency Support Function construct of the 
National Response Framework, as well as the National Infrastructure 
Protection Plan sectors, to identify those professional attributes 
(e.g., paramedic, emergency room physician, hazardous materials 
technician) that have a professional authority standing behind these 
designations for its personnel. In other words, we are leveraging 
existing certification processes to ``substantiate'' the qualifications 
of personnel. This will provide the cornerstone and structure to allow 
our State and local partners to engage in this process, in coordination 
with existing jurisdictional priorities and funding streams.
    Deployment of the credentialing and typing process requires the 
development of common data models and role-based access management 
framework for protecting the integrity and security of the underlying 
data. We have also initiated efforts with the Test and Evaluation and 
Standards Division of the Science and Technology Directorate and the 
National Institute of standards and Technology to develop these data 
models and associated access management framework.

Strengthening Mutual Aid
    A process that standardizes personnel identification and skill set 
verification directly enhances the capability for multi-jurisdictional 
resource sharing and mutual aid. This credentialing and typing effort 
supports FEMA's integrated National Mutual Aid and Resource Management 
System to enhance the functionality of interstate and intrastate mutual 
aid. All incidents require the use of the Incident Command System (ICS) 
which is the backbone of the National Incident Management System. ICS 
provides a flexible core mechanism for coordinated and collaborative 
incident management and integrates facilities, equipment, personnel, 
and communications operating within a common organizational structure. 
A credentialing/typing standard will help make execution of mutual aid 
agreements more streamlined by offering a quick, effective, and 
reliable method for verifying individuals and their respective 
qualifications.

Program Plan
    FEMA is establishing a program plan to implement a common, non-
proprietary approach, including:
        <bullet> An identity assurance standard;
        <bullet> Credentialing/typing standards for personnel skill 
        sets/qualifications; and
        <bullet> A common process/technology standard that integrates 
        both.
    The resulting aggregated standard will be used on a limited basis 
during the NCR portion of the National Level Exercise (NLE) 2-08 taking 
place in April 2008. The intent is to test the standard using a 
federated model where information is controlled and maintained by the 
respective entities, not by FEMA. This is a ``system of systems in a 
sense, as FEMA will not own the information; participating 
jurisdictions retain ownership of their information. This concept, if 
validated, could be made available in other parts of the country, and 
potentially will allow for real-time and post-event electronic 
validation of on-scene personnel. The standard also could enable a 
mobile credentialing process at the incident scene to ensure multi-
jurisdictional mutual aid capability.
    Important milestones have been established to address Title IV of 
the 9/11 Act, among others. These include development of credentialing 
and typing guidelines and objectives, with written guidance to Federal 
agencies that have responsibilities under the National Response 
Framework, and participation in an exercise by Federal agencies within 
the NCR to determine the effectiveness of the guidelines and 
objectives. In addition, FEMA intends to provide ongoing expertise and 
technical assistance to aid emergency management stakeholders with 
credentialing and resource typing, and completion of credentialing and 
typing standards for our Federal, State, local, tribal, private sector, 
and non-profit partners.

Conclusion
    In summary, FEMA is making great strides in developing a 
credentialing and typing standard for use by responders across 
jurisdictions. The program plan we have outlined puts FEMA in a 
position to meet the objectives and milestones of Title IV of the 9/11 
Act, and promotes mutual aid and standardized multi-jurisdictional 
interoperability. Timely and effective emergency response to a disaster 
rests on the proper establishment and verification of personnel 
identity, skills, and abilities. The implementation of a credentialing 
and typing system using common, non-proprietary standards will support 
and facilitate intrastate and interstate initiatives, and have the 
further benefit of addressing issues of self-dispatching personnel and 
scene control.
    Mr. Chairman, this concludes my statement. I would like to thank 
the Committee for the opportunity to testify and am prepared to answer 
any questions you may have.

    Mr. Cuellar. At this time I would like to recognize Mr. 
Murphy to summarize his statement for 5 minutes.

  STATEMENT OF KENNETH MURPHY, PRESIDENT, NATIONAL EMERGENCY 
   MANAGEMENT ASSOCIATION, DIRECTOR OF THE OREGON OFFICE OF 
                      EMERGENCY MANAGEMENT

    Mr. Murphy. Thank you, Chairman Cuellar, Ranking Member 
Dent and distinguished members of the committee. In my 
statement I am representing the National Emergency Management 
Association, whose members are the State directors of emergency 
management in the States, territories and the District of 
Columbia.
    Through the Emergency Management Assistance Compact, EMAC, 
NEMA's members are the leaders in State-to-State mutual aid 
facilitation and continuously working to improve the system 
based on lessons learned from previous disasters. During 
Hurricanes Katrina and Rita, EMAC fulfilled over 2,174 missions 
with 49 States, the District of Columbia the U.S. Virgin 
Islands and Puerto Rico, providing assistance in the form of 
65,919 civilian and military personnel and equipment assets to 
support the impacted States. The estimated cost of this 
assistance exceeded $829 million.
    Today all 50 States, the District of Columbia, the U.S. 
Virgin Islands, Puerto Rico, and most recently Guam are parties 
to the EMAC agreement.
    Also, most recently assets and personnel were used to fight 
the California wildfires through the EMAC system, and in 2007, 
EMAC was the vehicle used to provide assistance for the 
Colorado, Nebraska and Virginia winter storms, the Kansas 
tornadoes and floods, and Hurricane Dean in Texas.
    There are several key areas I wish to discuss with you 
today on EMAC: EMAC as a tool for mutual aid before, during and 
after disaster to support response and recovery; EMAC's work 
plan for improving and building on lessons learned from the 
largest mobilization in the program's history; enhancing EMAC 
with strong congressional support and administrative 
coordination.
    EMAC response to Hurricane Katrina resulted in the largest 
deployment of interstate mutual aid in the Nation's history. 
EMAC deployed personnel and equipment comprised of multiple 
disciplines from all member States to respond to Louisiana, 
Mississippi, Alabama, Florida and Texas. The process enabled 
the National Guard, search and rescue teams, incident 
management teams, emergency operation center support, building 
inspectors, law enforcement personnel, health and medical and 
other disciplines to immediately assist the requesting States. 
The National Guard even chose to continue their response 
through EMAC when deployed under title 32 because of the 
organization, liability protections, accountability and 
tracking abilities that EMAC provides.
    The key to EMAC is the system provides assistance to those 
in need, but allows others to assist and learn from the 
disasters in other States. The framework to effectively manage 
resources from all levels of government is defined in 
community, county, State and Federal response plans. The plans 
preidentify local, State and Federal agencies' roles and 
responsibilities so that blended resources from all levels of 
government meet the mission. The system prevents self-
deployment, allows for States to get the most cost-effective 
and swiftest assistance, and allows for a Governor to call back 
assets if need be. EMAC partners, such as the fire chiefs, 
Major City Chiefs, utilize EMAC to move personnel and resources 
through the State. There is no other vehicle that ensures 
reimbursement liabilities and worker compensation.
    NEMA is the administrator of the Emergency Management 
Assistance Compact. The State-to-State mutual aid system was 
referenced as a key achievement and best practice to be built 
upon in many of the reports on Hurricane Katrina. EMAC is not a 
perfect system, but strives to achieve continuous improvement. 
NEMA members are proud of the success of this system and 
support initiatives to bolster operational response and elevate 
awareness of how EMAC works.
    EMAC has a strategic plan to put lessons learned into 
practice. The after-action process from Hurricane Katrina 
allowed EMAC to examine how to improve the system after 
catastrophic disasters and unparalleled growth in the use of 
the system. I would just like to highlight some of the 
significant improvements we have put into place in the last 2 
years as a result of what we have learned from Hurricane 
Katrina.
    First, since the education on EMAC among all levels of 
government was identified as a key need, NEMA has established 
an EMAC Advisory Group that is already working together better 
to integrate mutual aid partners into the EMAC system before 
future disasters occur and to educate partners. The EMAC 
Advisory Group has already met four times to discuss common 
issues, such as resource typing, developing mission packages 
and deployment issues for future disasters. The group includes 
representatives from the State and local government 
associations, the National Guard Bureau, emergency responders 
associations, public utility associations and the private 
sector. The discussions and interactions of this group will 
serve to assist in adding local government assets to the scope 
of resources and other disciplines that can readily be plugged 
into the system.
    Second, EMAC has hired a full-time training coordinator 
whose main job will be to provide training for States as well 
as our local mutual aid partners. Multiple-discipline, 
standardized training modules will be developed and delivered 
through distance-learning programs and face-to-face 
instruction. The national training needs assessment for EMAC 
will drive the development of curriculum, and a cadre of 
qualified trainers will be maintained through this initiative. 
Additionally, the training curriculum will include an exercise 
component which will help facilitate the further integration of 
EMAC in Federal, State and local plans and exercises.
    Third, NEMA has evolved in the area of EMAC resource 
tracking and management. In the coming months, we will fully 
implement an on-line Requisition A form to allow for swifter 
approvals from requesting and responding States, which will 
ultimately allow for improved tracking and faster response to 
the request for assistance.
    Finally, States are engaged in developing their own 
deployable mission-ready packages, and EMAC is involved in 
assisting with this responsibility set in both the Post-Katrina 
Emergency Management Reform Act and the Implementing the 9/11 
Commission Recommendations Act for resource typing and 
credentialing.
    The support of EMAC is critical to helping offset the cost 
of the disasters and building costly infrastructure at the 
Federal level that could sit unused until a disaster occurs. In 
order to meet the ever-growing need for the reliance on 
interstate mutual aid, NEMA is seeking $4 million to continue 
to build EMAC capabilities. This funding will allow EMAC to 
focus on the implementation of lessons learned from Hurricane 
Katrina and Rita, such as training and education for mutual aid 
stakeholders, resource typing and credentialing, and 
information and resource capabilities.
    Specific funding for EMAC is needed to continue to build 
capabilities and sustain the EMAC system at appropriate levels 
for 24-by-7 activation when a disaster occurs. The post-Katrina 
FEMA Reform Act authorized $4 million annually for EMAC, but no 
funds were appropriated. NEMA supports the inclusion of the 
annual budget line item in FEMA to assist with these training 
and education and resource typing requirements in the fiscal 
year 2008 DHS appropriations.
    I do appreciate Congress' attention and focus on mutual 
aid, and we must ensure that our mutual aid system has adequate 
resources and builds plans and systems before a disaster. I 
thank you for the opportunity to testify on behalf of the 
National Emergency Management Association.
    Mr. Cuellar. Thank you, Mr. Murphy.
    [The statement of Mr. Murphy follows:]

                Prepared Statement of Kenneth D. Murphy

Introduction
    Thank you Chairman Cuellar, Ranking Member Dent, and distinguished 
members of the Committee for allowing me the opportunity to provide you 
with a statement for the record on our nation's preparedness. I am Ken 
Murphy, the President of the National Emergency Management Association 
(NEMA) and the Director of Oregon Emergency Management. In my 
statement, I am representing the NEMA, whose members are the state 
directors of emergency management in the states, territories, and the 
District of Columbia. I was named to my current position in 2003, after 
serving with the agency since July 1999. Previous experience includes 
over nineteen years of service with U.S. Army as an active duty Guard/
Reserve Officer.
    I very much appreciate the opportunity to testify before your 
Committee today on the role of the mutual aid in disaster response. 
Through the Emergency Management Assistance Compact (EMAC), NEMA's 
members are the leaders in state-to-state mutual aid facilitation and 
continuously working to improve the system based on lessons learned 
from previous disasters. During Hurricanes Katrina and Rita, EMAC 
fulfilled over 2,174 missions with 49 states, the District of Columbia, 
the U.S. Virgin Islands and Puerto Rico providing assistance in the 
form of 65,919 civilian and military personnel and equipment assets to 
support the impacted states. The estimated costs of this assistance 
exceeds $829 million. Today, all fifty states, the District of 
Columbia, the U.S. Virgin Islands, Puerto Rico, and most recently Guam 
are parties to the EMAC agreement. Most recently, assets and personnel 
were used to fight the California wildfires through the EMAC system. In 
2007, EMAC was the vehicle used to provide assistance for the Colorado, 
Nebraska, and Virginia winter storms; the Kansas tornadoes and floods; 
and Hurricane Dean in Texas.
    There are several key areas that I wish to discuss with you today 
to address our mutual aid system:
        1. EMAC as the tool for mutual aid before, during, and after 
        disasters to support response and recovery;
        2. EMAC's work plan for improving and building on the lessons 
        learned from the largest mobilization in the program's history; 
        and
        3. Enhancing EMAC with strong Congressional support and 
        Administrative coordination.

BUILDING OUR NATION'S MUTUAL AID SYSTEM THROUGH EMAC
    The EMAC response to Hurricanes Katrina and Rita resulted in the 
largest deployment of interstate mutual aid in the nation's history. As 
mentioned previously, EMAC deployed personnel and equipment comprised 
of multiple disciplines from all member states to respond to Louisiana, 
Mississippi, Alabama, Florida, and Texas. The process enabled National 
Guard, search and rescue teams, incident management teams, emergency 
operations center support, building inspectors, law enforcement 
personnel, health and medical and other disciplines to immediately 
assist the requesting states in need of support. The National Guard 
even chose to continue their response through EMAC when deployed under 
Title 32 because of the organization, liability protections, 
accountability, and tracking abilities EMAC provides. EMAC works, 
especially when deploying resources in teams and task forces with an 
established command and control structure, as established by the 
requesting state. EMAC connects the operational dots across state lines 
during a disaster.
    EMAC was created in 1993 after Hurricane Andrew by then-Florida 
Governor Lawton Chiles. The system was developed through the member 
states of the Southern Governors' Association to establish mechanisms 
to enable mutual aid among member states in emergency situations. The 
Southern Regional Emergency Management Assistance Compact (SREMAC) was 
signed by participating Governors in 1993. Following recognition of 
SREMAC's nationwide applicability by the National Governors' 
Association and FEMA, Congress enacted EMAC in 1996 (P.L. 104-321). 
EMAC requires member states to have an implementation plan and to 
follow procedures outlined in the EMAC Operations Manual. EMAC takes 
care of issues such as reimbursement, liability protections, and 
workers' compensation issues.
    Prior to the historic 2005 deployments for Hurricanes Katrina and 
Rita, EMAC's largest previous deployment was during the 2004 Hurricane 
season in Florida, Alabama, and West Virginia, during which time 38 
states provided assistance in the form of more than $15 million in 
human, military, and equipment assets and over 800 personnel to support 
the impacted states for over 85 days of continuous response operations. 
EMAC experienced significant growth and development as a result of the 
September 11, 2001 terrorist attacks. On 9/11/2001, only 28 states were 
a party to EMAC. That number quickly grew, as states saw the need to 
have mutual aid in place to respond to a catastrophic disaster and 
other emergencies and as a means to assist impacted states.
    The key to EMAC is that the system provides assistance to those in 
need, but allows others to assist and learn from disasters in other 
states. The framework to effectively mange resources from all levels of 
government is defined in community, county, state, and federal response 
plans. The plans pre-identify local, state, and federal agency role and 
responsibilities so that blended resources from all levels of 
government meet the mission. Resource management is an area that a 
state impacted by a disaster can rely upon EMAC assistance for to 
ensure appropriate resources are brought to bear before, during and 
after a disaster. The only pre-requisite is verbal, followed up by a 
signed Governor's State of Emergency Proclamation in the requesting 
state and appropriate paperwork such as the REQ-A. This means not only 
bringing in equipment, but emergency management personnel to backfill 
and assist impacted communities when a disaster occurs. The system 
prevents self-deployment, allows for states to get the most cost 
effective and swiftest assistance, and allows for a Governor to call 
back assets if need be. EMAC partners such as the Fire Chiefs and Major 
Cities Chiefs utilize EMAC to move personnel and resources through the 
state--there is no other vehicle that ensures reimbursement, liability, 
and workers' compensation.
    EMAC has a strong state organizational structure and commonly 
accepted protocols. EMAC is not a federal program, but a state 
developed and state program. Each year, the day-to-day business 
operations for EMAC is assigned to an elected EMAC Executive Task Force 
Chair. Iowa currently serves in this capacity. Additionally, each 
Region elects a lead EMAC State Representative to serve on the 
Executive Task Force. NEMA also maintains an EMAC Committee comprised 
of state emergency management directors who give overall policy 
guidance and direction for the compact. NEMA also maintains the staff 
to coordinate the program.
    EMAC has also developed in 2004 Model Intrastate Mutual Aid 
Legislation to provide a tool for states to use on mutual aid within 
their states. Fourteen states have adopted this model to date. EMAC has 
also developed a model contract for states to use when utilizing local 
government employees under EMAC.

EMAC IMPROVEMENTS AS A RESULT OF LESSONS LEARNED
    NEMA is the administrator of the Emergency Management Assistance 
Compact (EMAC). The state-to-state mutual aid system was referenced as 
a key achievement and best practice to be built upon in many of the 
reports on Hurricane Katrina. EMAC is not a perfect system but strives 
to achieve continuous improvement. NEMA's members are proud of the 
success of the system and support initiatives to bolster operational 
response and elevate awareness of how EMAC works. EMAC has a strategic 
plan to put lessons learned into practice. The After-Action process 
from Hurricane Katrina allowed EMAC to examine how to improve the 
system after unprecedented disasters and an unparalleled growth in the 
use of the system. I would like to highlight just some of the 
significant improvements we have put into place in the last two years 
as a result of what we have learned from Hurricane Katrina.
        <bullet> First, since education on EMAC among all levels of 
        government was identified as a key need, NEMA has established 
        an EMAC Advisory Group that is already working to better 
        integrate mutual aid partners into the EMAC system before 
        future disasters occur and to educate partners. The EMAC 
        Advisory Group has already met four times to discuss common 
        issues such as resource typing, developing mission packages, 
        and deployment issues for future disasters. The group includes 
        representatives from state and local government associations, 
        the National Guard Bureau, emergency responder associations, 
        public utility associations, and the private sector. The 
        discussions and interactions of this group will serve to assist 
        in adding local government assets to the scope of resources and 
        other disciplines that can be readily plugged into the system.
        <bullet> Second, EMAC has hired a full-time training 
        coordinator whose main job will be to provide training for 
        states as well as our local mutual aid partners. Multi-
        discipline, standardized training modules will be developed and 
        delivered through distance learning programs and face-to-face 
        instruction. A national training needs assessment for EMAC will 
        drive the development of curriculum and a cadre of qualified 
        trainers will be maintained through this initiative. 
        Additionally, the training curriculum will include an exercise 
        component which will help to facilitate the further integration 
        of EMAC in federal, state, and local plans and exercises
        <bullet> Third, NEMA has evolved in the area of EMAC resource 
        tracking and management. In the coming months, we will fully 
        implement an online REQ-A form to allow for swifter approvals 
        from the requesting and responding states, which will 
        ultimately allow for improved tracking and faster response to 
        requests for assistance.
        <bullet> Finally, states are engaged in developing their own 
        deployable mission ready packages and EMAC is involved in 
        assisting with responsibilities set in both the Post Katrina 
        Emergency Management Reform Act and the Implementing the 9/11 
        Commission Recommendations Act for resource typing and 
        credentialing.
    States we are better prepared to address disasters through 
exercises and coordination with surrounding states and interagency 
partners to exercise the EMAC agreement. One example of how this is 
being put into practice is North Carolina's 2006 initiative with the 
National Guard and the State Medical Assistance Team Program (SMAT) 
medical assets that led to the development of mission ready packages. 
These teams are resource typed, so a requesting state knows exactly 
what they are getting when they request specific typed teams. From 
these team developments, North Carolina learned and was able to share 
with the various emergency support functions: that resources need to be 
mission ready for emergency management to broker at the state level; 
resources and systems should be understood in advance of a disaster to 
assist each other; resources need to be appropriately allocated using 
EMAC as the vehicle; planning must occur together across disciplines to 
develop standardized mission ready packages; and relationships must be 
developed in advance of the disaster. Other states including Georgia, 
Mississippi, and Alabama have built on these developments of the 
medical resource capability.

    ENHANCING EMAC WITH FEDERAL INVESTMENT
    The support of EMAC is critical to helping offset the costs of 
disasters and building costly infrastructure at the federal level that 
could sit unused until a disaster occurs. In order to meet the ever-
growing need for and reliance on interstate mutual aid, NEMA is seeking 
$4 million over three years to continue to build EMAC capabilities. 
This funding will allow EMAC to focus on the implementation of lessons 
learned from Hurricanes Katrina and Rita, such as training and 
education for all mutual aid stakeholders, resource typing and 
credentialing, and information and resource management. Since EMAC's 
inception in 1993, EMAC was funded by member states until 2003. In 2003 
with the second 9/11 supplemental, FEMA funded EMAC with a 3 year grant 
of $2.1 million. This funding expired on May 31, 2007. EMAC is 
currently operating with a $1,005,000 grant for this fiscal year. 
Funding is being used to continue to build and enhance EMAC 
capabilities through further development of the EMAC Operations system. 
I would like to take this opportunity to publicly thank FEMA for their 
financial support of EMAC. Their support helped us to make the strides 
that allowed the compact to respond so effectively to Hurricanes 
Katrina and Rita. EMAC works in conjunction and coordination with the 
federal resource management systems so that resource allocations are 
optimized. Both systems need to be employed during large disasters, 
without making one system a replacement or subservient of another.
    While homeland security grants and Emergency Management Performance 
Grants are helping to build capabilities, the National Homeland 
Security Strategy counts on the fact that mutual aid is going to be put 
to use in a disaster. Specific Funding for EMAC is needed to continue 
to build capabilities and sustain the EMAC system at appropriate 
readiness levels for 24/7 activation when a disaster occurs. The Post-
Katrina FEMA Reform Act authorized $4 million annually for EMAC, but no 
funds were appropriated. NEMA supports inclusion of an annual budget 
line item in FEMA to assist with training and education, resource 
typing requirements in the fiscal year 2007 DHS appropriations, 
credentialing, and information and resource management. Including a 
budget line item for building EMAC capabilities and our nation's mutual 
aid system in the DHS budget for fiscal year 2008 and beyond will help 
to build and sustain our nation's interstate mutual aid system. We hope 
we can count on this Committee, which drafted the initial language 
authorizing EMAC, to support funding in the appropriations process.
    Additionally, EMAC faces other challenges. EMAC must maintain a 
significant partnership with the federal government in order to work. 
In that respect, I will be meeting with the FEMA Deputy Administrator 
for National Preparedness later this month to continue to build the 
EMAC and FEMA partnership. We have to ensure that as changes are made 
in the federal and state governments and in any change of 
Administration that EMAC continues to be recognized as an effective 
system for mutual aid and disaster response. .

CONCLUSION
    We appreciate Congress' attention and focus on mutual aid. We must 
ensure that our mutual aid system has adequate resources to build plans 
and systems before a disaster. I thank you for the opportunity to 
testify on behalf of NEMA.

    Mr. Cuellar. I now recognize Chief Westermann to summarize 
your statement for 5 minutes.

  STATEMENT OF STEVEN P. WESTERMANN, PRESIDENT, INTERNATIONAL 
                   ASSOCIATION OF FIRE CHIEFS

    Chief Westermann. Good afternoon, Chairman Cuellar, Ranking 
Member Dent, members of the committee. I am Chief Steven 
Westermann of the Central Jackson County Missouri, Fire 
Protection District, and current president of the nearly 13,000 
members of the International Association of Fire Chiefs. The 
IASC represents the leadership of America's fire, rescue and 
emergency medical services, including rural volunteer fire 
departments and metropolitan career fire departments.
    Today I would like to thank the committee for the 
opportunity to discuss the importance of leveraging mutual aid 
for effective emergency response. The fundamental cornerstone 
of every emergency event is at the local government, and local 
officials are the responding authority. However, there are 
situations where the emergency's demands exceed the resources 
of local departments. Mutual aid agreements are designed to 
meet these situations. They are based on the principle of 
neighbor helping neighbor.
    In many incidents, a local mutual aid agreement will be 
sufficient to handle an emergency incident, but in some cases 
the incident may exceed the resources of the local 
jurisdiction. A statewide mutual aid system should manage and 
deploy resources in these situations.
    The timely deployment of resources is the key foundation 
for a successful statewide mutual aid system. A successful 
statewide mutual aid system also must have the following 
characteristics: a scalable system that allows a tiered 
response, implementation of the National Incident Management 
System and the Incident Command System, a single list of 
resources categorized by type and kind, a system for ordering 
resources so that the closest assets are deployed first, the 
ability to track resources and personnel, an interoperable 
communications system or plan, a credentialing standard that is 
simple to understand and manage, a compensation reimbursement 
plan to identify pay rates for potential responders and deal 
with issues such as volunteer firefighters and backfilling, 
articles of agreement to deal with issues such as liability and 
workers compensation, and a logistical support system to 
maintain equipment and provide for the responders.
    There will be disasters such as Hurricane Katrina that will 
require a truly national response. The National Response 
Framework and its 15 emergency support functions are designed 
to cover the planning, support and implementation of essential 
services. The U.S. Forest Service is the lead agency for ESF-4, 
which is designed to provide resource support to firefighting 
operations that require coordinated Federal response. In 
addition, the National Emergency Management Association's EMAC 
serves as a major tool for disaster-stricken States to request 
aid from other States, and EMAC is recognized by all 50 States. 
It includes a number of benefits, including liability 
protections and recognition of professional licenses and 
certifications.
    In early 2005, the National Integration Center contracted 
the IFC to support their creation of intrastate mutual aid 
plans. After Hurricane Katrina demonstrated the need for some 
States to more effectively deploy emergency assets internally, 
the IFC received greater support for its efforts. Using the 
anchor States of California, Illinois, Ohio and Florida as 
models, the IFC's 3-year program uses the State fire chiefs 
associations to develop robust mutual aid systems in all 50 
States.
    During the first year, the IFC focused on the Gulf Coast 
and the Rocky Mountain States to deal with threats of 
hurricanes and wildland fires. For the second year, the IFC is 
focusing on the Midwest and Mid-Atlantic States. In the third 
year, the IFC intends to assist the remaining States.
    The IFC is also working on a plan for a national mutual aid 
system. This system would be annexed to the EMAC and be built 
on a foundation of States' experience with statewide mutual 
aid. A national mutual aid system should be based on the FEMA 
regions and allow a disaster-stricken State to receive 
assistance within 12 hours. We are working with the U.S. 
Department of Homeland Security, NEMA, U.S. Fire Administration 
and U.S. Forest Service and other stakeholders to develop this 
national mutual aid system.
    The recent California wildfires demonstrated the strengths 
of a successful mutual aid system and highlighted areas for 
further study. During the height of the fire siege, over 13,000 
firefighters and about 1,500 engines were deployed to combat 
the fires. The majority of these resources came from within the 
State of California, with additional firefighting resources 
provided by other Western States.
    During the fire, some fire departments from outside 
California expressed concern about the delay being reimbursed. 
Reimbursement can take months or years through the EMAC and 
Federal reimbursement systems. This delay creates a great 
fiscal strain on local fire departments. We urge Congress to 
examine how responding mutual aid units are reimbursed.
    In addition, the EMAC system deployed firefighters from 
other States that were not trained to respond to wildland 
fires. The IFC supports the development of the credentialing 
system that has standardized minimum levels of training and 
provides sufficient evidence of training and agency 
affiliation. This system must include both career and volunteer 
firefighters.
    A nationwide credentialing and resource-tightening system 
also should focus on the ability to deploy units within and 
between States that are composed of both apparatus and 
personnel.
    We also urge Congress to pass H.R. 2638, the fiscal year 
2008 DHS appropriations bill. We support the House-passed 
funding levels of $570 million and $235 million respectively 
for the FIRE and SAFER grant programs. These programs bolster 
local response capabilities that can be used for mutual aid. We 
also support the $100 million that the Senate passed to fund 
new grants to support communications interoperability and 
operability. In addition, this bill also funds important 
Federal agencies, such as the USFA and the NIC, which are 
engaged in important Federal mutual aid initiatives.
    Thank you again for the opportunity to address this 
committee on this important topic. On behalf of America's fire 
and EMS chiefs, I thank the Congress and especially the 
Homeland Security Committee for its continued support of 
America's fire services.
    Mr. Cuellar. Thank you, Chief.
    [The statement of Chief Westermann follows:]

            Prepared Statement of Chief Steven P. Westermann

    Good morning, Chairman Cuellar, Ranking Member Dent, and members of 
the committee. I am Chief Steven P. Westermann, CFO, of the Central 
Jackson County, Missouri, Fire Protection District and President of the 
nearly 13,000 members of the International Association of Fire Chiefs. 
The IAFC represents the leadership of America's fire, rescue, and 
emergency medical services (EMS) ranging from large, metropolitan, 
career fire departments to small, rural, volunteer fire departments. 
Today, I would like to thank the committee for the opportunity to 
discuss the importance of leveraging mutual aid for effective emergency 
response.

The Fire and Emergency Service Community
    America's fire and emergency services are the only organized group 
of American citizens that is locally situated, staffed, trained, and 
equipped to respond to all types of emergencies. There are 
approximately 1.1 million men and women in the fire and emergency 
services--316,950 career firefighters and 823,950 volunteer 
firefighters--serving in 30,400 fire departments around the country. 
They are trained to respond to all risks and hazards ranging from 
earthquakes, hurricanes, tornadoes and floods, to acts of terrorism, 
hazardous materials incidents, technical rescues, fires, and medical 
emergencies.
    The fire service protects America's critical infrastructure--the 
electrical grid, interstate highways, railroads, pipelines, petroleum 
and chemical facilities--and is, in fact, even considered part of the 
critical infrastructure. The fire service protects federal buildings, 
provides mutual aid to most military bases, and protects interstate 
commerce. No passenger airliner takes off from a runway that is not 
protected by a fire department. The transport of hazardous materials is 
an integral part of the U.S. economy, and when they spill or ignite, 
the fire service responds to protect lives and clean up the mess.

Mutual Aid
    The fundamental cornerstone of every emergency event is that the 
local government and local officials are the responding authority. When 
there is an emergency incident, a jurisdiction's local fire, EMS, and 
police resources respond. However, it is understood in the fire service 
that there will be situations where the emergency's needs exceed the 
resources of the local departments. In these situations, fire 
departments call upon their neighbors for help. Mutual aid agreements 
are based on this principle of neighbor helping neighbor. In many 
incidents, these local mutual aid agreements will be sufficient to 
handle an emergency incident.
    In some cases, the incident may exceed the capabilities of a local 
jurisdiction or its neighbors. A robust intrastate mutual aid system is 
critical to respond to these incidents. The system manages and deploys 
resources to the incident scene. The key factor for statewide mutual 
aid systems is the timeliness in which resources can be delivered to 
save lives. The states with advanced and well-tested intrastate mutual 
aid systems are California, Illinois, Ohio, and Florida.
    Situations, such as Hurricane Katrina, can exceed a state's 
resources and depend on a national response. The National Response 
Framework includes 15 Emergency Support Function (ESF) annexes to cover 
the planning, support, implementation and services that are most likely 
to be needed during a large-scale event. The ESF-4 is designed to 
provide resource support to wildland, rural, and urban firefighting 
operations that require a coordinated federal response. The U.S. Forest 
Service is designated as the lead agency for ESF-4.
    One of the major avenues for the deployment of national assets is 
the Emergency Management Assistance Compact (EMAC). Originally 
established in 1993 and ratified by Congress in 1996, the EMAC is 
composed of all 50 states and administered by the National Emergency 
Management Association (NEMA). The EMAC serves as a vehicle for a 
disaster-stricken state to request mutual aid from other states. The 
EMAC system includes a number of benefits, including liability 
protections for the out-of-state responders and recognition of their 
professional licenses and certifications.

State Mutual Aid Programs
    In early 2005, the IAFC was contracted by the National Integration 
Center (NIC) to support the creation of formalized and comprehensive 
intrastate mutual aid plans. Support for the National Fire Service 
Intrastate Mutual Aid System (IMAS) increased after it became apparent 
during Hurricane Katrina that some states need to improve their mutual 
aid plans to deploy resources to affected areas more effectively. For 
example, there was a clear need to help disaster-stricken states deploy 
firefighters and their equipment from unaffected areas within hours of 
a major disaster before relying on interstate or federal aid that could 
take days to deploy. The NIC gave $1 million to the IAFC to fund 
efforts to improve both statewide and national mutual aid systems.
    Using the ``anchor states'' of California, Illinois, Ohio, and 
Florida as models, the IAFC is helping all fifty states develop robust 
mutual aid systems as part of a three-year program by leveraging our 
relationships with state fire chiefs associations. During the first 
year, the IAFC focused on assisting states in the Gulf Coast region and 
Rocky Mountain states based on the threats of hurricanes and wildland 
fires. For the second year, the IAFC is focusing on states in the 
Midwest and Mid-Atlantic regions. By the third year of the program, the 
IAFC intends to assist the remaining states in the West, Midwest, and 
Northeast regions of the country. The plans in these states can be 
adopted to suit the needs of other emergency services and disciplines.
    Based on its experiences with wildland fires, the state of 
California has created an effective state mutual aid plan that serves 
as a model for other states. According to the California Master Mutual 
Aid Agreement and Part One of the Standardized Emergency Management 
System (SEMS), California consists of five escalating organizational 
levels that can be activated as necessary:
        <bullet> Field Response: At this level, emergency response 
        personnel and resources, under the command of an appropriate 
        authority, carry out tactical decisions and activities in 
        direct response to an incident or threat.
        <bullet> Local Government: Local governments manage and 
        coordinate the overall emergency response activities within 
        their jurisdiction. This level includes counties, cities, and 
        special districts.
        <bullet> Operational Area: This is an intermediate level of the 
        state's emergency services organization that encompasses the 
        county and all political subdivisions located within the 
        county. The operational area manages and coordinates 
        information, resources and priorities among local governments 
        within the area, and serves as the coordination link between 
        the local government level and the regional level.
        <bullet> Region: Due to its size and geography, the state of 
        California is divided into six mutual aid regions. The purpose 
        of each region is to provide for the more effective application 
        and coordination of mutual aid and other emergency-related 
        activities. The regional level manages and coordinates 
        information and resources among operational areas within the 
        mutual aid region, and also between the operational areas and 
        the state. The regional level also coordinates overall state 
        agency support for emergency response activities within the 
        region.
        <bullet> State: This level manages state resources in response 
        to the emergency needs of other levels, and coordinates mutual 
        aid among the six mutual aid regions and between them and the 
        state. The state level also serves as the coordination and 
        communication link between the state and the federal disaster 
        response system.
    Other factors are also important to a successful state mutual aid 
system. The implementation of the National Incident Management System 
(NIMS) and the incident command system allow multi-agency resources to 
operate together within a common organizational structure with common 
terminology, span of control, and resource typing. A statewide mutual 
aid system depends on the establishment and maintenance of a single, 
statewide recognized list of resources that is categorized by type and 
kind. A system for ordering resources must be developed to ensure that 
the closest available and appropriate resources are deployed first, and 
that the requesting jurisdiction has an expectation of a timely 
response, mobilization, en route times, and on-scene arrival. When 
resources are mobilized, including personnel, they must be tracked. The 
state also must have an interoperable communications system or a plan 
to ensure interoperable communications, so that the responding units 
can effectively communicate with each other. A statewide standard for 
the credentialing of personnel to ensure minimum and consistent 
standards for performance must exist. The state must develop a 
compensation/reimbursement plan to identify pay rates for potential 
responders, handle issues relating to volunteer firefighters, and cover 
backfill for the responding agency. The state also must develop 
articles of agreement that address issues relating to liability, 
workers' compensation, and dispute resolution for financial and other 
issues. Finally, all state mutual aid plans must anticipate the 
increased need to maintain the mechanical functioning of tools and 
apparatus and provide for the logistical needs of the responders.
    The recent wildland fires in California demonstrated the advantages 
of having a strong state mutual aid system. At the height of the fire 
siege, over 13,000 firefighters and about 1,500 engines were deployed 
to combat the fires in southern California. A majority of these 
resources came from within the state of California with additional 
firefighting resources provided by other western states.

National Mutual Aid System
    In conjunction with the IAFC's efforts to improve statewide mutual 
aid plans, the IAFC also is working on developing a plan for a national 
mutual aid system. This national system would serve as an annex to the 
EMAC, and strengthen the foundation for effective interstate mutual aid 
by assuring the existence of a system of states experienced with the 
provision of mutual aid. The national mutual aid system should be based 
on the FEMA regions. By drawing resources from other states within a 
FEMA region, the disaster-stricken state should be able to receive 
interstate assistance within 12 hours of an emergency. It is important 
to recognize that a successful interstate mutual aid program also would 
depend on continued stakeholder and financial support.
    To develop a well-coordinated national fire service mutual aid 
system, the IAFC is working with the NEMA, the U.S. Fire 
Administration, and the U.S. Forest Service. The IAFC also is working 
with other stakeholder organizations to develop education programs to 
prepare the fire service for the implementation of the national mutual 
aid system.

Credentialing
    One important issue for an interstate and intrastate mutual aid 
program is credentialing. The IAFC supports the development of a 
credentialing system that includes both career and volunteer 
firefighters, and provides sufficient evidence of training and agency 
affiliation, while not placing an excessive burden on the participants. 
A successful credentialing and resource typing system would focus on 
the ability to deploy units within and between states that are composed 
of both apparatus and personnel.
    It is vital that any national credentialing and resource typing 
system be simple to understand and manage. Prior attempts at developing 
these systems have been bogged down by a need to be all things to all 
people. As a practical matter, a credentialing and resource typing 
system that is composed of lengthy lists of personnel and resources can 
create a process that is too cumbersome for the vast majority of local 
fire departments to adopt. The IAFC recommends that a national 
credentialing and resource typing system be based on a core set of 
capabilities that will be easy for agencies from all levels of 
government to adopt.

Role of Congress
    While Congress has taken the most important step in supporting 
mutual aid by ratifying the EMAC in 1996, there are still steps that it 
can take to support mutual aid.
    For example, it is important that the fire departments that provide 
mutual aid are reimbursed in a timely manner. Under the current system, 
the local fire departments that send resources to help must bear all of 
the initial costs incurred in sending the engines and personnel. 
Reimbursement can take months or years through the EMAC or federal 
reimbursement systems, causing significant financial distress on these 
local fire departments who were simply trying to help their neighbors. 
This issue came up during the recent California wildland fires when 
some fire departments from outside the state expressed concern about 
the delay in being reimbursed. Small fire departments can face severe 
hardship if they are forced to wait months for reimbursement. We urge 
Congress to examine how responding mutual aid units are reimbursed, 
whether they are dispatched through the EMAC system, through the U.S. 
Forest Service or U.S Department of Interior, or through a direct 
request from FEMA.
    Also, as an illustration of the need for a credentialing system 
that provides for standardized minimum levels of training, some of the 
firefighters that were deployed from other states to California through 
the EMAC system were not trained to respond to wildland fires. Although 
these firefighters were supposed to backfill for the fire departments 
deployed to respond to the wildland fires, the reality is that any 
firefighter in any station in the West could be dispatched to fight a 
wildland fire. In some cases, that is exactly what happened and these 
firefighters were used to fight wildland fires. There needs to be a 
greater effort to make sure that all firefighters, especially those in 
the West, are trained to respond to fires in the wildland urban 
interface.
    In addition, Congress can fund a number of important programs that 
support mutual aid activities. Specifically, Congress should pass H.R 
2638, the Fiscal Year (FY) 2008 DHS Appropriations bills to fund the 
following programs:
        <bullet>The National Integration Center: The NIC plays an 
        important role in overseeing the development and implementation 
        of the NIMS. The NIMS is important in ensuring an organized, 
        unified incident command system during a national disaster. In 
        addition, the NIC is engaged in important initiatives to 
        improve national and statewide mutual aid and develop 
        credentialing and resource typing programs.
        <bullet>The Assistance to Firefighters Grant (AFG) program: The 
        AFG's FIRE and SAFER components grant matching funds to local 
        fire departments for staffing, equipment, training, and 
        prevention programs. Unlike the State Homeland Security Grant 
        and the Urban Areas Security Initiative programs, the AFG 
        programs fund fire departments' capabilities to respond to all 
        hazards, including hurricanes and wildland fires. Since the 
        resources deployed in national disasters are locally-owned, it 
        is important to bolster local response capabilities. The IAFC 
        supports the House-passed funding levels of $805 million for 
        the AFG program, including $570 million for the FIRE grants and 
        $235 million for the SAFER grants.
        <bullet>The Interoperable Emergency Communications Grant 
        Program: The Interoperable Emergency Communications Grant 
        Program was created by the ``Implementing Recommendations of 
        the 9/11 Commission Act of 2007 (P.L.110-53).'' This grant 
        program sets out federal funding to ensure both communications 
        operability and interoperability by funding equipment, 
        training, planning, and governance activities as outlined in 
        the SAFECOM interoperability continuum. The need for 
        interoperable communications still remains an obstacle to 
        national mutual aid, even six years after the terrorist attacks 
        of 9/11. The IAFC supports the Senate-passed amount of $100,000 
        in H.R. 2638.
        <bullet>The U.S. Fire Administration: The USFA plays an 
        important role in promoting mutual aid for the fire service. By 
        working with the U.S. Forest Service, it is helping to support 
        operations under ESF-4. In addition, the USFA has been deeply 
        involved in the development of a national credentialing system, 
        including a study in 2005. The House and Senate have both 
        passed appropriations of $43.3 million for this program.

Conclusion
    Thank you again for the opportunity to address this committee. On 
behalf of America's fire and EMS chiefs, I would like to thank you for 
holding this hearing on the important topic of mutual aid and look 
forward to answering any questions that the committee members may have.

    Mr. Cuellar. I now recognize Mr. Ronczkowski to summarize 
your statement for 5 minutes.

  STATEMENT OF MICHAEL RONCZKOWSKI, HOMELAND SECURITY BUREAU, 
                  MIAMI-DADE POLICE DEPARTMENT

    Mr. Ronczkowski. Thank you, Chairman Cuellar and Ranking 
Member Dent, and other distinguished Members. I appreciate the 
opportunity to come before you today to discuss matters of 
mutual concern.
    I am Michael Ronczkowski, Major of the Miami-Dade Police 
Department's Homeland Security Bureau, and I am here on behalf 
of Director Robert Parker of the Miami-Dade Police Department 
as well as my Major City Chiefs Association.
    Law enforcement agencies have long participated in mutual 
aid agreements and memorandums of----
    Mr. Cuellar. Is your mike working?
    Mr. Ronczkowski. Are we testing operability? Okay. I am 
sorry.
    Mr. Cuellar. All right. Go ahead. Continue. Thank you, sir.
    Mr. Ronczkowski. Thank you for the opportunity.
    Law enforcement has long been participants in various 
mutual aid agreements as well as memorandums of understanding. 
Events such as Katrina, Rita, man-made, natural disasters, it 
makes no difference to us. What we are striving to do is go 
forth with different efforts to come to the assistance of our 
fellow comrades, whether it is law enforcement, fire, emergency 
managers or the overall incident at hand.
    Since 9/11--the 9/11 Act, I should say--There is a 
recommendation that law enforcement deployment teams be put 
forth to be studied. The Major City Chiefs has taken the Law 
Enforcement Deployment Team recommendation to study law 
enforcement deployment teams and made it a reality. There is a 
document that we have been working and partnering with ATF, as 
well as DHS, as well as the various other people that have 
interest in this, and we have put together a viable document 
that is in the process of being vetted and worked around the 
system in the past 6 weeks.
    Like the fire service and the emergency management 
community as a whole, law enforcement rallied to provide 
everybody with help regardless of the size of the catastrophe. 
The problem that we have with law enforcement is agencies, 
regardless of whether it is a two-person agency or 20,000-
person agency, everybody felt the need to send personnel, and 
we are striving to struggle with how do we get them there? Once 
they are there, what do we do with them, who do they report to, 
who manages them? Law enforcement wants to show up to be a 
party to this with full law enforcement capabilities.
    When Major City Chiefs met about 6 weeks ago, the concept 
of EMAC was brought forth. The testimony that Dick Cashdollar 
has put forth before you represents where we stand on that 
matter. The issue of EMAC that was amongst the chiefs as well 
as other people in the room was one of, what is EMAC? We were 
trying to understand it. We did not know what it was or how to 
get it out. Now we understand it, and we are going to use that 
as a vehicle through these Law Enforcement Deployment Teams to 
get the word out amongst our personnel once they arrive.
    It is not a matter of showing up with a presence, it is a 
matter of showing up with a purpose, and our purpose is 
outlined in the law enforcement checklist as part of Req A. The 
Requisition A component, we think, will address many of the 
issues that are out there. There are several issues that are at 
hand. We need to be ready not just for 1 day, 1 week, but the 
possibility of having law enforcement personnel on the ground 
for 1 year or preventative measures on the front side.
    We have, as I stated, worked with the Las Vegas 
Metropolitan Police Department, who hosted the meeting, the 
FBI, DHS and ATF. Mr. Bourne was actually one of the 
participants on the panel that we worked with. The goal of this 
workshop was to discuss the concept of rapidly deploying the 
law enforcement teams that can provide continual law 
enforcement support, not just traffic management. We are 
talking from corrections to investigations on through.
    The discussion came about, how do we do this? Well, we want 
to go ahead and we want to use existing models, the USAR model, 
the DMAT mobilization model. However, these components, these 
programs are federalized, and one thing we do not want the Law 
Enforcement Deployment Teams is to be federalized. The reason 
being is if we get deputized at the Federal agency level, that 
limits our ability to act in the law enforcement capacity at 
the local level. That is why we are encouraging the adoption 
into full use of the Req A process with the law enforcement 
checklist that NEMA put forward and Dick Cashdollar puts out in 
his testimony.
    We have developed a documented framework for implementation 
of the deployment teams. This included an all-hazard approach 
not just for disasters; man-made, natural made no difference. 
One thing that law enforcement has the ability to do is respond 
ahead of an event should we get some insight or information 
that something may occur. Whether it is a large rally, get-
together, organizational component or whatever the case may be, 
we can be there on the front side.
    That is something that goes against the reimbursement 
models that are out there, and I am glad my colleagues at the 
table here have mentioned reimbursement, because that is the 
cornerstone for many of these agencies. Larger agencies are 
able to take pieces on. The smaller agencies do play a role. 
There are a lot more of them than there are of the large ones.
    The program that we are looking to put forth is regional, 
one that follows the 10 FEMA regions that are already in 
existence. Each team would be completely scalable, with no more 
than 500 personnel. Realizing that local law enforcement is a 
different mission than Federal law enforcement, there will be 
no Federal members on this team. They will be complementary in 
their role for their mission. But we are talking the role of 
local law enforcement here. Teams provide essential law 
enforcement support. Whether it is crowd control, road patrol, 
traffic, advanced communication; whether it is SWAT, bomb, we 
will be able to handle various degrees.
    We have put together a core list of core skills that we are 
seeking to have as part of the team. Each team will include 
emergency support personnel from all the other disciplines. 
Teams will be comprised of modular components, and we would 
rely on various caches of equipment that are out there, such as 
the Prepositioned Equipment Program and other pieces that are 
already in place. Law enforcement will come with the majority 
of the equipment. Most of what we will need is food, water and 
the essentials to sustain ourselves. We will be following the 
National Incident Management System, the ICS model, and take 
best practices from across the Nation.
    We are a firm believer in FEMA's efforts to support 
resource typing and identification, that this will leverage our 
capabilities. When the incident commander calls, the incident 
commander will run and control these teams. He needs to 
understand what he has. Having 500 officers show up that have 
one skill set will do him no good. We are going to draw upon 
the best practices. However, one practice that is not 
understood by many, and that is the reimbursement model.
    The Stafford Act addresses much of the reimbursement. As we 
are well aware in south Florida, FEMA and DHS have done a 
really great job in the past couple of years with hurricanes. 
Reimbursement has become something we are quite efficient at, 
with the various hurricanes we had, whether it was Katrina, 
Rita, which did impact, or Wilma a couple years ago. The 
capability of reimbursement was great.
    The problem is with the Stafford Act, limitations are in 
place for after action. We may have to be deployed 
preventative. There may be other things that are going to have 
to be addressed within the Stafford Act expansion or 
modification there. We are not looking to supersede any 
existing interstate mutual agreements, memorandums of 
understanding. We are talking interstate. We want to make sure 
that the incident commander has support completely through the 
entire operation, whether it is a fire commander or law 
enforcement commander. The unified command system will address 
the needs of everybody at hand.
    I thank you for the opportunity to come here and represent 
Major City Chiefs as well as the south Florida region, and I 
look forward to answering any of your questions.
    Mr. Cuellar. Thank you again for your testimony.
    [The statement of Mr. Ronczkowski follows:]

            Prepared Statement of Major Michael Ronczkowski

    Chairman Cuellar, Ranking Member Dent, members of the Subcommittee, 
thank you for the opportunity to discuss law enforcement efforts to 
provide comprehensive response capabilities for all-hazard disasters in 
the United States.
    I am Michael Ronczkowski, major of the Miami-Dade Police 
Department?s Homeland Security Bureau and I am here on behalf of 
Director Robert Parker of the Miami-Dade Police Department and I am 
also representing the Major Cities Chiefs Association (MCC), whose 
members include the 56 largest police departments in the United States.
    Law enforcement agencies have long participated in mutual aid 
agreements with other law enforcement and first responder agencies. We 
have developed strong relationships with fire and emergency management 
agencies like those on this panel. All of us agree on the necessity to 
develop robust mutual aid agreements with regional partners in advance 
of natural or man-made disasters. It is only through collaboration that 
we can effectively protect the public and provide timely and effective 
response. As far as we have come in developing regional mutual aid 
agreements since 9/11, the response to Hurricanes Katrina and Rita made 
it painfully clear that this country is missing a critical response 
capability--one focused on providing coordinated law enforcement 
services and support to regions severely impacted by natural disasters 
or terrorist attacks.
    Like the fire service and the emergency management community as a 
whole, law enforcement rallied to provide our brothers in need with 
help regardless of the catastrophe. Dozens of police departments from 
around the country sent teams of officers and response equipment to 
Louisiana and Mississippi immediately following Katrina and Rita. 
Police were needed to maintain stability and to fulfill requests from 
search and rescue and fire teams for law enforcement escorts due to 
unrest in the most impacted areas. Upon arriving in the region, 
officers quickly discovered that almost all ability to provide basic 
public safety support was destroyed. Response capabilities were 
severely impacted and the ability to maintain basic law and order was 
compromised. Departments continued to send support in an ad hoc and 
uncoordinated fashion without any central coordinating entity, 
indentified an needs skills, documentation, liability considerations, 
reimbursement and sustainment. Mission tasking and areas of 
responsibilities were often unclear. Skill sets and equipment 
graciously sent did not always meet the on the need on the ground. 
Incident commanders were left with a patchwork of personnel and 
equipment, often with varying capabilities and training and not knowing 
how long they will be available.
    For weeks and months after the storm, local law enforcement 
agencies in the impacted areas struggled to maintain command and 
control. As response turned to recovery, local agencies continued to 
need support to provide essential public safety services, such as 
neighborhood patrols, crowd control, and custody operations. Advanced 
law enforcement capabilities were also lacking, including 
investigative, correctional, special weapons and tactics (SWAT) teams 
and bomb squads. As time progressed deployed personnel began to suffer 
from fatigue and stress from the harsh environment. Equipment began to 
fail and basic supplies needed to be refreshed. However, there was no 
formal mechanism to manage the deployment of resources over the entire 
period of the operation whether it was one week or one year.
    Hurricanes Katrina and Rita demonstrated a critical gap in our 
nation's law enforcement response and sustainment capability. 
Collectively, the nation's local law enforcement agencies recognized we 
had a responsibility to address the void.
    With the support of the Department of Homeland Security, namely the 
Federal Emergency Management Agency, an executive workshop was conduct 
in August 2007 to develop a general framework for a nationally 
deployable law enforcement response capability. Hosted by Sheriff 
Douglas Gillespie from the Las Vegas Metropolitan Police Department, 
members from the Major Cities Chiefs Association, Major County 
Sheriffs' Association and the National Sheriff's Association were 
joined by senior officials from DHS, the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives (ATF), and the Federal Bureau of Investigation 
(FBI). Mr. Bourne was one of the participants and we appreciate his 
contribution and ongoing support.
    The goal of the workshop was to discuss the concept of rapidly 
deployable teams of law enforcement officers capable of providing 
incident commanders with immediate and continual support in the wake of 
natural or man-made incidents. Coined Law Enforcement Deployment Teams 
(LEDTs), these teams would provide professional law enforcement 
resources to ensure the Nation's civil well-being in an all hazards 
environment.
    The concept of having mobile teams of first responders is not new. 
The LEDT concept was inspired by the Urban Search and Rescue (US&R) 
program and the Disaster Medical Assistance Teams (DMAT). Both of these 
programs are comprised of teams of professional first responder that 
have received standardized training and supported by strategically 
placed caches of equipment. However, there is no law enforcement 
equivalent although the need and desire are clear.
    Participants in the workshop developed a documented framework for 
the implementation of a national LEDTs program, to include the 
following:
        <bullet> The program would be all-hazards--not just for 
        disasters. LEDTs could be deployed for a hurricane, terrorist 
        attack, or a special event where there is a credible or 
        preserved threat.
        <bullet> The program would be regional and consistent with the 
        10 FEMA regions, but not under the control of FEMA or DHS 
        directly.
        <bullet> Each LEDT would be scalable and comprised of no more 
        than 500 state and local personnel, none of which would be 
        Federal law enforcement.
        <bullet> LEDTs would report to the local Incident Commander, 
        consistent with the National Incident Management System and the 
        Incident Command Structure.
        <bullet> Teams would provide essential law enforcement support 
        (e.g. patrol and crowd control) but also have the capability to 
        provide advanced and specialized skills (e.g. SWAT).
        <bullet> Each team would include related emergency support 
        personnel capabilities such as emergency medical technicians, 
        mental health specialist, and logistics support.
        <bullet> Teams would be comprised of modular components, 
        enabling individual components to be deployed.
        <bullet> LEDTs would arrive at the disaster site with all 
        necessary equipment as identified by the incident commander in 
        concert with advance team recommendations--supplied by regional 
        equipment caches that included standardized stock of law 
        enforcement specific response equipment.
        <bullet> A national database of LEDT capabilities would assist 
        in the deployment of team and would also track equipment and 
        training--allowing capability gaps to be identified and 
        rectified.
        <bullet> Existing caches of equipment could be leveraged and 
        expanded to include law enforcement specific equipment.
        <bullet> DHS programs that are currently supporting the 
        establishment of interoperable communications and the 
        distribution of response equipment, like the Commercial 
        Equipment Direct Assistance Program (CEDAP). CEDAP is designed 
        to ``fill the gaps'' in equipment among responders. Because 
        CEDAP is not a grant, the local agencies receive their 
        equipment directly from the federal government saving time and 
        money. In the event of a regional response, interoperability of 
        the CEDAP equipment will be an important aspect of mutual aid. 
        We strongly support this easy to use Federal program and hope 
        that Congress will increase its funding so that smaller 
        agencies will be able to contribute to a mutual aid response.
        <bullet> Partnership with the private sector would be brokered 
        so that the LEDT program could leverage their extensive 
        logistics and supply networks.
        <bullet> FEMA's resource typing and identification effort would 
        be leveraged in developing standard capabilities and equipment 
        requirements.
        <bullet> Each LEDT would be self-sufficient, capable of 
        sustained operations for no more than 14 days. The general 
        consensus was that longer deployments would create prolonged 
        stress for team members.
        <bullet> Additional deployments would continue to be tailored 
        to the change conditions on the ground as defined by the local 
        incident commander.
        <bullet> LEDTs would display uniform identification that is 
        recognized by all authorities.
        <bullet> Standardized credentials and certification in 
        appropriate training and exercises would ensure that team 
        members are interoperable.
        <bullet> Policies and procedures for the LEDTs would leverage 
        similar programs to the greatest extent possible and draw upon 
        best practices nation-wide.
        <bullet> The Emergency Management Assistance Compact (EMAC) 
        would be used, including the recently adopted Law Enforcement 
        Checklist. This provides a standardized request methodology 
        that most local agencies are familiar. The LEDT program in use 
        of EMAC is not looking to supersede existing intra-state mutual 
        aide agreement, rather proving standardization for inter-state 
        agreements.
    The end product of the workshop is a report that identifies 
significant issues and law enforcement recommendations on how to 
structure a national LEDT program. This report represents the consensus 
of the nation's largest law enforcement agencies. It is currently being 
reviewed by FEMA and will be present it to this committee once 
finalized.
    Yet to be resolved and defined in further detail are issues 
relating to liability, authority, reimbursement/funding and 
deputization. Major Cities Chiefs are opposed to federal deputization 
based on the limiting ability to enforce state and local laws and 
integrate within the jurisdiction of need. Congress should consider 
expanding or modifying the Stafford Act so that LEDTs related 
activities and equipment are recovered. As funding options are 
considered, the Chiefs and Sheriffs strongly encourage the 
implementation of a new funding source specifically for LEDTs and that 
existing grant programs are not supplanted.
    This, however, is just the first step in the process. Law 
enforcement looks forward to working with DHS and the other Federal 
partners as the LEDT concept continues to be developed. As the 
committee members know, the 9/11 Commission Act of 2007 established the 
Office for State and Local Law Enforcement within DHS and calls on this 
new office to study the issue further. We look forward to collaborating 
with this office and other federal agencies.
    Thank you for allowing me to speak on this important issue.

    Mr. Cuellar. At this time I will recognize Mr. McPartlon to 
summarize your statement for 5 minutes.

STATEMENT OF JIM MCPARTLON, III, PRESIDENT, AMERICAN AMBULANCE 
                          ASSOCIATION

    Mr. McPartlon. I greatly appreciate the opportunity to 
speak before you today. My name is Jim McPartlon, and I 
currently serve as the president of the American Ambulance 
Association. I started my career in emergency medical services 
30 years ago as an EMT, and today I am the vice president of 
Mohawk Ambulance Service, providing services in Albany, 
Schenectady and Troy, New York.
    AAA is the primary trade association, composed of more than 
700 ambulance services with members in every State, 
transporting over 6 million patients a year. AAA members 
include private, public, fire and hospital-based providers.
    The immediate response to a natural or man-made disaster 
involves many local public safety, public health and health 
care organizations. As first responders, America's ambulance 
service providers are an essential resource and perform vital 
services as part of each community's emergency response system. 
This was abundantly clear during the response to Hurricanes 
Katrina and Rita in which over 500 ambulances and thousands of 
EMTs and paramedics assisted patients in need.
    While great strides have been made to leverage mutual aid 
for emergency response, improvements are still required to more 
effectively use ambulance services. Ambulance services are a 
mix of governmental and nongovernmental providers, serving 
alongside our fire and law enforcement colleagues, and are a 
critical part of the emergency response system; however, 
nongovernmental ambulance service providers often face 
difficulty in being properly included in the preparation and 
response to catastrophic events.
    To ensure that all ambulance service providers can be 
effectively utilized under mutual aid for emergency response, I 
recommend to the committee the following: Ensure that adequate 
Federal homeland security funding is available to governmental 
and nongovernmental ambulance service providers; further 
integrate all ambulance service providers into local, State, 
Federal planning and exercises, and require that 
nongovernmental ambulance service providers be included under 
appropriate mutual aid agreements such as EMAC's; strengthen 
interstate or intrastate mutual aid as an essential component 
of the National Response Framework; and lastly, increase access 
for all ambulance service providers to funding for emergency 
communications and equipment systems.
    In 2005 and in 2006, DHS reported that emergency medical 
service providers received only 4 percent of the Homeland 
Security funding. This level of funding is incredibly 
inadequate to properly train and equip paramedics and exposes 
frontline emergency health care workers to further risk when 
responding to a disaster.
    The recent TOPOFF 4 exercise in Phoenix illustrates the 
need for improved integration and coordination of 
nongovernmental providers. While nongovernmental ambulance 
service providers played an extremely important role in the 
exercise, they were isolated from fellow governmental first 
responders and placed in the private sector operation center, 
which in this case happened to be in the middle of the 
radioactive plume from the dirty bomb. This removed ambulance 
officials from direct interaction with managers of the 
emergency response and delayed situational awareness and 
response by the ambulance personnel.
    Shifting to EMAC, although it is an efficient way to 
mobilize interstate mutual aid, challenges still exist with the 
development and deployment of the system. Only 17 States have 
arranged to utilize private-sector resources to fulfill EMAC 
requests. Almost two-thirds of the States do not allow the 
inclusion and the deployment under EMAC of nongovernmental 
ambulance service providers, which constitute the majority of 
available ambulances and personnel. Interstate mutual aid plans 
need to be strengthened so local communities can reach out to 
their State when in need and so States will have the resources 
organized for sending to neighboring States when requested 
through EMAC.
    The bridge collapse in Minneapolis demonstrated how a 
strong intrastate mutual aid system can work. Immediately after 
the collapse, mutual aid from the seven closest counties 
responded, and within 2 hours all patients were transported to 
the necessary medical facility. Without a well coordinated and 
robust mutual aid system, patient treatment and transport would 
have been delayed.
    To ensure that all ambulance service providers can 
communicate during an incident, nongovernmental providers must 
be eligible for grants and involved in the communications 
interoperability planning activities. Additional spectrum and 
systems must be made available to both government and 
nongovernmental providers.
    In conclusion, to ensure the effective involvement of all 
ambulance service providers and mutual aid for emergency 
response, there needs to be more Homeland Security funding 
directed towards emergency medical services and better 
integration of nongovernmental providers.
    I again thank Chairman Cuellar, Ranking Member Dent and 
members of the subcommittee for the opportunity to testify 
today. I would be happy to answer any questions at the 
appropriate time.
    Mr. Cuellar. Thank you for your testimony.
    [The statement of Mr. McPartlon follows:]

             Prepared Statement of James P. McPartlon, III

I. Introduction
    Chairman Cuellar, Ranking Member Dent and members of the 
Subcommittee on Emergency Communications, Preparedness, and Response, I 
greatly appreciate the opportunity to speak before you today. My name 
is Jim McPartlon and I currently serve as the President of the American 
Ambulance Association (AAA). I started in the emergency medical 
services (EMS) sector as an EMT 30 years ago and today I am the Vice 
President of Mohawk Ambulance Service which provides emergency and non-
emergency ambulance services to the cities of Albany, Schenectady and 
Troy, New York and the surrounding areas.
    The AAA is the primary trade association representing ambulance 
service providers that participate in serving communities with 
emergency and non-emergency ambulance services. The AAA is composed of 
more than 700 ambulance operations and has members in every state; 
transporting over 6 million patients every year. AAA members include 
private, public and fire and hospital-based providers covering urban 
and rural areas. The AAA was formed in response to the need for 
improvements in pre-hospital healthcare and medical transportation.
    It is in my elected role as President of the AAA that I appear 
before you today, to provide the perspective of the Association 
regarding ``Leveraging Mutual Aid for Effective Emergency Response.''

II. Recommendations for More Effective Use of Ambulance Services
    While great strides have been made over the years to better 
leverage mutual aid for emergency response, improvements are still 
required to more effectively use ambulance services. Ambulance services 
are a mix of governmental and nongovernmental providers which serve 
alongside our fire and law enforcement colleagues and are a critical 
part of the emergency response system. Our operations are comprised of 
paramedics, emergency medical technicians and other emergency medical 
service professionals. However, ambulance service providers, in 
particular nongovernmental, often face difficulty in being properly 
included in the preparing and response to catastrophic events.
    To ensure that all ambulance service providers can be effectively 
utilized under mutual aid for emergency response, I recommend to the 
Committee the following:
        1. Ensure that adequate federal homeland security funding is 
        available to governmental and nongovernmental ambulance service 
        providers for personal protective equipment, training and other 
        resources necessary to support critical public safety missions.
        2. Further integrate governmental and nongovernmental ambulance 
        service providers into local, state and federal planning and 
        exercises and require that nongovernmental ambulance service 
        providers be included under appropriate mutual aid agreements 
        such as Emergency Management Agreement Compacts (EMACs);
        3. Strengthen intrastate mutual aid as an essential component 
        of the National Response Framework capability; and,
        4. Increase access for governmental and nongovernmental 
        ambulance service providers to funding for emergency 
        communications equipment and systems in order to ensure that 
        our systems achieve interoperability with other first 
        responders.

III. Role of Ambulance Service Providers as First Responders
    The immediate response to a catastrophic disaster, act of terrorism 
or other public health emergency involves many local public safety, 
public health and health care organizations. As first responders, 
America's ambulance service providers are an essential resource and 
perform vital services as part of each community's emergency response 
system. This was abundantly clear during the response to Hurricanes 
Katrina and Rita in which over five hundred ambulances comprised of 
paramedics and emergency medical technicians from around the country, 
assisted patients in need and local agencies in their response to the 
catastrophic events along the gulf coast.
    During the response to a natural or man-made disaster, the role of 
an ambulance service provider includes patient care and triage, 
decontamination, treatment, and transport. Their role also includes 
hazard recognition, symptom surveillance and reporting, disaster 
shelter staffing and re-supply, on-scene medical stand-by, and 
transport and redistribution of patients to better utilize available 
receiving hospital resources. Many agencies have begun developing 
``strike teams'' or ``disaster response teams'' to effect rapid 
deployment in support of local, state and federal resources.
    America's 9-1-1 ambulance service providers are a diverse group of 
public, private, hospital and volunteer-based services. Indeed, many 
stories of heroism and sacrifice include representatives from all these 
agencies as they have responded to natural and man-made disasters.
    During a catastrophic disaster, local ambulance services providing 
emergency medical services are an essential resource and a vital part 
of the emergency response system. In a review of the nation's largest 
200 cities, including those most vulnerable to attack, emergency 
ambulance services are provided by private, public, volunteer, and 
hospital-based agencies. Experience has shown that non-emergency as 
well as emergency ambulance service providers often serve as ``first 
responders'' by dedicating essential vehicle and personnel resources 
within the first hours of a disaster.

IV. Importance of Private-Public Partnerships
    Unlike fire and police, the private sector is a major provider of 
emergency and non-emergency ambulance services across the nation. While 
the emergency medical service system design varies greatly, in almost 
all cases there is participation by both public and private entities. 
For this reason, it is critical that a strong partnership exist between 
government and nongovernmental first responders and those who manage 
the total emergency response system. Furthermore, the successful 
management of any emergency response is directly related to the 
coordination of all assets being deployed.
    The recent TOPOFF 4 exercise in Phoenix illustrates the need for 
improved integration and overall system response coordination of 
nongovernmental providers. While nongovernmental ambulance service 
providers played an extremely important role in the exercise, providers 
were placed in the private sector operations center and separated from 
their fellow governmental first responders and emergency health care 
workers. This removed ambulance officials from direct interaction with 
managers of the emergency response system and delayed situational 
awareness and response by the ambulance officials. It is ironic that 
the private sector operations center was located in the direct path of 
the radioactive debris plume from the dirty bomb. Those responsible for 
mobilizing the front line of the emergency medical response would be 
therefore incapacitated from directing critical care to victims as well 
as other first responders.

V. Current Challenges with Mutual Aid
    The National Response Framework recognizes that all disasters are 
local; therefore the response must begin with the utilization of the 
closest available units i.e. the local response. As the disaster (or 
preparation for the disaster) becomes larger in scale, the greater the 
need is for an expanded response, beginning with neighboring 
communities, neighboring states and finally a federal response. Because 
a majority of disasters are smaller in scale, attention needs to be 
paid on building local, state and interstate mutual aid systems 
allowing the closest resources to mobilize and respond.
    Although EMAC is an efficient way to mobilize interstate mutual 
aid, challenges still exist to the development and deployment of the 
system. Each state develops a unique mutual aid agreement and there are 
few standards and procedures that exist across the nation. For example, 
only 17 states have arranged to utilize private sector resources to 
fulfill EMAC requests. Almost two-thirds of states do not allow the 
inclusion and deployment under EMAC of nongovernmental ambulance 
service providers which constitute the majority of available ambulances 
and personnel. Not including nongovernmental providers under EMAC means 
that resources from further away will need to be deployed wasting 
precious time. When nongovernmental ambulance resources are used, many 
providers report significant delays in getting reimbursed for their 
costs and many states reimburse below cost. Finally, coordination 
between the Federal response and the state response is often lacking, 
with services being deployed to the same location and state EMS 
coordinating officers unaware of unit availability and location.
    The bridge collapse in Minneapolis, Minnesota on August 1, 2007 
demonstrated how a strong interstate mutual aid system can work. During 
rush hour the main spans of the I-35 Bridge collapsed, killing thirteen 
and injuring one hundred. Immediately after the collapse, mutual aid 
from the seven closest counties responded and within two hours all 
patients were transported to local hospitals and trauma centers for 
treatment. Without a well-coordinated and robust mutual aid system; 
patient treatment and transport would have been delayed and additional 
loss of lives possible. Every citizen, in every city and county in the 
U.S. deserves the quickest and best possible pre-hospital healthcare 
and a strong Mutual Aid system is one of the ways to insure it.

VI. Further Detail on Recommendations
    1. Ensure adequate federal homeland security funding is available 
to governmental and nongovernmental ambulance service providers for 
personal protective equipment, training and other resources necessary 
to support their critical public safety missions.
    Many ambulance service personnel that responded to major incidents 
mentioned in this testimony continue to lack the appropriate personal 
protective equipment necessary for the environments in which they would 
be operating in including hazardous scenes and toxic floodwaters. This 
is a direct result of the lack of federal and state homeland security 
funding for ambulance service providers. In 2005 and 2006, the 
Department of Homeland Security reported that emergency medical service 
providers received only 4% of the homeland security funding distributed 
to first responders.
    To provide an effective response and to protect the health and 
safety of our personnel, all medics, including those who have the 
potential to respond in a mutual aid capacity, must be protected. 
Personnel must have access to and must be trained on the appropriate 
procedures for use of personal protective equipment that may include 
tyvec suits, gloves, masks, rescue helmets, bunker gear and bio-hazard 
storage and disposal equipment. Procedures must be developed to assure 
access to vaccines and antidotes when necessary. In order for on scene 
personnel to be effective in the incident command structure, these on 
scene resources are essential. Ambulance logistics such as refueling, 
repair and restocking are important considerations as well.

    2. Further integrate governmental and nongovernmental ambulance 
service providers into local, state and federal planning and exercises 
and require that nongovernmental ambulance service providers be 
included under appropriate mutual aid agreements such as Emergency 
Management Agreement Contracts (EMACs).
    Ambulance service providers operate at the intersection of the 
public health, public safety and health care fields, and there is great 
diversity in the types of providers delivering ambulance services and 
the designs of those delivery systems. This diversity contributes to 
the fact that many ambulance services are sometimes excluded from local 
and state emergency preparedness and response activities. Furthermore, 
there are compliance issues associated with the general requirements of 
FEMA to obtain mutual aid agreements prior to an event in order to be 
eligible for Stafford Act Public Assistance federal disaster 
reimbursement. Ambulance service providers are not even listed as 
emergency work under the Stafford Act and thus providers face barriers 
in being eligible for reimbursement. Ambulance providers respond to 
mutual aid requests from long distances--including neighboring cities, 
counties and even states. It is difficult for a local ambulance 
provider to secure prior mutual aid agreements with every local 
community that may request services in the future.
    3. Strengthen intrastate mutual aid as an essential component of 
the National Response Framework capability.
    Intrastate mutual aid plans need to be strengthened so local 
communities can reach out to their state when in need of help and so 
states will have resources organized for sending to neighboring states 
when requested through EMAC. As recent catastrophes have demonstrated, 
governmental and nongovernmental ambulance service providers are an 
essential asset in the evacuation, response and recovery phases of a 
national disaster. Governmental and nongovernmental ambulance service 
providers must be fully integrated in the planning, training and 
exercise activities at the local, state and federal level. State and 
local EMS officials need to work hand in hand with state and local 
emergency management officials as well as with their colleagues in the 
fire service and law enforcement. Practical and integrated systems must 
be instituted to inventory disaster response assets state by state to 
streamline and document all mutual aid requests for assistance. As 
local, regional and state mutual aid plans are strengthened and 
broadened, the planning process should formalize mutual aid agreements 
with all potential responders and service providers.

    4. Increase access for governmental and nongovernmental ambulance 
service providers to funding for emergency communications equipment and 
systems in order to ensure that our systems achieve interoperability 
with other first responders.
    Based on a recent AAA membership survey, AAA members have reported 
that communications systems and equipment remain a significant 
operational need. In many communities, ambulance service providers also 
face challenges obtaining access to radio frequencies. During recent 
incidents of major consequence, AAA members experienced serious gaps in 
maintaining communications with incident command authorities.
    To ensure that all ambulance service providers can communicate 
without problem during an incident, two objectives must be met. First, 
governmental and nongovernmental ambulance service providers must be 
eligible for grants to assure communications systems support our 
critical public safety mission. Second, additional spectrum and systems 
must be made available to government and non-government emergency 
medical service providers and providers must be involved in the 
communications interoperability planning activities at the local, 
state, regional and national level. Studies clearly show the lack of a 
compatible spectrum as well as a spectrum that is actually available to 
local emergency responders, including ambulance service providers. Only 
then will ambulance services providers be able to work efficiently with 
incident command and other first responders.

VII. Conclusion
    In conclusion, ambulance service providers stand ready with our 
fire and law enforcement colleagues to assist in responding to future 
catastrophic events. As demonstrated in the response to Hurricanes 
Katrina and Rita and more recently with the bridge collapse in 
Minnesota, governmental and non-governmental ambulance service 
providers are a critical component of the state, local and the national 
response to catastrophic events. In these types of situations, all 
ambulance service providers, regardless of provider type or whether the 
units are emergency or non-emergency, become potential first 
responders.
    To assure the effective involvement of ambulance service providers 
in mutual aid for emergency response, the following guiding principles 
should apply:
        <bullet> Establish funding mechanisms to support and maintain 
        the essential capabilities of all ambulance service providers;
        <bullet> Require that all states include private ambulance 
        service providers in their Emergency Management Agreement 
        Contracts; and,
        <bullet> Ensure access for ambulance service providers to 
        interoperability communications equipment and systems.
    I again thank Chairman Cuellar, Ranking Member Dent and members of 
the Subcommittee on Emergency Communications, Preparedness, and 
Response for the opportunity to testify on this important issue.
    I will be more than happy at the appropriate time to answer 
questions that Subcommittee members have for me.
    Thank you.
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                           Consensus Report:

         EMAC and EMS Resources for National Disaster Response

    from the June 20, 2007 EMS Stakeholders Meeting in Arlington, VA

On June 20, 2007, the National Association of State Emergency Medical 
Services Officials (NASEMSO) and the American Ambulance Association 
(AAA) held a summit to discuss the use of emergency medical services 
(EMS) resources during a disaster of national significance. In 
attendance were various EMS, fire and emergency management national 
organizations. In addition, the Federal agencies that participated 
included:
Department of Homeland Security (DHS) Office of Health Affairs, 
Department of Health and Human Services (HHS) Office of the Assistant 
Secretary for Preparedness and Response, Federal Emergency Management 
Agency (FEMA), and the National Highway Traffic Safety Administration 
(NHTSA) Office of EMS.

After a round table discussion of lessons learned from the response to 
Hurricanes Katrina and Rita and status updates of EMS response 
capabilities to incidents of national significance, the assembled 
stakeholders identified the desired state for EMS national disaster 
response captured by `` 6 C's'' which enable a robust national response 
while not disrupting local emergency response capacity:

                Coordination

                Cooperation

                Communication

                Common Standards

                Continued Operations

                Commitment

Coordination
By working together and sharing information a coordinated response 
maximizes resources while eliminating duplicate resource requests and 
response. Planning and response is seamless across jurisdictions and 
disciplines, involving integration of government and non-governmental 
service providers horizontally and vertically. State/territorial EMS 
Offices, local EMS Officials and providers must be involved in the 
planning process to ensure proper funding support for EMS through 
Federal preparedness grants. Additionally, there must be a plan 
developed that accounts for the multi-jurisdictional pre-hospital 
response to a catastrophic incident that considers mutual aid 
agreements and associated equipment, staff, command and control and non 
traditional patient movement and transfers. This coordinated process is 
transparent and there is no competition for the same resources. The 
National Response Framework (NRF) and the National Incident Management 
System (NIMS), including the Incident Command System (ICS), form the 
foundation and the operational guidelines for the coordinated response 
as disasters are handled first locally with the support of interstate 
mutual aid (time to execute recall mutual aid agreements with state and 
local partners) and Federal resources as they are needed and/or 
requested.

Cooperation
Planning is key to cooperation so that State and Federal resources are 
complimentary to the local efforts. States, through the Emergency 
Management Assistance Compact (EMAC), organize resources that include 
government and non-governmental resources. Planning for critical 
infrastructure (e.g. hospitals) support is incorporated in the overall 
resource response plan. Federal disaster assets are organized as backup 
and supplement local or EMAC resources when they are unable to meet the 
need. States work together and exercise their EMAC agreements from the 
receiving and sending position. Professional personnel credentialing, 
both civil and criminal liability are key issues that remain to be 
solved. Provider scope of practice and protocol differences highlights 
the difficulties in coordinating healthcare personnel resources 
throughout the EMAC system.

Communication
Communication is the sharing and understanding of information between 
people/responders and their organizations. Open lines of communication 
exist between all entities involved in disaster response in the pre-
disaster phases of planning and exercising. This includes communication 
across jurisdictions and disciplines. Additionally, leadership of 
stakeholder organizations promoting the 6 C's of EMS Resources of 
national disaster response through their organizations. In the 
operational mode, communications rely on advanced technologies, 
including back up systems, with the following features:
        <bullet> Interoperability using broadband and various gateways
        <bullet> Redundancy
        <bullet> Common data dictionary
        <bullet> AVL/GPS/GIS
        <bullet> Resource tracking of availability, utilization and 
        accountability

Common Standards
In order to properly coordinate, cooperate and communicate, there are 
common agreed upon standards that all participating organizations 
utilize including:
        <bullet> Data Dictionary-National EMS Information System 
        (NEMSIS) Compliant
        <bullet> NIMS credentialing and national EMS certification NIMS 
        Resource typing
        <bullet> Disaster clinical protocols based on a single national 
        EMS scope of practice model
        <bullet> Self sufficiency
        <bullet> Accountability
        <bullet> Equipment, supplies and PPE
        <bullet> Conduct of personnel
        <bullet> Standardize Disaster Plans

Continued Operations
Disasters of national significance may require weeks and months of 
continued operations. There must be systems in place in order for all 
EMS resources to be used across jurisdiction, both intrastate and 
interstate, using the National Incident Management System (NIMS) 
(Res.C1a 1.3.2). In order to sustain operations in the disaster area as 
well as local emergency response in unaffected areas, the following 
components help maintain national EMS disaster response at an effective 
and efficient level:
        <bullet> Sent resources are self sufficient for a minimum of 72 
        hours. There is no competition for resources or duplication of 
        requests
        <bullet> Resource response is measured and in waves
        <bullet> Regular but flexible resource (personnel and 
        equipment) replacement schedules are utilized
        <bullet> Mission determines resource need
        <bullet> Logistical support is planned and resourced adequately

Commitment
Coordination, cooperation, communication, common standards and 
continued operations are achieved by the commitment of all involved 
partners. All stakeholders are at the planning table and committed to 
achieving consensus. Local, tribal, territorial, State and Federal EMS 
leaders are integrated at every level with Emergency Management leaders 
and with the Federal agencies responsible for disaster preparedness and 
response. There are no barriers to participation of any stakeholder 
agency or organization.

Current Issues
Against this vision of effective national EMS disaster response, the 
EMS and EM stakeholders identified various areas where improvement is 
necessary to achieve our maximum effectiveness. Those issues are:

        <bullet> Coordination and outright competition between states 
        and EMAC and Federal ambulance and shelter contractors, and 
        hospital systems
        <bullet> Clarity about the Federal support of EMAC as the 
        primary way to provide state resources to a disaster leading to 
        multiple pools of resources
        <bullet> Assess, categorize and track health and medical 
        resources at the state, regional and local levels including but 
        not limited to trauma centers, burn centers, pediatric 
        facilities, acute care facilities and other specialty 
        facilities (Res. C1a 1.1)
        <bullet> Due to the current capabilities of our EMS system in 
        meeting the day-to-day operations, a plan needs to be 
        identified for surge capacity at local and state levels.
        <bullet> A method to prevent over taxing local resources thus 
        degrading local emergencyoperations in areas outside of the 
        disaster zone
        <bullet> Coordination of resource requests from neighboring 
        states at the same time those states are receiving evacuees
        <bullet> Standardized credentialing and uniform clinical 
        protocols
        <bullet> Uniformity and interpretation in how states prepare 
        for and respond to EMAC requests
        <bullet> Inclusion of State/territorial EMS Offices, local EMS 
        Officials and providers in planning and preparedness activities
        <bullet> Identification of EMS as a priority in grant guidance
        <bullet> Air medical resources should be a part of the local, 
        regional and national ICS operations
        <bullet> Deployment lengths are problematic for physicians, 
        paid personnel, volunteers and their families
        <bullet> Self sufficiency needs to be fully explained so that 
        it is understood and practiceduniformly
        <bullet> Requests should be based on mission rather than 
        resource
        <bullet> Some states do not incorporate nongovernmental 
        resources in their EMAC resource plan
        <bullet> Preplanning needs to be the foundation for all 
        disaster response not waiting for sequential failure as the 
        trigger for additional resources
        <bullet> Need to clarify reimbursement through the EMAC process
        <bullet> Assure that there is an understanding that 
        reimbursement through the EMAC process is between requesting 
        and assisting states
        <bullet> EMAC reimbursements are slow and cumbersome relying on 
        the receiving state to get funded then reimburse the sending 
        states

Action Items
1. Support the current initiative spearheaded by DHS-OHA, HHS-ASPR and 
FEMA to develop a single pool of resources and a single resource 
ordering system accessible by states and the Federal government using 
NIMS resourced and credentialed EMS resources with standardized 
reimbursement rates.
2. Support the initiative that all state EMS assets are coordinated by 
the lead state EMS office
3. NASEMSO, NEMA and EMAC leadership summit to get state EMS officials 
fully engaged in the EMAC process.
4. Distribute this consensus document to all stakeholders and Federal 
partners.
5. Collaborate with the ongoing IAFC interstate and intrastate mutual 
aid project.
6. Support the Federal Interagency Committee on EMS (FICEMS) Technical 
Working Group (TWG) Preparedness Committee.
7. Support the identification and inclusion of EMS priorities in 
preparedness grant guidance.
8. State/territorial EMS Offices need to be actively engaged in 
planning and preparedness activities.
9. Re-convene this stakeholders group in early 2008 to further develop 
and implement the vision and action plan.

Contact
For more information on this consensus report on EMS resources in 
national disaster response, contact NASEMSO Program Advisor Leslee 
Stein-Spencer, LesleeSS<SUP>@</SUP>aol.com.

Consensus Report Approved by:

American Ambulance Association
American College of Emergency Physicians
Association of Air Medical Services
International Association of Emergency Managers
National Association of EMS Physicians
National Association of Emergency Medical Technicians
National Association of State EMS Officials
National EMS Management Association
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Cuellar. And at this time I thank all the witnesses for 
their testimony.
    Members, as you know, we now have an opportunity to ask the 
witnesses questions. I will remind each Member that he or she 
will have 5 minutes each for questions. I will now recognize 
myself for questions.
    Mr. Bourne, talk to me a little about the Canadian fire 
truck that was responding to a U.S. call that was held up at 
the border I think it was for about 8 minutes. What can we do 
to expedite that next time?
    Mr. Bourne. I just learned about that just prior to the 
hearing, Mr. Chairman, and it is certainly something we will 
look into. It seems to me that there needs to be an 
accommodation or a plan put in place with our partners at CBP 
in order to facilitate that type of mutual aid activity. I 
don't know the specifics of that incident. We will be certainly 
looking into it.
    One of the things that we have done in recent months is 
increased our planning with CBP on cross-border types of 
incidents. Much of that work began in earnest with the run-up 
to Hurricane Dean, especially along the southern border. 
Obviously on the northern border, our regional offices have 
been engaged with our Canadian counterparts on mutual aid 
efforts that are taking place every day.
    That particular issue we will have to address directly with 
CBP and see if we can't come up with a resolution to it which 
talks about a protocol for who communicates to who that these 
assets are coming to the border from whichever direction and 
facilitating them through the border as quickly as possible. 
And we will get back to you with an answer to the specifics on 
that.
    Mr. Cuellar. I ask you to do that. Could you tell us how 
you intend to do that both at the northern and southern border 
also, and again work with the committee?
    Mr. Bourne. We will do that, sir.
    Mr. Cuellar. Okay. Thank you.
    Mr. Cuellar. Let me ask, I guess, both Chief Westermann and 
Mr. McPartlon on this issue. Both of you discussed the problems 
of your members facing reimbursements through EMAC or the 
Federal reimbursement system that provides assistance through a 
disaster. There is a time lag on that. And if I can have both 
of you, first the Chief and then Mr. McPartlon, if you can give 
us any suggestions on how we can help fix the system to 
expedite the system.
    So, Chief.
    Chief Westermann. I think one of the first things--and Mr. 
Murphy referred to it in his comments by hiring a training 
person. I think one of the first things is a lack of knowledge 
on fire service, it has also been mentioned by law enforcement, 
on the paperwork and exactly what the process is. And with that 
training person, that will help a lot.
    In the California fires, several fire chiefs I talked with, 
several of the departments, because of the long reimbursement 
time frame, requested not to go through EMAC. On a wildfire 
they had the option of going through the National Forest 
Service in Boise, Idaho, and they went through that process, 
and their reimbursement is much quicker. So hope that we can 
compare those two systems and see why that system is a little 
bit quicker in reimbursement. In the EMAC process, it's more--
unless there is money coming from FEMA to the State which is 
having the disaster and then disbursing it to the locals. So 
that process needs to be looked at.
    Mr. Cuellar. Okay. Very good.
    Mr. McPartlon. Our biggest challenge has to deal more with 
the inclusion of nongovernmental providers in the EMAC program. 
As I said, 17 States allow participation by nongovernmental 
providers. The balance of the States do not. It is an 
interpretative issue based on either State laws that are either 
silent on the issue or strictly prohibit the participation. 
Additionally, I don't think the States have figured out how to 
make nongovernment assets stay assets. So we need to continue 
to work on that.
    As far as providing assistance in that regard, I think it 
would be beneficial if we could ask our friends at FEMA to 
facilitate communication with the States that don't allow 
nongovernmental providers to participate in EMAC.
    Mr. Cuellar. Okay. Could I have both of you provide some 
written suggestions on how we could address this again to our 
committee staff?
    Mr. McPartlon. Absolutely.
    Chief Westermann. I would be happy to.
    Mr. Cuellar. Let me just ask one question and make sure I 
keep within the time. Mr. Murphy, in your testimony you were 
talking about the framework, you know, to make sure that we 
effectively manage resources from all levels of government; 
make sure that it is defined community, county, State and 
Federal response plans. To what extent do you believe that the 
draft National Response Framework addresses resource 
management?
    Mr. Murphy. Chairman Cuellar, I think it addresses it, and 
I think it gets into the more specifics in some of the 
appendixes or annexes that are not in, you know, the initial 
framework, although that does talk about it, I think, in what I 
remember reading. And what we are trying to do, and I think we 
can still work on this, is making sure, you know, part of this 
whole process of mutual aid is really to make better use of our 
resources and our tax dollars and, you know, to try and really 
make sure that everybody has the right resources in the right 
place, and that includes what you might be able to share, you 
know, through this EMAC or any type of interstate mutual aid 
also.
    But I think it is something--and I know we have worked with 
FEMA and the comments and the National Response Framework, you 
know, emphasizing that, and maybe we need to even make this 
stronger, because I think, as Chief Westermann said, you know, 
there is a continuing education process, I think, not only 
under EMAC, but interstate mutual aid programs, making sure 
that we have accounted for as many people and as many resources 
so that we really can take advantage of this to help people 
when a disaster strikes.
    Mr. Cuellar. Okay. Thank you.
    At this time I will recognize the Ranking Member of the 
subcommittee, the gentleman from Pennsylvania, Mr. Dent for 
questions.
    Mr. Dent. Thank you, Mr. Chairman.
    I just wanted to follow up with Mr. McPartlon on the issue 
that the Chairman just raised with respect to the various 
ambulance service providers often finding themselves excluded 
from consideration in mutual aid agreements. I thought I heard 
you say that part of that reason was because of reimbursement 
issues. Did I understand that correctly?
    Mr. McPartlon. They are not excluded from the reimbursement 
issues. They are excluded from participation.
    Mr. Dent. Because of reimbursement issues? I thought I 
heard that said.
    Mr. McPartlon. Some States just don't recognize the 
inclusion of the nongovernmental providers in those contracts.
    Mr. Dent. Okay. And why is that? Why do you think that is?
    Mr. McPartlon. It is my understanding that State laws are 
either silent on the issue, and the attorney general of that 
particular State has made a determination that they are not to 
be included, or they have a State law that prohibits it.
    Mr. Dent. So, in other words, they could--a mutual aid 
agreement would be fine with a publicly owned entity, but not 
with a service provider?
    Mr. McPartlon. Under the EMAC, under an EMAC.
    Mr. Dent. Have you had any discussions with the Federal 
Government or other national-level organizations such as NEMA 
to raise the awareness of this particular problem? Have you had 
a lot of conversation?
    Mr. McPartlon. We have. Those are in the works. We are also 
working with the State EMS officials to resolve this issue.
    Mr. Dent. I guess the question is, why would the States 
recognize these groups? Are there liability questions? Anybody 
feel free to jump in Marko, if you have any thoughts on this.
    Mr. Bourne. I obviously don't know all the issues that are 
intended in this, but I do believe some of it comes under 
whether or not these ambulance services are under contract to 
local government to perform an emergency service function, 
whether they are, say, the true third-party EMS provider as 
opposed to EMS being provided by a fire department or a 
municipally managed service. And then there are ambulance 
services that provide transport services that are not 
necessarily 9-1-1-dispatched kind of services. Part of it 
becomes when they are not acting under the color of government, 
they are then in many States by law have to be treated under 
procurement laws as a contracted vendor, which complicates it 
for States.
    So that is one of the issues that I know interferes with 
them being directly included automatically when they are 
technically not acting as the emergency responder for that 
local government that is sending them, but instead they are 
acting outside that authority. So that is just one of the 
issues that I know exists.
    Mr. Dent. I know. I guess there are about 17 States that 
include these nongovernmental ambulance service providers as 
being eligible. What are those States doing? Why can those 17 
States allow you to participate under an EMAC request? Does 
anybody have any thoughts or comments on that?
    Mr. Bourne. We are not really sure. We would have to look 
at what the State laws are that are specific to EMAC and the 
involvement. They may have laws on the books that literally 
treat them as governmental entities when they are dispatched 
under EMAC. But my guess is that it probably revolves around 
theirA-that localA-that for-profit ambulance service or 
nonprofit ambulance service's relationship to the municipality 
it is serving and under what--under whose auspices they may be 
responding under.
    Mr. Dent. It sounds like--you are not saying it, but it 
sounds like there is some liability questions here.
    Mr. Bourne. There is. There is also procurement law issues. 
Part of this issue--and this was a hearing that we had with you 
not that long ago when it talks about private-sector 
involvement in emergency response activity. We always have to 
be cognizant of it. At what point do they become a vendor 
selling a service to the government, any government, and how do 
we treat them under procurement law? And so there is a balance 
that has to be understood, especially with entities that are 
not governmental in nature, but are serving a governmental 
purpose.
    Mr. Dent. Finally to you, Mr. Bourne, Marko. What role, if 
any, does FEMA play in the development and administration of an 
intra-state mutual aid agreement? I am not just talking about 
for fire companies and for ambulance corps, but I have heard 
about it recently from police departments where there have been 
some issues coming from counterterrorism people. There were 
some--and they were legitimate issues--where some local law 
enforcement could move between counties in my State. What 
role----
    Mr. Bourne. We don't have the authority to regulate that. 
We certainly do have the authority to tell them what to do. But 
what we have provided and continue to provide is model 
agreements that the State legislatures can pass to address 
those issues. EMAC has done that as well.
    Mr. Dent. Could you share that with my office, particularly 
as it relates to police service? I have had some issues 
recently--and I think there is a little bit of frustration, and 
everybody was acting in good faith, but there were some real 
constraints that we felt need to be addressed. If you have 
model legislation, I would really appreciate it if you could 
get that to me and my staff.
    Mr. Bourne. We do. And at the risk of getting out in front 
of our friends in Pennsylvania, I have learned that they have 
actually been working on this issue through both the State fire 
commissioner and PEMA to actually look at these issues. And I 
believe they have got something they are going to be rolling 
out in the next week or two. But we can get the model to you.
    Mr. Dent. It came up in the area of police service, not so 
much in fire service or ambulance. So that would be very, very 
helpful.
    Mr. Bourne. I would be happy to do that.
    Mr. Dent. And I see that I am over my time. And out of 
respect to the Chairman--he will let me talk, I guess, a while 
longer. I will yield back to the Chairman at this time. Thank 
you. This has been very, very helpful.
    Thank you, Chairman Cuellar.
    Mr. Cuellar. Thank you very much.
    Let me just ask one last question for Major Ronczkowski. I 
understand your proposal to work in the Law Enforcement 
Deployment Team, that there is need for a follow-through and 
sustained involvement. Can you speak a little bit more in 
detail on the issue of how for law enforcement the mission does 
not usually end at the scene itself and what that entails?
    Mr. Ronczkowski. That is a huge challenge. As we know, 
during Katrina, for example, there were many deceased people 
that were out there. Law enforcement could have shown up. It 
may have been a crime, may not have been a crime, may have been 
accidental. That requires immediate investigation of a team of 
personnel, everything from crime scene investigators to the 
property and evidence custodians. Chain of custody comes into 
play. And then what ends up taking place should an arrest 
transpire is the detention of that individual, whether it is 
immediately or down the line. All these are going to very much 
lead up to various court appearances, and as we know with 
homicide cases or long-term cases, it could be 2, 3, 4, 5 years 
down the line, whether a warrant has been issued, whether it is 
an Arthur hearing, various challenges to the detention, the 
arrest, the apprehension, the training of the personnel. And 
any good lawyer is going to bring in everybody that was on the 
scene. So you could be talking to as many as 20 law enforcement 
officials, fire officials, ambulance; they are all going to be 
brought back for what may have been a crime scene and an 
arrest. What is going to take place is we are going to have to 
go back for depositions, we are going to have to go back for 
the trial, and right now we do not know of any mechanism that 
is willing to cover or compensate for that. And depending on 
the case and the challenges that may take place, you may end up 
with the leadership of our agencies, even though they were not 
on the scene, being challenged in court later on down the line 
in another jurisdiction.
    Mr. Ronczkowski. These individuals are going to take a lot 
of time to go back up to that jurisdiction. You are going to 
have travel. You are going to have holdover. And in some cases 
the attorneys are very willing to work with us, giving a 
specific time to be there. In some other jurisdictions, they 
want everybody there because they have the subpoena and they 
have the authority to do so.
    We do not have a reimbursement mechanism for that other 
than out of our own coffers. So generally what will transpire 
is that will become one of those pieces of the pie that doesn't 
get reimbursed, doesn't get funded, doesn't even get looked at, 
because that is after the television cameras have gone away and 
the news media has forgotten about it unless it is rather 
significant. And that is a great challenge.
    We have got a little bit on the front end should we have a 
large-scale demonstration or event, whether it is a convention 
in a jurisdiction or a locale that has maybe a hundred small 
jurisdictions, but no big one to come together. They may want 
to reach out within the region to pull personnel in. Again, we 
don't have a mechanism on the front side to help prevent 
something from taking place.
    A hurricane is a great example. Law enforcement we know is 
going to be there afterwards. But we have the availability with 
technology now to know 4, 5 days in advance to know the storm 
is coming. We can position our personnel up there.
    Stafford Act, if I recall correctly, is limiting to after 
the event and the declaration of emergency has taken place. 
Those are the challenges that we are facing within law 
enforcement. We are willing to go forward to deployment teams.
    Sheriff Baca has made it a commitment that it is going to 
take place in California. We are willing to be a pilot project 
down in the south Florida region. We have the assets and 
resources. But we have to be inclusive of everybody. And the 
only way they are going to do it, honestly, is if they are 
going to know that reimbursement will be there to make them 
whole.
    Mr. Cuellar. All right. I understand.
    Well, I want to thank all the witnesses at this time. I 
would also ask you, besides providing the testimony, as you 
listen to each other and you heard the different testimony I am 
sure certain things got you thinking about certain things that 
might be helpful to us. So, again, if you have any other 
suggestions, if you want to follow-up again, please present it 
to us. And we certainly want to follow up with you on this.
    I want to thank all of you for your valuable testimony and, 
of course, the members that were here for their questions. The 
members of the subcommittee may have additional questions for 
you; and if we do provide you with those, we ask you to respond 
to those as quickly as possible in writing.
    And, again, hearing no further business, the hearing stands 
adjourned. Thank you.
    [Whereupon, at 4:12 p.m., the subcommittee was adjourned.]


             Appendix:  Additional Questions and Responses

                              ----------                              


 Question from the Honorable Henry Cuellar, Chairman, Subcommittee on 
          Emergency Communications, Preparedness and Response

                      Responses from Marko Bourne

    Question 1.: Mr. Bourne, as you know, FEMA recently signed a three 
year Memorandum of Understanding with EMAC to work on credentialing and 
typing, both of which you address in your testimony. Understanding and 
respecting that EMAC is a State compact, I would like to know how FEMA 
works with EMAC and the States to ensure a seamless response effort. At 
times, State mutual aid efforts may be overwhelmed and federal 
resources must be brought to bear.
    How do you work together pre-incident to identify roles and 
responsibilities?
    Please describe to us the level of funding, coordination, and 
communication between FEMA and EMAC.
    Response: The Federal Emergency Management Agency (FEMA) and the 
National Emergency Management Agency (NEMA) have a long cooperative 
relationship on resource typing and credentialing that predates the 
Homeland Security Act of 2002. FEMA actively participates with the 
Emergency Management Assistance Compact (EMAC) through formal 
membership on the EMAC Advisory Group and participation at the EMAC 
Committee meetings. FEMA maintains close routine contact with the EMAC 
Director, the Policy Advisor to EMAC, the Chair of the EMAC Executive 
Task Force and the EMAC Committee Chair. The EMAC representatives are 
actively engaged with the FEMA Resource Typing and Credentialing 
discipline working groups to ensure the efforts are compliant with 
EMAC. For example, EMAC has started to develop full mission packages 
(including estimated daily costs) for the 120 FEMA Typed Resources. 
Effectively, EMAC has extended the 120 typed resources into fully ready 
packages that simplify the ordering, deployment, and utilization of the 
120 resources. Through the EMAC Memorandum of Understanding and 
Cooperative Agreement, FEMA is working with EMAC to ensure that 
National Incident Management System credentialing results in the right 
persons being granted access at the right time to incident scenes 
through a valid deployment authorization (which is a properly executed 
EMAC REG-A form).
    Funding for EMAC is an annually negotiated amount, based on the 
activity and deliverables that NEMA and FEMA agree to. The funding 
amount for FY 2007 was $1,000,000.

    Question 2.: As you highlighted in your testimony, the Implementing 
the Recommendations of the 9/11 Commission Act provides for a 1 year 
deadline on standards for credentialing and typing of incident 
management personnel, emergency response providers and other personnel. 
This deadline includes that FEMA provide technical assistance and 
expertise to state and locals.
    To date, what type of technical assistance and expertise has been 
provided to States?
    Response: FEMA is providing credentialing guidance and standards to 
State and local entities. The State and local entities can determine, 
on a voluntary basis, what responders need to be credentialed for EMAC 
deployment. Working groups already exist that assess the minimum 
standard per discipline. With this minimum standard, State and local 
authorities can identify those personnel and volunteers to be 
credentialed for EMAC. The Incident Commander at a disaster scene needs 
to validate a credential and have proof that a responder is requested. 
The State and/or local authorities issue these credentials for 
responders. Additionally, the REQ-A, a contract between State 
Governors, lists the pre-determined State and local disaster personnel 
so that the Incident Commander will know who should have access to the 
scene of a disaster.
    States must establish a program that grants authority to agencies, 
organizations or other entities to issue Qualification Cards for 
persons meeting credentialing standards to be deployed for interstate 
mutual aid. Working with EMAC, States will need to be able to provide 
an inventory of credentialed assets and be able to track availability 
for deployment.
    A standardized system of personnel identification and ``skill-set'' 
verification will directly enhance resource sharing and mutual aid 
throughout the Nation. State and local credentialing efforts support 
FEMA's National Mutual Aid and Resource Management System to enhance 
inter and intra-state mutual aid. The establishment of credentialing 
standards enhances the validation process and management of incident 
command system (ICS), which is the backbone of NIMS.
    Technical assistance and expertise is provided to States by 
Incident Management Systems Integration (IMSI) of FEMA, an element of 
the National Integration Center. NIMS Guide 2 (titled National 
Credentialing Definition and Criteria) issued by IMSI in March, 2007 
provides general credentialing guidance to States. The NIMS 
Credentialing Standards Working Group is in the process of developing 
additional credentialing guidance for States. We anticipate that this 
guidance will be released in January 2008. Additional technical 
assistance and expertise is also provided to States by the FEMA NIMS 
Coordinators in each of the FEMA regional office. Discipline specific 
credentialing standards by position can be accessed at http://
www.fema.gov/emergency/nims. Specific questions regarding State and 
local credentialing can be directed to the following email address: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e585b535f335057534d2f2e5e7a766d30797168">[email&#160;protected]</a>

    Question 3.: The Major Cities Chiefs and the Major County Sheriffs 
have proposed the idea of Law Enforcement Deployment Teams to be sent 
to areas where there has been a large disaster to help local law 
enforcement carry out their duties.
    What is FEMA's position on the creation of these teams?
    What may be the possible challenges to the deployment of the teams?
    Response: In 2006 the Senate Committee on Homeland Security and 
Governmental Affairs concluded that there is a demonstrated need for 
``a large, well-equipped, and coordinated law enforcement response to 
maintain or restore civil order after catastrophic events.'' As was 
experienced with Hurricane Katrina, such a significant event can 
effectively eliminate even a State's ability to maintain civil order in 
all its communities.
    The Implementing the Recommendations of the 9/11 Commission Act of 
2007 recently established an Office of State and Local Law Enforcement 
in the Department of Homeland Security that requires the Assistant 
Secretary leading this office to:
        [C]onduct, jointly with the Administrator, a study to determine 
        the efficacy and feasibility of establishing specialized law 
        enforcement deployment teams to assist State, local, and tribal 
        governments in responding to natural disasters, acts of 
        terrorism, or other man-made disasters and report on the 
        results of that study to the appropriate committees of 
        Congress.
    While this study has not been completed, we agree that there is a 
need to strengthen state to state law enforcement mutual aid 
capabilities. FEMA believes it is appropriate to leverage existing 
state to state agreements and infrastructure to complete this mission. 
FEMA has worked cooperatively with the Major City Police Chiefs (MCC) 
and Major County Sheriffs (MCS) in the preparation of their report; we 
will engage national law enforcement leadership, including MCC and MCS 
in partnership with the Office of State and Local Law Enforcement in 
the required LEDT study.
    Challenges to the deployment of these teams include the significant 
costs associated with not only deployment, but start up and maintenance 
costs (including equipment, training, logistics and management). 
Required law enforcement authorities and policies including powers of 
arrest and use of force, along with legal liabilities will need to be 
thoroughly scrutinized. Support for these teams includes not only 
normal logistical challenges, but includes the challenges associated 
with prisoners, jails and the courts. Early decisions will need to be 
made as to whether LEDT should be a federalized resource, working at 
the direction of and fully supported by DOJ or DHS as sworn federal law 
enforcement officers, or as a state to state law enforcement resource 
working at the direction of and fully supported by Governors. In order 
for LEDT to be effective, typing and credentialing for law enforcement 
will need significant improvement, requiring national law enforcement 
community consensus and support.
    While there are significant costs associated with a Law Enforcement 
Deployment Team system, the ability to integrate and leverage the 
community oriented policing training and experience of over 700,000 
state/local police officers at a disaster is a significant opportunity 
that can improve our Nation's ability to respond and recover from 
disaster; the ad hoc and self dispatching of law enforcement as 
experienced in response to Hurricane Katrina is an unacceptable 
national policy.

    Question 4.: In your testimony you highlight the work of the 
National Capitol Region on credentialing.
    What are the biggest challenges to this pilot and what are the 
estimated costs associated with credentialing first responders?
    How feasible is a future scenario where most communities in the 
U.S. have credentialed emergency personnel based on a national 
identification standard?
    Response: In fulfilling Federal credentialing requirements 
implementing the Recommendations of the 9/11 Commission Act of 2007, 
FEMA will develop a control objective and guidelines by which State and 
local partners can leverage the Federal government's effort, if they so 
choose. While there is no requirement for States and localities to 
credential first responders, many State and local jurisdictions may 
wish to do so.
    With regard specifically to the NCR pilot, one challenge is 
business rule development related to incorporating credentialing into 
response and recovery activities. For example, in the event of threat 
level changes (e.g., Orange to Red), the requirements to validate a 
responder's credentials could also change, for example becoming more 
stringent. The NCR pilot is engaged in selected exercises/
demonstrations to develop business rules for various scenarios. An 
additional challenge, which is being addressed by FEMA's National 
Integration Center, is the need to baseline skill sets. Currently, how 
one jurisdiction defines an Emergency Medical Technician (EMT), for 
example, is often different from another. Developing a common approach 
to defining various skill sets (e.g., hazmat certified fire fighter), 
or attributes, will allow incident commanders to quickly identify and 
locate needed resources, thus facilitating response across different 
jurisdictions.
    The feasibility of future scenarios where most communities in the 
Untied States have credentialed emergency personnel is dependent upon 
how quickly the credentialing process can be implemented across the 
nation. Pockets of the nation are further along in the credentialing 
process than others.
    The estimated cost of the NCR pilot (FY 2008) is $1,387,000.

    Question 5.: The Washington Military Department in my home state 
has hosted several meetings with the Emergency Management Directors of 
the other FEMA Region X states (Alaska, Oregon and Idaho), all of whom 
are committed to working toward eventual regional contingency planning, 
capabilities sets, and mutual aid arrangements that can effectively 
strengthen regional disaster resilience.
    My state's Homeland Security Advisor tells me that this kind of 
planning can substantially reduce the need for federal government 
assistance in the event of significant state or regional disasters. If 
states know as an event unfolds exactly what they can rely on their 
neighbors to provide, their inclination will likely be to look for 
assistance from that direction.
    Beyond a unity of intent, however, little has been done because the 
states lack the funds necessary to undertake and coordinate the 
requisite baseline regional planning. Mr. Bourne, do you think that it 
makes sense for the federal government and FEMA in particular to 
provide some modest assistance to states to help facilitate this 
planning and discussion?
    Response: Incidents typically begin and end locally and are managed 
on a daily basis at the lowest possible geographical, organizational, 
and jurisdictional level. However, there are instances in which 
successful incident management operations depend on the involvement of 
multiple jurisdictions, levels of government, functional agencies, and/
or emergency responder disciplines. These types of incidents require 
effective and efficient coordination across a broad spectrum of 
organizations and activities. A regional planning approach (i.e. 
involving the states of Alaska, Washington, Oregon, and Idaho) that 
would address capabilities, resources, and mutual aid needs supports 
the implementation of the National Incident Management System, and 
would absolutely make sense for the federal government and FEMA to 
support. One example of how the Federal Emergency Management Agency 
(FEMA) is supporting this kind of joint, regional planning is through 
the hiring of Federal Preparedness Coordinators in each of the 10 FEMA 
Regional Offices. These Coordinators are high-level officials that will 
be charged with, among other things, facilitating regional planning 
across their regions with a specific emphasis on identifying regional 
capability sets and developing regional contingency plans and mutual 
aid arrangements to strengthen regional disaster resilience. In 
addition, the FY 2007 U.S. Troop Readiness, Veterans' Care, Katrina 
Recovery, and Iraq Accountability Appropriations (P.L. 110-28) provided 
$35 million for a Catastrophic Event Planning Initiative. FEMA will 
provide these funds and technical assistance to support joint regional 
planning in and around the Tier I Urban Areas. As you are aware, the 
recently passed FY 2008 Consolidated Appropriations Act includes an 
additional $35 million for this purpose. FEMA also allows homeland 
security grant funding to be used to support these kinds of planning 
activities in all jurisdictions nationally.
    In addition to the CAT planning funds for FY 2007, the following 
additional grant programs support planning efforts at the state and 
local level: the Homeland Security Grant Program (HSGP) which consists 
of the State Homeland Security Program (SHSP), Urban Area Security 
Initiative (UASI), Law Enforcement Terrorism Prevention Program 
(LETPP), Citizen Corps Program (CCP) and the Metropolitan Medical 
Response System (MMRS); Emergency Management Performance Grant Program 
(EMPG); Public Safety Interoperable Communications Grant Program 
(PSIC); and the Infrastructure Protection Program (IPP) which consists 
of the Transit Security Grant Program (TSGP), Port Security Grant 
Program (PSGP), Intercity Bus Security Grant Program (IBSGP), Trucking 
Security Grant Program (TSP) and the Buffer Zone Protection Program 
(BZPP). For FY 2007, the 56 States and Territories have estimated that 
they intend to use approximately $374 million of their HSGP funding for 
planning activities.

     Questions from the Honorable Charles W. Dent, Ranking Member, 
  Subcommittee on Emergecny Communications, Preparedness and Response

                      Responses from Marko Bourne

    Question 6.: Please provide copies of the model agreements FEMA 
provides States and localities for their use in developing and 
implementing mutual aid agreements. In particular, please provide any 
information that may assist a local community in establishing mutual 
aid agreements for law enforcement purposes.
    Response: Mutual aid agreements and assistance agreements are 
written or oral agreements made between and among agencies/
organizations and jurisdictions that provide a mechanism to quickly 
obtain emergency assistance in the form of personnel, equipment, 
materials, and other associated services. The primary objective is to 
facilitate rapid, short term deployment of emergency support prior to, 
during, and after an incident. A signed agreement does not obligate the 
provision or receipt of aid, but rather provides a tool for use should 
the incident dictate a need. Agreements should include the following 
elements or provisions:
        <bullet> definitions of key terms used in the agreement
        <bullet> roles and responsibilities of individual parties
        <bullet> procedures for requesting and providing assistance
        <bullet> procedures, authorities, and rules for payment, 
        reimbursement, and allocation of costs
        <bullet> notification procedures
        <bullet> protocols for interoperable communications
        <bullet> relationships with other agreements among 
        jurisdictions
        <bullet> workers' compensation
        <bullet> treatment of liability and immunity
        <bullet> recognition of qualifications and certifications
        <bullet> termination clause
    Jurisdictions should be party to agreements with the appropriate 
jurisdictions and organizations (including the private sector and 
nongovernmental organizations (NGOs), where appropriate) from which 
they expect to receive, or to which they expect to provide assistance. 
States should participate in interstate compacts and establish 
intrastate agreements that encompass all local jurisdictions. 
Authorized officials from each of the participating jurisdictions and 
organizations should collectively approve all mutual aid agreements and 
assistance agreements.
    Memorandums of understanding and memorandums of agreement are also 
needed with the private sector and NGOs--such as community-based and 
faith-based organizations and national organizations, including the 
American Red Cross and the Salvation Army to facilitate the timely 
delivery of assistance during incidents.
    The Federal Emergency Management Agency's IS-706 National Incident 
Management System (NIMS) Intrastate Mutual Aid--An Introduction course 
provides an introduction to NIMS intrastate mutual aid and assistance. 
Participants learn about the purpose and benefits of mutual aid and 
assistance. Participants also learn about the emphasis that NIMS places 
on mutual aid and assistance. The course explains how to develop mutual 
aid and assistance agreements and mutual aid operational plans. At the 
conclusion of this course, participants should be able to:
        <bullet> Describe the purpose, benefits, and uses of mutual aid 
        and assistance.
        <bullet> Explain how mutual aid and assistance agreements 
        relate to NIMS.
        <bullet> Identify what information should be included in a 
        mutual aid and assistance agreement.
        <bullet> Explain the process for developing mutual aid and 
        assistance agreements.
        <bullet> Identify the elements of a mutual aid and assistance 
        operational plan.
    The primary audience for the course is State, local, and tribal 
emergency response and coordination personnel. The course takes 
approximately two and a half hours to complete. The course can be 
accessed at http://training.fema.gov/IS/.
    The following mutual aid resources can be found on the FEMA website 
at http://www.fema.gov/emergency/nims/rm/ma.shtm
        <bullet> Model Intrastate Mutual Aid Legislation
        <bullet> Model State-County Mutual Aid Deployment Contract
        <bullet> Model Cooperative Agreements
        <bullet> Model Mutual Aid Agreements
        <bullet> Mutual Aid FAQs

    Question 7.: One of EMAC's priorities is to develop pre-scripted 
mission assignments, including personnel and equipment descriptions and 
cost estimates. Is FEMA involved in the development of these mission 
assignments? Please discuss how this effort through EMAC may be similar 
to the pre-scripted mission assignments that FEMA has been working on 
at the Federal level.
    How does FEMA coordinate with EMAC? Is your office the focal point 
for coordination between EMAC and FEMA?
    Response: The Emergency Management Assistance Compact (EMAC) is a 
mutual aid agreement and partnership administered by the National 
Emergency Management Association (NEMA) among all 50 States, the 
District of Columbia, Puerto Rico, Guam, and the U.S. Virgin Islands. 
Emergency management assistance compacts consist of cooperative mutual 
aid agreements exercised State to State to facilitate the sharing of 
critical resources during emergencies and disasters. They can be used 
to provide capabilities from one EMAC-member to another, as long as 
there is a state of emergency declared by the Governor of the receiving 
State. The agreements address operational, policy, legal and financial 
issues associated with interstate mutual-aid.
    The EMAC Committee of NEMA, led by a chairperson, manages and 
provides overall policy direction for EMAC activities and operations. 
Because of the EMAC mutual-aid process, requests for assistance are 
often coordinated between States without any Federal involvement 
whatsoever. When the capabilities of a State or an assisting State are 
overwhelmed, Federal coordination and involvement are required. Under 
such circumstances, Authorized Representatives of the requesting and 
assisting States join in with the Federal government's response efforts 
to provide increased capabilities and prevent any duplication of 
efforts.
    When FEMA's National Response Coordination Center (NRCC) and/or the 
Regional Response Coordination Center (RRCC) are activated to 
coordinate Federal disaster response and recovery operations, FEMA may 
request inclusion of a coordination element from EMAC. The EMAC 
National Coordinating Team (NCT) can then be deployed to the NRCC and 
their Regional Coordinating Team (RCT) can be deployed to the RRCC to 
serve as liaisons between FEMA and EMAC. The EMAC NCT and RCT 
coordinate with all of the deployed EMAC components responding to the 
disaster and serve as the liaison between the EMAC assistance efforts 
and the Federally-provided assistance efforts.
    FEMA is not directly involved with EMAC in helping them develop 
their own Mission Assignments (MA)/Pre-Scripted Mission Assignments 
(PSMA). The term MA has a specific meaning for FEMA and the Federal 
Departments and Agencies (D/A). 44 CFR, Part 206, provides definitions 
and general rules pertaining to MAs issued by FEMA. 44 CFR defines a MA 
as a ``work order issued to a Federal agency by the Regional Director 
(RD), Associate Director, or Director, directing the completion by that 
Federal agency of a specified task and citing funding, other managerial 
controls, and guidance.'' [NOTE: The CFR has not been updated to 
reflect current organizational or position title changes].
    Additional related definitions related to FEMA's MAs include:
    <bullet> Proposed Statement of Work (PSOW): A preliminary statement 
of work prepared by an Emergency Support Function (ESF) Primary D/A, 
prior to a major disaster or emergency. The key components of a PSOW 
are a scope of work (e.g., specific tasks to be performed, requirements 
or criteria to be followed) and a projected cost estimate. Preparation 
of the PSOW is the first step in development of a PSMA.
        <bullet> PSMA: Specific statements of work designed to 
        facilitate assistance between two D/As at the Federal level. 
        PSMAs include a statement of work and projected cost estimate 
        written, evaluated, and mutually agreed upon by FEMA and the 
        ESF Primary D/A designated in the MA, prior to a major disaster 
        or emergency (In the case of DoD, PSMAs are coordinated vs. 
        approved). The PSMA serves as a baseline for developing a 
        tasking to a Federal D/A to meet operational requirements. 
        Essentially, the PSMA is a PSOW that has undergone program, 
        legal, and financial reviews and been accepted by both FEMA and 
        the Primary D/A.
    Although FEMA is not really involved in EMAC's PSMA process, the 
intent of the EMAC process is likely similar to that of the Federal 
PSMA process in that both serve as a baseline for developing taskings 
to meet operational requirements, including a scope of work (e.g., 
specific tasks to be performed, requirements or criteria to be 
followed) and projected cost estimates.

 Questions from the Honorable Henry Cuellar, Chairman, Subcommittee on 
          Emergency Communications, Preparedness, and Response

                      Responses from Jim McPartlon

    1. Chief Westermann and Mr. McPartlon, both of your testimonies 
discuss the problems your members face receiving reimbursement through 
the EMAC or federal reimbursement systems after they provided 
assistance during a disaster. You both said it can sometimes take as 
long as a few month or years for agencies to be paid for the services 
they provided.
    <bullet> T3Do you have any suggestions on how we can fix the 
system?
    Response of Mr. McPartlon: The primary reason for the delay in 
payments to ambulance service providers, and in particular 
nongovernmental providers, is that ambulance services are not 
specifically listed as a covered service in the Stafford Act. While the 
central office at FEMA has issued guidance to FEMA field offices and 
state homeland security officials that governmental and nongovernmental 
ambulance service providers are eligible for reimbursement, providers 
still encounter resistance in being reimbursed. This is because 
nongovernmental providers must have a local or state government agency 
submit their claim to FEMA. The state or local government officials do 
not believe that nongovernmental providers are eligible even when 
provided documentation by the provider. When seeking clarification from 
FEMA, there are often times when the FEMA field representative is 
unaware of the guidance and denies the claim. All of the confusion 
stems from the fact that ambulance services are not listed as a covered 
entity in the Stafford Act. My recommendation therefore would be to 
include ``governmental and nongovernmental ambulance services'' in the 
list of service eligible for reimbursement under the Stafford Act. This 
would address reimbursement problems both when ambulance service 
providers respond directly to a local federally-declared disaster or 
through an EMAC.
    2. In your testimony you say that almost two-thirds of states do 
not allow the inclusion and deployment under EMAC of nongovernmental 
ambulance service providers.
    <bullet> Why do you believe that more states do not allow the 
utilization of these resources under EMAC?
    Response of Mr. McPartlon:
    My understanding of why more states do not allow the utilization of 
nongovernmental ambulance service providers is twofold. First, the 
federal language authorizing EMACs does not specifically state that 
nongovernmental resources may be utilized under an EMAC. Without 
explicit language to that fact, many state attorneys generals have 
therefore concluded that nongovernmental resources may not be deployed 
under an EMAC request. Second, even when state attorneys general 
determine that nongovernmental resources may be deployed, states often 
face issues such as liability insurance and whether nongovernmental 
resources are covered. States therefore decide it best to avoid any 
potential expose and exclude nongovernmental resources. To resolve this 
issue, I recommend that the EMAC authorization language be clarified to 
specifically include nongovernmental resources and that these resources 
are considered state resources during the deployment to avoid liability 
issues.

 Question from the Honorable Norman D. Dicks, Member, Subcommittee on 
          Emergency Communications, Preparedness, and Response

    3. Within your respective jurisdictions and to the extent that 
regional contingency planning has been done, have you found that a lack 
of available resources have limited the value of a mutual aid 
arrangement?
    Response of Mr. McPartlon:
    I have found that a lack of available resources is not an issue 
with ambulance services. Nongovernmental ambulance service providers 
represent the majority of ambulances and medics which are available to 
respond under any mutual aid arrangement. In response to Hurricanes 
Katrina and Rita and at the request of FEMA, the AAA coordinated the 
deployment of over 500 nongovernmental ambulances and crews to the gulf 
region. The issue, however, is that nongovernmental ambulance service 
providers are not being utilized effectively. Two-thirds of states do 
not allow for the deployment under their EMAC of nongovernmental 
resources. I therefore recommend that the EMAC authorization language 
be clarified to specifically include nongovernmental resources.

 Questions from the Honorable Henry Cuellar, Chairman, Subcommittee on 
          Emergency Communications, Preparedness and Response

                      Response from Kenneth Murphy

    Question 1: In your testimony, you mention that the framework to 
effectively manage resources from all levels of government is defined 
in community, county, state and federal response plans.
    a. To what extent do you believe the National Response Framework 
addresses resource management?
    b. How does EMAC work with FEMA and the states to ensure that all 
resources are typed in a way in which they can be effectively shared at 
the National level?
    The current draft of the National Response Plan/Framework does not 
limit states' ability to request federal support until all mutual aid 
options are exhausted as previous drafts have included. Resource 
management is not fully addressed in the National Response Plan/
Framework and needs to be a concurrent plan developed in coordination 
with all of the players at the state, local and federal level in order 
to be a national resource management plan.
    EMAC, as part of our cooperative agreement with FEMA, has completed 
sixty (60) resource typed mission packages and will complete ninety 
(90) by May 2008. The mission packages use FEMA NIMS resource typing 
method and take it to the next level by identifying the missions that 
package can be deployable for, personnel and equipment needed, 
limitations, required logistical support, the footprint needed to 
support, and the estimated cost (minus travel costs) to deploy. Mission 
packaging will allow assets to not just be deployed more quickly but 
will also allow resource owners to look at costs, equipment, and 
personnel needed pre-event. It is thought that the work upfront to 
identify mission packages will also have a positive outcome on 
reimbursement when the package is demobilized.
    The completed resource typed mission packages are posted to the 
EMAC Web Site and available publically. Further, NEMA has been working 
with FEMA to share them with the disciplines and resource typing 
working groups, and the EMAC Advisory Group. While the job of resource 
typing and building mission packages resides with the resource owner, 
the mission packages being developed will serve as a model/template for 
resources owners.
    This initiative is in its infancy and we expect to continue this 
work through the disciplines and FEMA in the next two to three years 
assuming continuation of our cooperative agreements and grants.

    Question 2.: You should be commended on establishing the EMAC 
Advisory Group that is working to integrate partners before a disaster 
or attack happens. From your testimony, I understand you are discussing 
issues such as resource typing, mission packages, and deployment issues 
in the meetings.
    a. How is information being shared on group activities with the 
States and localities? What is the end goal of the Advisory Group, to 
issue recommendations, develop a baseline of best practices for typing 
and packages?
    Thank you for recognizing the importance of the EMAC Advisory 
Committee. We are very proud to be able to pull stakeholders into the 
policy discussions and development as EMAC tries to expand information 
on how the EMAC system works and how state and local governments and 
various disciplines can utilize the system.
    The mission of the EMAC Advisory Group is to facilitate the 
effective integration of multi-discipline emergency response and 
recovery assets for nation-wide mutual aid through the Emergency 
Management Assistance Compact. To accomplish this mission we have 
focused on three goals: 1) Promote a better understanding of EMAC for 
multi-discipline emergency response and recovery entities, and mutual 
aid partners; 2) Create a forum for mutual aid stakeholders to provide 
input and feedback to NEMA to enhance mutual aid through EMAC; and 3) 
Advance inter and intra state mutual aid.
    Information is being shared on the Advisory Committee through the 
members of the Committee reporting back to their national associations. 
For example, the National League of Cities representative shares the 
information back with members of the National League of Cities. This 
also opens doors for future EMAC training with these partners, as was 
the case with a national State Municipal League meeting last summer in 
which EMAC coordinated a session on the EMAC system.
    The disciplines and practitioners are the resource owners. To make 
deployments of resources more effective and efficient, resource typed 
mission packaging must be developed using uniform verbiage.
    In addition to resource typing and mission package development we 
have been working with the disciplines to develop discipline specific 
``tip sheets'' and an ``EMAC Deployment Brochure'' that can be handed 
out at meetings and conferences to give the disciplines a better 
understanding of mutual aid, EMAC, and how to effectively and 
efficiently deploy during an event. We have also been working on 
credentialing and helping disciplines to better understand the 
professional standards and site credentialing issues. Another more 
recent outcome from the EMAC Advisory Group is the development of law 
enforcement rapid response teams underway with Major City Chiefs 
Association and Major County Sheriffs' Association that would be 
deployable under EMAC.

    Question 3.: As the Administrator for EMAC--please explain to us 
the NEMA staffing and financial resources committed to the mission so 
far.
        a. Are the staffing needs adequate?
        b. Are the information technology systems able to support the 
        current and future missions?
        c. Understanding the EMAC program is authorized for more money 
        than appropriated, what could additional dollars provide for 
        EMAC?
    EMAC recently received a $1.005 million grant from FEMA to continue 
operations in June 2007 through May 2008. Prior to that, EMAC was 
funded in FY 2002 with $2.1 million that kept the system operating 
until the recent influx of funding. We currently have two full time 
staff members dedicated to running the EMAC system and to providing 
training, a senior advisor, a technology consultant, and part-time 
assistance shared with other NEMA staff. Currently, the staffing needs 
are within our funding levels, however increases would be necessary to 
better support of state operations and exercises, better coordination 
with federal agencies during events and exercises, and the 
Congressional mandates for resource typing and credentialing in future 
years.
    The current information technology systems are sufficient to 
address current and future missions, but we need out year support to 
sustain at the current level and to continue to maintain system 
integrity in conjunction other technologies.
    EMAC funding at the authorized level is critical to the sustainment 
of the program and enhancing the EMAC systems and operations. Funding 
EMAC also helps leverage federal dollars for building state operations 
and to help other states through other grant programs like the 
Emergency Management Performance Grant. Administrative support for the 
compact, operations enhancement, and training are key initiatives that 
would be addressed with the full authorized funding level.

    Question 4.: EMAC has grown considerably since the mid-1990s--what 
are the requirements for a State or territory to belong to EMAC?
    State legislative approval is required for a state to become a 
party to EMAC. Currently, all fifty states, the District of Columbia, 
Puerto Rico, the U.S. Virgin Islands, and Guam are parties to EMAC.
    a. How has the growth in the size of EMAC changes the way business 
is done?
    The growth of EMAC, and the development of one uniform system by 
which all disciplines may be deployed through the state emergency 
management agency, has resulted in a number of changes. A few of these 
are highlighted below:1. NEMA established an EMAC Committee, allowing 
the state directors become more engaged in the policies, procedures, 
and work elements. The EMAC Subcommittee under the Response and 
Recovery Committee of NEMA has been renamed the EMAC Executive Task 
Force with direct reporting to the EMAC Committee. One state emergency 
management person from each FEMA region serves on the EMAC Executive 
Task Force and reports back to their region:
        2. The development of the EMAC Advisory Group to engage with 
        the disciplines and bring together state emergency management 
        with response and recovery elements:
        3. Modernize the EMAC Operations System whereby states manage 
        EMAC operations:
        4. Providing more guidance to the disciplines on how to become 
        more engaged in intra and inter state mutual aid: and
        5. Addition of full time staffing to maintain the system, the 
        policies and procedures, coordination, incorporate lessons 
        learned, training and education.
    b. Has EMAC been able to keep up with the members, the requests for 
assistance and the reimbursements?
    EMAC has been able to keep up the members (thanks to funding from 
FEMA) and has been able to facilitate the requests for assistance.
    Reimbursement packages from Assisting States are sent to Requesting 
States for payment. These are not processed by NEMA staff but by the 
states. Political jurisdictions in the states deployed under EMAC send 
their reimbursement packages to the state emergency management agencies 
where they are audited and then send to the Requesting State for audit 
and reimbursement against the original mission order and any 
amendments.

    Question 5.: Chief Westerman and Mr. McParlton, both of your 
testimonies discuss the problems members face receiving reimbursement 
through the EMAC or federal reimbursement systems after they provided 
assistance during a disaster. You both said it can sometimes take as 
long as a few months or years for agencies to be paid for the services 
they provided.
        a. Do you have any suggestions on how we can fix the system?
    We have requested that Immediate Needs Funding be granted to states 
that are impacted to quickly pay EMAC mission costs based on contracts, 
not FEMA Public Assistance guidelines.
    b. Mr. Murphy, what is EMAC doing to fix this problem?
    We have been working on through the development of resource typed 
mission packages to work on knowing upfront mission costs and better 
dissemination of reimbursement guidelines to all political 
jurisdictions to assist the states with reimbursement. Providing an 
accurate cost estimate upfront on the mission will allow for better 
reimbursement packages received by the Requesting State. Further, we 
are working with the disciplines and the EMAC Advisory Group, and EMAC 
leadership to share information before deployments on what is 
reimbursable and what is not reimbursable.

    Question 6.: In your testimony, you say that almost two-thirds of 
states do not allow the inclusion and deployment under EMAC of non-
governmental service providers.
        a. Why do you believe that more states do not allow the 
        utilization of these resources under EMAC?
    State laws and regulations may prevent fronting costs for non-
public resources deployed through mutual aid agreements. These may not 
be exclusive to EMAC alone and may involve all mutual aid deployments. 
Additionally, states may prefer to exhaust their own state and local 
assets before including non-public assets. NEMA developed, in 2004 a 
Model Interstate Mutual Aid model that states may be able to use, if 
state law allows, to further the deployment of non-traditional assets 
under EMAC.
        b. Mr. Murphy, as a state emergency management, can you comment 
        on what some states would not utilize non-governmental 
        ambulance services as part of EMAC?
    State laws and regulations may prevent fronting costs for non-
public resources deployed through mutual aid agreements.

 Questions from the Honorable Norman D. Dicks, Member, Subcommittee on 
          Emergency Communications, Preparedness and Response

                     Responses from Kenneth Murphy

    Question 7.: With your respective jurisdictions and to the extent 
that regional contingency planning has been done, have you found that a 
lack of available resources have limited the value of a mutual aid 
agreement?
    No, in Oregon and nationally regional planning has enabled us to 
better identify assets and resources that can be brought to bear in a 
disaster before the disaster actually occurs. We are getting better at 
knowing who has assets, expertise and resources through planning 
initiatives and regional efforts such as the Pacific Northwest Economic 
Region and national exercises like TOPOFF. EMAC expands authority and 
leverages more resources during a disaster. The federal dollars 
invested in capacity for states are leveraged during an event because 
assets can move under EMAC to respond to other states in need. Further 
integration of EMAC into national exercises will allow us to realize 
the assets the nation can share during a real event.

     Question from the Honorable Charles W. Dent, Ranking Member, 
  Subcommittee on Emergency Communications, Preparedness and Response

                      Response from Kenneth Murphy

    Does the State of Oregon include private ambulance service 
providers in its mutual aid agreements? Why or why not?
    Part I--A state might not include a private or non-profit simply 
because the entity in question does not have in their operating 
procedures or contract the legal authority to allow for mutual aid. I 
believe that through the proper legal review and collaboration that any 
operating procedures or contractual language can be overcome. It simply 
would need to be on a case-by-case basis.
    From your perspective, why might a State not include private or 
non-governmental emergency service providers in mutual aid agreements 
such as EMAC?
    Part II--EMAC is a state-to-state agreement and it leaves the 
decisions on provider participation to states. State laws and 
regulations may prevent fronting costs for non-public resources 
deployed through mutual aid agreements. These may not be exclusive to 
EMAC alone and may involve all mutual aid deployments. Additionally, 
states may prefer to exhaust their own state and local assets before 
including non-public assets.

    Question 8.: Several provide organization have proposed putting 
together a business equivalent of a mutual aid agreement, referred to 
as BEMAC. How is NEMA involved in the business community's effort to 
develop such as agreement? Would a formal agreement among businesses 
and governments for emergency response be beneficial?
    NEMA is working closely with partners at the US Chamber of Commerce 
and Business Executives for National Security (BENS). Meetings with 
BENS, the US Chamber of Commerce, and private sector participants 
resulted in matching private sector assets with state emergency 
management agencies over the development of a BEMAC.
    State laws and regulations may prevent the fronting of costs for 
non-public resources and may impact infringing on competition and 
bidding laws for contracts. The NEMA Legal Committee and BENS has been 
exploring the legal hindrances between both public and private sector.
    We have been working to match private sector and state emergency 
management agencies pre-event to determine in essence resource typed 
mission packages that the private sector could develop for states that 
could be quickly deployed upon the signature of a contract (much like 
signing a mission order except the private sector company is directly 
engaged with the entity that would need the resource. This would solve 
the need for having to upfront costs by the public sector and allow the 
resource to get to the impacted area more efficiently and effectively 
by pre-determining needs.
    NEMA held two private sector/state emergency management workshops 
at the 2007 Annual Conference in Oklahoma City, OK to directly connect 
state emergency management directors with the resources they may need 
during an event.

    Question 9.: One issue this Committee has been focused on is 
interoperable communications. How is NEMA involved in supporting the 
efforts of state and local governments to achieve interoperable 
communications? Does EMAC include any guidance to States regarding 
interoperability to help ensure that States providing assistance 
through EMAC can communicate effectively with the emergency response 
officials they are assisting?
    NEMA has been supportive of Congressional and Administration 
initiatives to develop interoperable communications grants programs to 
state and local governments. The system developed can be leveraged by 
states in need during disasters through EMAC, thus increasing the value 
of investments made. EMAC does not have a specific recommendation on 
how to achieve interoperability, but mission packages help facilitate 
matching the needs of the requesting state with the systems available 
through assisting states. We try to share information as much as 
possible on what kind of communications equipment and systems are being 
used so assisting states are prepared. However, once assets are 
deployed, under command and control, they have to follow the state 
procedures in the state they are assisting.

    Question 10.: We often hear about mutual aid channels for voice 
communication during disasters. Would you please explain how these 
channels work and their effectiveness during emergencies?
    EMAC is not specifically involved in developing mutual aid 
channels. EMAC has been used to re-route 911 call centers during 
Hurricane Katrina to provide a backstop for states that experienced 
complete losses of communications. EMAC is currently working with the 
Association of Public Communications Officials and the National 
Emergency Number Association to prepare a plan to assist in the 
movement of call centers and/or personnel in the future that includes 
911 and poison control.

 Questions from the Honorable Henry Cuellar, Chairman, Subcommittee on 
          Emergency Communications, Preparedness, and Response

                Responses from Major Michael Ronczkowski

    Question 1.: To what extent has the Miami-Dade Police Department 
contributed equipment, personnel and resources to other States through 
EMAC and to your knowledge, how often have you been on the receiving 
end of such resources?
    The Miami-Dade Police Department (MDPD) has not received direct 
support from the Emergency Management Assistance Compact (EMAC). As a 
Department we have responded to multiple counties during 2004 and 2005. 
This request for support came via the Miami-Dade Emergency Operations 
Center (EOC) and the State EOC. We always utilized FEMA tracking / 
mission numbers that were provided via the EOCs.

    In-state support included:
        <bullet> St Lucie County (Main Area of Support)
        <bullet> Escambia County (Pensacola -Pan Handle) Lee County 
        Charlotte County Desoto County Hillsborough County Polk County 
        Hardee County

Out-of-state support included:
        Mississippi (Hurricane Katrina support)
        Louisiana (Hurricane Katrina support)
          --relief supplies and escort for supplies were the main 
        missions
    Support included MDPD personnel who assisted with recovery efforts, 
traffic control and search rescue efforts (checking damaged homes for 
injured persons). We also provided law enforcement and fire personnel 
with tools and equipment to secure their homes so that they can focus 
on the mission of restoring order and assisting the citizens in their 
respective jurisdiction.
    2. Please highlight the law enforcement capabilities and skill sets 
that may be needed during a disaster or incident that would demand 
personnel from a force outside of a particular State's jurisdiction?
    Quite often agencies that are struck with a disaster lack the 
necessary resources to address the situation in a sustained fashion. 
Whether they themselves are among the victims or they do not have the 
personnel to meet the needs of the situation, no one agency can 
generally have ample personnel allocations to address every scenario. 
By combining resources, personnel with specialized skill sets can be 
pooled and leveraged to meet the demands of virtually any disaster, 
without draining the resources of any one jurisdiction or region. As an 
example, a natural disaster such as a hurricane can devastate 
physically and resource wise a entire region of one state. Therefore, 
leveraging law enforcement resources following FEMA's 10 regions gives 
teams the ability to address multiple areas or events.

Team Size
    It is recommended that no single team will be comprised of more 
than 500 personnel, recognizing that at any given time not all members 
will be deployable. Any larger and the teams could constitute a burden 
on local law enforcement agencies. The emphasis is on developing 
scalable and flexible teams, enabling specific assets to be deployed to 
meet the need of the incident commander. Teams can be deployed 
independently or in concert with other teams so that a tailored 
solution is provided to the on-site incident commander.
Team Capabilities
    The emphasis is on providing law enforcement capabilities to an 
incident commander so that civil order can be restored and maintained. 
Accordingly, each team will also have advanced or specialty skills 
based on the capabilities of the participating agencies and the need of 
the region. Teams will be all-hazards and multi-disciplinary and 
comprised of highly skilled officers cross trained in various 
specialties. The intent is to provide a broad range of skill sets 
deployable in a scalable and flexible manner, deployable in a modular 
fashion. The incident commander can then identify the specific 
resources gaps and the National Team Coordinator, part of the DHS 
Office of State and Local Law Enforcement, would then be able to deploy 
a comprehensive package that meets the needs on the ground.
    Graphic #1 identifies the core, advanced and specialty capabilities 
that each team, and the system as a whole, should comprise. These 
capabilities can be deployed in their entirety or modularly. It is the 
intent that only the necessary components are deployed.

                      GRAPHIC #1: TEAM CAPABILITIES
------------------------------------------------------------------------
   Capabilities                          Skill Sets
------------------------------------------------------------------------
Core Capabilities
------------------------------------------------------------------------
Traditional Law               General public safety and law enforcement
 enforcement
------------------------------------------------------------------------
Crowd and riot                           Crowd management and dispersal
 control
------------------------------------------------------------------------
Canine Teams                 Narcotics, cadaver and explosive detection
------------------------------------------------------------------------
Intelligence          Covert surveillance, information and intelligence
 collection and                                                analysis
 analysis
------------------------------------------------------------------------
Investigation       Criminal investigation, e.g. robbery, homicide, etc.
 Teams
------------------------------------------------------------------------
Custody Teams                            Jail operations and detainment
------------------------------------------------------------------------
Infrastructure         Critical infrastructure vulnerability assessment
 vulnerability
 assessment
------------------------------------------------------------------------
Maritime security                               water patrol and rescue
 and rescue
------------------------------------------------------------------------
Advance Teams               Incident assessment and operations planning
------------------------------------------------------------------------
Incident                                Operations support and planning
 Management
------------------------------------------------------------------------
Logistics support                       Equipment and supply management
------------------------------------------------------------------------

Advanced
 Capabilities
------------------------------------------------------------------------
Special weapons                                    SWAT/Tactical Teams
 and tactics
------------------------------------------------------------------------
Arson/Explosives                     Arson and explosives investigation
 investigations
------------------------------------------------------------------------
Hazardous                                                  HAZMAT teams
 Materials
 identification
 and handling
------------------------------------------------------------------------
Aviation support      Aerial patrol, rescue, tactical support and heavy
                                                           lift support
------------------------------------------------------------------------
Hostage                                             Hostage negotiators
 negotiation
------------------------------------------------------------------------
Mounted Teams                             Equestrian crowd/riot control
------------------------------------------------------------------------
Bicycle Teams                             Area patrol and crowd control
------------------------------------------------------------------------
Motorcycle Teams                          Area patrol and crowd control
------------------------------------------------------------------------
Public Safety Dive       Water rescue, area security, and vulnerability
 Teams                                                       assessment
------------------------------------------------------------------------

    Teams would have the ability to deploy with an incident management 
capability if needed. After Katrina, some responding agencies were 
given a designated area of operations to provide all law and order 
support. Accordingly, team incident management capability would deploy 
to a specified geographic region designated by the Incident Commander 
and establish command and control. If the incident management 
capability is not needed, other team capabilities could be deployed and 
organized under the Incident Commander. As required, the incident 
management capability could also be deployed independent other team 
capabilities to support the primary Incident Commander.
    Another key component of the team program is the inclusion of 
Advance Teams that would collect information and intelligence from the 
incident site. This approach enables the Incident Commander and 
National Team Coordinator to continuously adjust the deployment of team 
resources as the environment and mission changes. Each region should 
have a primary and secondary advance team designated in advance capable 
of immediate deployment.
    As with any operation, it is also necessary to have personnel to 
provide critical logistics support through the mobilization (preparing 
to deploy), operations (onsite support of team activities) and 
demobilization (return to home agencies and state of readiness) phases.
    <bullet> Are you working with EMAC to identify a breakdown of these 
skill sets?
    Yes, the Major Cities Chief's Association (MCC) has been working 
with EMAC and DHS personnel to identify skills and resource typing. 
EMAC has also developed a law enforcement resource check list.
    Primary skill sets would be focused on restoring civil order; these 
skill sets have been defined by the National Incident Management System 
(NIMS) resource typing project, which has recently developed a ``patrol 
operations'' type. Law enforcement, primarily Major Cities Chiefs, has 
been working closely with EMAC since Katrina. MCC is a member of the 
EMAC Advisory Group, and in conjunction with EMAC and NEMA, recently 
completed a nearly year-long project to identify critical issues that 
could hinder the rapid deployment of state and local officers to 
disaster scenes across state lines. A copy of that checklist is also 
attached for your review. MCC views the relationship with EMAC as 
positive, healthy, and valuable.

    3. Understanding your proposal and work on Law Enforcement 
Deployment Teams--can you speak in more detail about the issue of how 
for law enforcement the ``mission'' does not usually end at the scene 
itself--there is a need for follow through and sustained involvement.
    <bullet> Is there a funding stream available for reimbursement for 
reoccurring costs such as court appearances and depositions?
    No particular funding stream is in place to cover this issue. As in 
all other costs of EMAC deployments it is the responsibility of the 
receiving state to reimburse the sending state in a manner negotiated 
in the REQ-A.
    All 50 states have a varying degree of legal systems and existing 
law enforcement contracts. Reoccurring expenses will not be limited to 
a specific time frame due to the aforementioned and may last weeks or 
even years after the initial law enforcement encounter or action. 
Depending on an agency size, there may be situations that will require 
an agency to pay for backfilling a position should an employee be 
required to attend court in another jurisdiction for an extended period 
of time. There is a need for an independent fiscal mechanism to enable 
agencies to become whole when providing assistance as part of the 
proposed teams.
    The team composition is predicated upon the participating personnel 
responding with full law enforcement authorities. Should a law 
enforcement member initiate or participate in an arrest or other legal 
action, there is a likelihood that they will be required to attend 
various legal or court related matters while under subpoena. These 
events usually take place weeks, or longer, after the initial 
encounter. Failure of law enforcement personnel to attend the 
proceedings can place the case at hand in legal jeopardy or be 
dismissed. Quite often, every officer, beyond the arresting official, 
that partakes in a legal event such as an arrest will be subpoenaed and 
demanded to appear. Without the backfilling of positions at the local 
level, when the requested officer responds back to appear for a court 
proceeding, will create a possible scenario where the jurisdiction will 
be not be able to address the needs of their home jurisdiction.
    The issue of after-action court appearances and costs is one that 
MCC and EMAC wrestled with throughout the process of creating the Law 
Enforcement (LE) checklist. After many discussions, the Legal Counsels 
for both EMAC and MCC agreed to this general language as the best 
method of addressing the issue, recognizing that the legal systems in 
all states are different, and that more specific language could be 
counterproductive by facilitating the process in one state while 
hindering it in another. All felt that the best way to deal with the 
issue is to call attention to it, and to leave it as the subject of 
bilateral negotiations between the sending and receiving states 
involved.
    4. The proposal for Law Enforcement Deployment Teams is embraced by 
the Major Cities Chiefs and the Mayor County Sheriffs.
    Recognizing this how do you envision the proposed make up of these 
teams? 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    .epsA national team program can provide reliable, scalable and 
consistent support. Organization is paramount following a major 
incident and a national team system would provide a professional and 
coordinated law enforcement response. Although some law enforcement 
agencies have been on the forefront of developing deployable teams, 
incident commanders have largely been subject to ad hoc support. A 
national team system not only standardizes the law enforcement specific 
capabilities, equipment and training, but also standardizes the 
assistance request process for law enforcement support. Incident 
commanders will know that what they request will arrive as advertised 
and will operate consistent with the Incident Command System (ICS).

Regional Framework
    A national team system should be decentralized and based on a 
regional framework. Using the ten (10) FEMA regions provides a solid 
foundation. Each region will have multiple scalable teams and the 
number of teams per region will vary based on participation and need. 
Each team would be self-sufficient, capable of sustained operations for 
no more than 14 days. The general consensus was that longer deployments 
would create prolonged stress for team members.

    <bullet> Would smaller law enforcement agencies participate and 
allocate resources?
    Yes, every local, county and state law enforcement agency, 
regardless of size, will be encouraged to participate at all levels.
    We see the teams forming around a ``center of gravity'' agency--a 
major city police department or a major county sheriff's department 
large enough to absorb the administrative burden of supporting and 
managing the team. The team itself will be modular and scalable, 
drawing personnel from literally dozens of law enforcement 
organizations surrounding the organizing entity. Smaller departments 
could contribute a unit as small as a squad--5 officers and a 
supervisor. Larger agencies could supply more. In this manner, many can 
participate without drawing down ``home'' personnel to the point where 
public safety in the contributing community might be adversely 
impacted. It would be the responsibility of the organizing entity--the 
``center of gravity'' department--to pull these diverse units together 
for training that will permit them to operate as a cohesive force.

 Questions from the Honorable Norman D. Dicks, Member, Subcommittee on 
          Emergency Communications, Preparedness, and Response

    Question 5.: Within your respective jurisdictions and to the extent 
regional contingency planning has been done, have you found that a lack 
of available resources have limited the value of a mutual aid 
arrangement?
    Response: No. Many states have robust intrastate mutual aid 
agreements in place, and others are now beginning to look at this on a 
more regional basis.

     Questions from the Honorable Charles W. Dent, Ranking Member, 
  Subcommittee on Emergency Communications, Preparedness, and Response

    Question 6.: Chief Westermann from the International Association of 
Fire Chiefs (IAFC) discussed efforts underway to develop intra-state 
mutual aid agreement across the country. Does the law enforcement 
community have similar mutual aid agreements at the intra-state level?
    Yes, many law enforcement agencies enter into intra-county and 
intra-state mutual aid agreements as well as memorandums of 
understanding, depending on the degree or complexity of the situation 
that is to be addressed. The degree of authority or responsibility may 
also vary from agreement to agreement.

    Question 7.: To the best of your knowledge, how is the law 
enforcement community involved in efforts being led by FEMA and NEMA to 
develop standards and guidelines for resource typing and credentialing 
personnel?
    Law enforcement officials have been active in committees such as 
the DHS Law Enforcement Resource Typing and Credentialing Committee, 
which is supervised by the NIMS Integration Center. While this effort 
has been productive, much is still on the table in the typing arena. 
The Committee is just beginning to look at the credentialing issue. The 
NIC has been working hard to produce uniform national standards for 
credentialing, but as the Committee is aware, it is a very complex 
problem.

 Questions from the Honorable Henry Cuellar, Chairman, Subcommittee on 
          Emergency Communications, Preparedness, and Response

                      Responses from P. Westermann

    Question 1.: Chief Westermann and Mr. McPartlon, both of your 
testimonies discuss the problems your members face receiving 
reimbursement through the EMAC or federal reimbursement systems after 
they provided assistance during a disaster. You both said it can 
sometimes take as long as a few months or years for agencies to be paid 
for the services they provided.
    Do you have any suggestions on how we can fix the system?
    Response: Under the current system, local fire departments that 
send resources to aid requesting states must bear all of the initial 
costs incurred. Significant delays in reimbursement can cause severe 
financial strain for the fire departments that provided assistance to 
other jurisdictions in need. It is critical to remove such impediments 
to timely reimbursement, so that financial concerns will not serve as a 
future disincentive for providing mutual aid.
    Although limited steps have been taken by FEMA to address barriers 
relating to timely reimbursement following disasters, problems remain 
which negatively impact the reimbursement process for directly affected 
jurisdictions as well as responding states providing aid. The entire 
review process is extremely cumbersome and has not been modernized to 
support a robust mutual aid system. Additionally, administrative 
rulings have been applied inconsistently, which adds uncertainty to the 
process.
    To resolve these problems, we make the following recommendations:
    <bullet> At the federal level, additional training is needed for 
all FEMA personnel, including temporary Disaster Assistance Employees. 
More training and internal agreement within FEMA regarding 
administrative rules would alleviate the inconsistent application of 
rulings. The IAFC is hopeful that the FEMA reform legislation enacted 
by Congress in the ``Homeland Security Appropriations Act of 2007'' 
(P.L. 109-295), which included human capital provisions intended to 
improve the skills and competencies of the FEMA workforce, will begin 
to address this issue.
    <bullet> More clear guidance regarding the reimbursement 
application process should also be provided by FEMA to state and local 
communities. At a minimum, such guidance should include updated and 
accurate information on the FEMA website regarding the application 
process and rules.
    <bullet> The use of the EMAC Request for Assistance (Req-A) forms, 
which are used to officially request assistance, offer assistance, and 
accept assistance between states, should be better incorporated into 
the FEMA reimbursement process in cases where mutual aid has been 
provided.
    <bullet> Some FEMA regional offices have begun to take a more 
proactive approach toward resolving reimbursement concerns, including 
diligence in monitoring the reimbursement process for states within 
that FEMA region and closely coordinating activities with FEMA 
headquarters and other regions. The IAFC encourages all FEMA regions to 
adopt a proactive approach to mutual aid reimbursement.
    <bullet> Some states have developed pre-planned requests and 
response frameworks, including a fee schedule with advanced cost 
computations. These pre-staged requests can be quickly activated and 
are intended to reduce the administrative time needed to summon or 
receive assistance in the event of a disaster. Such plans should be 
further developed by participating states, and all states should be 
encouraged to develop similar plans.
    We encourage Congress to continue to review this issue and work 
with FEMA to resolve inefficiencies in the mutual aid reimbursement 
process where possible.

    Question 2.: Chief Westermann, in your testimony you say that the 
IAFC is working on developing a plan for a National Mutual Aid System 
for the fire service.
    <bullet> How would this system fit into the EMAC system?
    <bullet> Should each discipline set up their own national mutual 
aid system?
    Response: The IAFC National Mutual Aid project uses EMAC as the 
foundation for moving resources across state lines. The IAFC's project 
primarily involves ESF-4 (Firefighting), but has direct application to 
other emergency functions. Since a majority of fire departments also 
handle EMS, hazardous materials response, technical rescue, water 
rescue, and communications, there is a pressing need to develop 
operational plans that mirror each other, so the training required for 
all other functions is maximized.
    We also encourage all other disciplines for primary and secondary 
responders to follow a similar format. In doing so, each discipline 
would not necessarily need a separate national mutual aid system, but 
would have the operational plans in place if such a need exists. 
However, EMAC should continue to provide the form and structure for 
mutual aid requests.

    Question 3.: Chief Westermann, how has recent legislation that 
Congress has passed (the 9/11 Commission Implementation Bill and the 
Post-Katrina Reform Bill) improved the nation's mutual aid 
capabilities?
    Response: Both the ``Implementing Recommendations of the 9/11 
Commission Act of 2007'' (P.L. 110-53) and the ``Fiscal Year (FY) 2007 
Department of Homeland Security Appropriations Act'' (P.L.109-295) 
contained provisions that are important for enhanced mutual aid. The 
FEMA reform provisions in the FY 2007 DHS Appropriations Act support an 
increased capacity for regional response by enhancing FEMA regional 
offices that can coordinate with state, local, and tribal governments 
to foster mutual aid agreements and promote a regional response to 
disasters. The FEMA reform legislation also included human capital 
provisions intended to improve the skills and competencies of the FEMA 
workforce. Increased training for the FEMA workforce will allow greater 
guidance and consistency from the agency in its interactions with state 
and local governments.
    In addition, the 9/11 Commission Implementation Act authorizes the 
development of standards for resource typing and personnel 
credentialing within one year of the law's enactment. This measure will 
create a common definition of assets and skills across regions, 
fostering a more seamless response when resources and personnel are 
deployed to a disaster scene from other areas. The law includes 
technical assistance to states to adopt these standards.
    Both of these bills will enhance the national mutual aid system 
through increased regional cooperation, a common definition of the 
assets and personnel that can be deployed for mutual aid, and improved 
skills and competencies of FEMA personnel.

 Questions from the Honorable Norman D. Dicks, Member, Subcommittee on 
          Emergency Communications, Preparedness, and Response

    Question 4.: Within your respective jurisdictions and to the extent 
that regional contingency planning has been done, have you found that a 
lack of available resources have limited the value of a mutual aid 
arrangement?
    Response: A robust mutual aid system is critical precisely because 
local and state resources can be overwhelmed in their ability to 
respond to disasters and emergencies. The mutual aid system is designed 
to be scalable and flexible enough to expand until resource needs are 
met. However, additional resources would be extremely beneficial in 
enhancing capacity building for first responders, particularly at a 
time when the responsibilities and requirements of first responders 
have grown to meet increasing homeland security and emergency 
management needs. Through the mutual aid system, the value of 
additional resource investments in preparedness and response 
capabilities is multiplied. Increased funding for FIRE, SAFER, and 
other homeland security grant programs improves training and resources 
available for use in mutual aid.

     Questions from the Honorable Charles W. Dent, Ranking Member, 
  Subcommittee on Emergency Communications, Preparedness, and Response

    Question 5.: Please discuss why you believe private ambulance 
service providers are not always included in intra- or inter-state 
mutual aid agreements? Aside from issues such as reimbursement and 
liability, what other factors might affect a State's decision whether 
to deploy non-governmental service providers to an emergency in another 
State?
    Response: There are a number of factors which may influence a 
state's decision to include private ambulance service providers in 
operational plans. In cases where private ambulance service providers 
are not directly affiliated with a local fire department, they are 
typically under a contract structure that may be outside the scope of 
local emergency plans. The contracts often require minimum response 
capabilities to be maintained at all times. In cases where private 
ambulance service providers meet, but do not greatly exceed these 
readiness levels, the private ambulance company may not have the 
resources to meet mutual aid commitments outside their contracts.
    In some areas, private ambulance service providers are primarily 
used for transportation and basic life support purposes, and may lack 
the advanced level of training and exercising necessary to respond to 
mass casualty events.
    The IAFC encourages states to ensure all ESF-8 (Health & Medical) 
resources operating within the state are included and utilized to the 
extent possible in the state operational plan.

    Question 6.: In your written testimony you mention that IAFC is 
leveraging its relationships with State fire chiefs associations as it 
helps develop strong intra-state mutual aid agreements. Do the State 
fire chiefs associations encompass all fire services across a State or 
is it also necessary to utilize other means of reaching out to fire 
stations? How do IAFC's efforts to develop intra-state agreements 
differ in areas that are predominantly rural or have volunteer--as 
opposed to career--fire services?
    Response: State fire chiefs associations encompass a large number 
of departments within a given state. However, not all states have a 
state fire chiefs association. In these cases, the IAFC has been able 
to work with other overarching entities, such as the State Fire 
Commissioner or State Office of Homeland Security, to accomplish 
completion of an intra-state mutual aid plan. When a state plan is 
developed, it provides every fire department with the same process to 
summon and receive resources, regardless of whether they are 
association members or not.
    The IAFC understands that rural America has different needs than 
suburban or urban areas. In rural areas, the numbers of personnel and 
equipment available at any given time may fluctuate, which reinforces 
the need for mutual aid.

    Question 7.: The State of California is known as having one of the 
strongest intra-state mutual aid systems within the fire service. Were 
there any lessons learned from the recent wildfires in Southern 
California that may assist other States as they develop and strengthen 
their own response capabilities?
    Response: My testimony noted that the state of California has built 
an effective state mutual aid plan that serves as a model for other 
states. California's mutual aid system consists of five escalating 
organizational levels that can be activated as necessary. My testimony 
noted in detail other factors critical to a strong mutual aid system, 
including a strong incident command system which allows multi-agency 
resources to operate under a common organizational structure; a single 
statewide recognized list of resources, as well as a system for 
ordering and tracking resources; an effective interoperable 
communications system; a statewide standard for the credentialing of 
personnel; a comprehensive compensation and reimbursement plan; 
articles of agreement that address issues relating to liability, 
workers' compensation, and dispute resolution; and a recognition of the 
need to maintain optimal functioning of equipment.
    The fall 2007 wildfires demonstrated the strength of California's 
mutual aid system. At the height of the fire siege, over 13,000 
firefighters and roughly 1,500 engines were deployed to combat the 
fires in southern California. A majority of these resources came from 
within the state of California, with additional firefighting resources 
provided by other western states.
    As I mentioned in my testimony, it is important that fire stations 
that provide mutual aid are reimbursed in a timely manner. 
Reimbursement can take months or years through the EMAC or federal 
reimbursement systems, causing significant financial distress on local 
fire departments who were simply trying to help their neighbors. In the 
recent California wildland fires, some out-of-state fire stations 
expressed concern about the delay in being reimbursed.
    California has assembled a Blue Ribbon Commission to fully examine 
the 2007 wildland fire season. When the Commission's report is 
completed, it will provide a more rigorous assessment and the 
opportunity to benefit from lessons learned.
    Again, I would like to thank you for the Committee's thoughtful 
attention to improving the mutual aid system, which is a critical 
element of emergency response.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
